APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second Circuit
(September 9, 2020) . . . . . . . . . . . App. 1
Appendix B Memorandum of Decision Granting
Defendants’ Motions for Judgment on
the Pleadings and to Dismiss and
Granting in Part and Denying in Part
Defendants’ Motion for Sanctions
(September 17, 2018) . . . . . . . . . App. 19
Appendix C Memorandum of Decision Granting
Defendants’ Motion to Dismiss the
Frazier Action and Granting
Defendant’s Motion to Dismiss the
Osborne Action in the United States
District Court District of Connecticut
(November 10, 2016) . . . . . . . . . . App. 64
Appendix D Decision Granting the Motion to
Dismiss Appeals of Orders in the
United States Court of Appeals for the
Second Circuit
(September 27, 2016) . . . . . . . . . App. 95

ii
Appendix E Memorandum of Decision Granting in
Part and Denying in Part Defendant’s
Motion to Dismiss the Second
Amended Complaint Brought by
Plaintiff’s Singleton and Lograsso,
Granting Defendant’s Motion to
Dismiss the Amended Complaint
Brought by Plaintiff Haynes and
Granting the Defendant’s Motion to
Dismiss the Amended Complaint
Brought by Plaintiffs McCullough,
Sakoda, and Weise in the United
States District Court District of Connecticut
(March 21, 2016) . . . . . . . . . . . . App. 104
Appendix F Order in the United States Court of
Appeals for the Second Circuit
(October 15, 2020) . . . . . . . . . . . App. 182
Appendix G Statutes and Rules Involved
. . . . . . . . . . . . . . . . . . . . . . . . . . App. 184

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
[Filed: September 9, 2020]
SUMMARY ORDER
R ULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER
FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND
IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE
32.1.1.WHEN CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION “SUMMARY ORDER”). A PARTY CITING A
SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY
NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of September,
two thousand twenty.
PRESENT: BARRINGTON D. PARKER,
MICHAEL H. PARK,
WILLIAM J. NARDINI,
Circuit Judges.

App. 2
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
Haynes, et al. v. World Wrestling Entertainment, Inc.
---------------------------------------------William Albert Haynes, III, Rodney Begnaud, AKA
Rodney Mack, Russ McCullough, individually and on
behalf of all others similarly situated, AKA Big Russ
McCullough, Ryan Sakoda, individually and on behalf
of all others similarly situated, Matthew Robert Wiese,
individually and on behalf of all others similarly
situated, AKA Luther Reigns, Evan Singleton, Vito
Lograsso, Cassandra Frazier, Individually and as next
of kin to her deceased husband, Nelson Lee Frazier, Jr.
a/k/a Mabel a/k/a Viscera a/k/a Big Daddy V a/k/a King
Mabel and as personal representative of The Estate of
Nelson Lee Frazier, Jr., Deceased, Shirley Fellows, on
behalf of Estate of Timothy Alan Smith a/k/a Rex King,
Joseph M. Laurinaitis, AKA Road Warrior Animal,
Paul Orndorff, AKA Mr. Wonderful, Anthony Norris,
AKA Ahmed Johnson, James Harris, AKA Kamala,
Chris Pallies, AKA King Kong Bundy, Ken Patera,
Barbara Marie Leydig, Terry Brunk, AKA Sabu, Barry
Darsow, AKA Smash, Bill Eadie, AKA Ax, John Nord,
Jonathan Hugger, AKA Johnny the Bull, James
Brunzell, Susan Green, Angelo Mosca, AKA King Kong
Mosca, James Manley, AKA Jim Powers, Michael Enos,
AKA Mike, AKA Blake Beverly, Bruce Reed, AKA
Butch, Sylain Grenier, Omar Mijares, AKA Omar
Atlas, Don Leo Heaton, AKA Don Leo Jonathan, Troy
Martin, AKA Shane Douglas, Marc Copani, AKA
Muhammad Hassan, Mark Canterbury, AKA Henry
Godwin, Victoria Otis, AKA Princess Victoria, Judy
Hardee, Judy Martin, Bernard Knighton, as Personal

App. 3
Representative of Estate of Brian Knighton, a.k.a. Axl
Rotten, Marty Jannetty, Terry Szopinski, AKA
Warlord, Sione Havia Vailahi, AKA Barbarian,
Timothy Smith, AKA Rex King, Tracy Smothers, AKA
Freddie Joe Floyd, Michael R. Halac, AKA Mantaur,
Rick Jones, AKA Black Bart, Ken Johnson, AKA Slick,
George Gray, AKA One Man Gang, Ferrin Jesse Barr,
AKA J.J. Funk, Rod Price, Donald Driggers, Ronald
Scott Heard, on behalf of estate of Ronald Heard also
known as Outlaw Ron Bass, Boris Zhukov, David Silva,
John Jeter, AKA Johnny Jeter, Gayle Schecter, as
Personal Representative of Estate Jon Rechner a.k.a.
Balls Mahoney, Ashley Massaro, AKA Ashley, Charles
Wicks, AKA Chad Wicks, Perry Satullo, AKA Perry
Saturn, Charles Bernard Scaggs, AKA Flash Funk,
Carole M. Snuka, on behalf of Estate of James W.
Snuka,
Consolidated Plaintiffs-Appellants,
Kyros Law P.C., Konstantine W. Kyros,
Appellants,
Michelle James, as mother and next friend of M.O., a
Minor Child and T.O, a Minor Child, Jimmy Snuka,
“Superfly,” by and through his guardian, Carole Snuka,
Salvador Guerrero, IV, AKA Chavo Guerrero, Jr.,
Chavo Guerrero, Sr., AKA Chavo Classic, Bryan
Emmett Clark, Jr., AKA Adam Bomb, Dave Hebner,
Earl Hebner, Carlene B. Moore-Begnaud, AKA Jazz,
Mark Jindrak, Jon Heidenreich, Larry Oliver, AKA
Crippler, Bobbi Billard, Lou Marconi, Bernard
Knighton, Kelli Fujiwara Sloan, on behalf of estate of
Harry Masayoshi Fujiwara,

App. 4
Consolidated Plaintiffs,

v.

18-3278 (L)
18-3322 (Con)
18-3325 (Con)
18-3326 (Con)
18-3327 (Con)
18-3328 (Con)
18-3330 (Con)

World Wrestling Entertainment, Incorporated,
Consolidated Plaintiff-Defendant-Appellee,
Vincent K. McMahon, Individually and as the Trustee
of the Vincent K. McMahon Irrevocable Trust U/T/A
dtd. June 24, 2004, as the Trustee of the Vincent K.
McMahon 2008, and as Special Trustee of the Vincent
K. McMahon 2013 Irrev. Trust U/A dtd. December 5,
2013 and as Trust,
Consolidated Defendant-Appellees,
Robert Windham, Thomas Billington, James Ware,
Oreal Perras, John Doe’s, Various,
Consolidated-Defendants.
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x

App. 5
FOR PLAINTIFF-APPELLANTS:
Kyros Law P.C. and Pro
Se
Appellant Konstantine
W. Kyros

Konstantine W. Kyros
Anthony M. Norris
KYROS LAW, P.C.
Hingham, MA.

FOR CONSOLIDATED PLAINTIFFS-APPELLANTS:
William Albert Haynes,
III, Russ McCullough,
Ryan Sakoda, Matthew
Robert Weise, Evan
Singleton, Cassandra
Frazier, Joseph M.
Laurinaitis, Paul
Orndorff, James Harris,
Chris Pallies and Ken
Patera, et al.

Erica C. Mirabella
MIRABELLA LAW, LLC
Boston, MA.

FOR CONSOLIDATED PLAINTIFFS-APPELLANTS:
Cassandra Frazier,
Joseph M. Laurinaitis,
Anthony Norris, James
Harris, Chris Pallies
and Ken Patera, et al.

R. Christopher Gilreath
GILREATH &
ASSOCIATES
One Memphis Place
Memphis, TN.

App. 6
FOR CONSOLIDATED PLAINTIFFS-APPELLANTS:
Joseph M. Laurinaitis,
Paul Orndorff, Anthony
Norris, James Harris,
Chris Pallies and Ken
Patera, et al.

S. James Boumil
BOUMIL LAW OFFICES
Lowell, MA.

FOR CONSOLIDATED PLAINTIFFS-APPELLANTS:
Joseph M. Laurinaitis,
Paul Orndorff, Anthony
Norris, James Harris,
Chris Pallies and Ken
Patera, et al.

Brenden P. Leydon
WOCL LEYDON, LLC
Stamford, CT.

FOR DEFENDANTS-APPELLEES:
World Wrestling
Entertainment Inc.
Vincent K. McMahon

Jerry S. McDevitt
Curtis B. Krasik
K&L GATES LLP
Pittsburgh, PA.
Jeffrey P. Mueller
DAY PITNEY LLP
Hartford, CT.

Appeal from the United States District Court for the
District of Connecticut (Bryant, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
appeals of sanctions orders are DISMISSED, the
merits appeals of the dismissal of all claims in Haynes

App. 7
v. World Wrestling Entertainment, Inc., McCullough v.
World Wrestling Entertainment, Inc., Frazier v. World
Wrestling Entertainment, Inc., and Singleton v. World
Wrestling Entertainment, Inc. are DISMISSED, and
the judgment of the district court on all other claims is
AFFIRMED.1
This appeal arises from seven cases consolidated in
the United States District Court for the District of
Connecticut.2 The cases were brought against World
Wrestling Entertainment Inc. by former WWE
wrestlers. The plaintiffs-appellants allege that, as a

1

This summary order resolves appeals from the following five
District of Connecticut cases: Haynes v. World Wrestling Entm’t,
Inc., No. 3:15-cv-1156 (VLB); Singleton v. World Wrestling Entm’t,
Inc., No. 3:15-cv-425 (VLB); Frazier v. World Wrestling Entm’t,
Inc., No. 3:15-cv-1305 (VLB); McCullough v. World Wrestling
Entm’t, Inc., 172 F. Supp. 3d 528 (2016), reconsideration denied,
No. 3:15-cv-10704 (VLB), 2016 WL 3962779 (July 21, 2016); and
Laurinaitis v. World Wrestling Entm’t, Inc., No. 3:16-cv-1209
(VLB).
2

Two of the seven consolidated cases have not been appealed. The
first was brought by World Wrestling Entertainment, Inc.
(“WWE”) in June 2015 in the District of Connecticut. World
Wrestling Entm’t, Inc. v. Windham et al., No. 3:15-cv-994 (VLB). In
Windham, WWE sought a declaratory judgment after appellant
Konstantine W. Kyros threatened to pursue litigation on behalf of
four previously unrepresented wrestlers. In that case, WWE was
granted relief in the form of a declaration stating that the claims
of those four wrestlers were time-barred. The second case that was
a part of the consolidation below but is not appealed here was
originally filed by Kyros in June 2015 in the Northern District of
Texas. James v. World Wrestling Entm’t, Inc., No. 3:15-cv-1229
(VLB). The district court dismissed James in November 2016 for
Plaintiffs’ lack of standing.

App. 8
result of physical trauma they experienced while
performing, they suffered neurological damage
resulting in diseases such as chronic traumatic
encephalopathy (“CTE”), in addition to other significant
physical and mental health impairments. In each of the
cases, the plaintiffs-appellants were represented by the
same attorney, Konstantine W. Kyros of Kyros Law
P.C. We assume the parties’ familiarity with the
underlying pleadings and their factual allegations, the
procedural and substantive rulings below, and the
issues on appeal.
I.
The first complaint in the consolidated cases was a
putative class action filed in the District of Oregon in
October 2014 on behalf of William Albert Haynes III,
better known as Billy Jack. Haynes v. World Wrestling
Entm’t, Inc., No. 3:15-cv-1156 (VLB).3 Several months
later, in January 2015, former wrestlers Vito LoGrasso
and Evan Singleton filed a putative class action in the
Eastern District of Pennsylvania. Singleton v. World
Wrestling Entm’t, Inc., No. 3:15-cv-425 (VLB). Both
wrestlers had forum selection clauses in their contracts
with WWE providing that litigation arising from the
contract be brought in the District of Connecticut,
where WWE is headquartered. The Pennsylvania court
enforced the forum selection clauses and transferred
the Singleton action to the District of Connecticut. In
February 2015, the estate of Nelson Lee Frazier Jr., a

3

Unless otherwise noted, when quoting from published judicial
decisions, all internal quotation marks, brackets, and citations
have been omitted.

App. 9
deceased wrestler, commenced a wrongful death action
in the Western District of Tennessee. Frazier v. World
Wrestling Entm’t Inc., No. 3:15-cv-1305 (VLB). In April
2015, wrestlers Russ McCullough, Ryan Sakoda, and
Matthew Wiese commenced another putative class
action, this time in the Central District of California.
McCullough v. World Wrestling Entm’t Inc., No. 3:15cv-1074 (VLB).
Around June 2015, the district court in Connecticut
presiding over the Singleton action became aware of
the pending actions in Oregon, Tennessee, and
California. The contracts with WWE signed by the
wrestlers in each case contained forum selection
clauses requiring litigation in the District of
Connecticut. All of the actions were eventually
transferred to Connecticut where they were
consolidated before the district court.
In March 2016, the district court dismissed all
claims in the Haynes, Singleton, and McCullough
actions for failure to state a claim, with the exception
of fraudulent omission claims on behalf of Singleton
and LoGrasso. McCullough v. World Wrestling Entm’t,
Inc., 172 F. Supp. 3d 528 (D. Conn.).
In November 2016, the district court granted
WWE’s motion to dismiss the wrongful death claim
asserted in Frazier. Frazier, who died in 2014, had
been cremated without having any of his brain tissue
examined. Frazier’s counsel had argued to the district
court that CTE can be diagnosed only through a postmortem examination of brain tissue. Because no
examination had been done on Frazier, the court
concluded that his estate could not plausibly allege that

App. 10
he had CTE. The court also concluded that Frazier’s
estate failed to plead any non-conclusory allegations
linking Frazier’s death to injuries sustained while
wrestling. Frazier had died of a heart attack, and the
operative pleading contained no allegations that heart
failure could result from CTE.
In a decision filed on March 28, 2018, the district
court granted summary judgment on the remaining
fraudulent omission claims in Singleton. The district
court concluded that the plaintiffs had not produced
evidence establishing that WWE knew of a risk of
permanent degenerative neurological conditions prior
to September 2007, when a widely publicized report on
CTE (the “Benoit report”) discussed those conditions.
The court concluded that no reasonable jury could find
that WWE concealed the dangers allegedly associated
with wrestling.
II.
After the district court dismissed all claims in the
Haynes and McCullough actions and dismissed all but
the fraud-by-omission claim for each plaintiff in the
Singleton action, the Haynes and McCullough plaintiffs
filed notices of appeal in this Court. WWE moved to
dismiss those appeals on the grounds that the appeals
were not taken from a final judgment that disposed of
all the consolidated cases. See Hageman v. City
Investing Co., 851 F.2d 69 (2d Cir. 1988). A panel of
this Court, applying the then-current law of this
Circuit, agreed that the final judgments in Haynes and
McCullough could not be appealed until final
judgments had been entered in all the consolidated
cases. Accordingly, the panel dismissed the Haynes and

App. 11
McCullough appeals without prejudice. See
McCullough v. World Wrestling Entm’t, Inc., 838 F.3d
210, 214 (2d Cir. 2016).
More than a year later, on March 27, 2018, the
Supreme Court held that in consolidated cases such as
these, a final judgment in one of the cases is
immediately appealable even where final judgments
have not been entered in each of the consolidated cases.
Hall v. Hall, 138 S. Ct. 1118, 1131 (2018) (“[Federal
Rule of Civil Procedure] 42(a) did not purport to alter
the settled understanding of the consequences of
consolidation. That understanding makes clear that
when one of several consolidated cases is finally
decided, a disappointed litigant is free to seek review of
that decision in the court of appeals.”).
Following the decision in Hall, neither the
appellants in Haynes and McCullough, nor any
plaintiff in Singleton or Frazier sought relief from this
Court or in the district court. This inaction was fatal.
Arguments as to Hall’s applicability or as to any “workarounds” have been waived. Hall controls and renders
the notices of appeal in Haynes, Singleton, Frazier, and
McCullough untimely. Untimely notices of appeal are
jurisdictional bars to this Court’s review. See Bowles v.
Russell, 551 U.S. 205, 209 (2007) (“This Court has long
held that the taking of an appeal within the prescribed
time is ‘mandatory and jurisdictional.’”). Accordingly,
we lack appellate jurisdiction over the appeals in
Haynes, McCullough, Frazier, and Singleton and, for
that reason, those appeals are dismissed.

App. 12
III.
In July 2016, Laurinaitis v. World Wrestling Entm’t,
Inc., No. 3:16-cv-1209 (VLB), a suit brought by fifty
former WWE wrestlers, was commenced in the District
of Connecticut. The complaint included a number of
tort claims and, in addition, sought relief under various
statutes on the ground that, in its contracts with the
wrestlers, WWE had misclassified them as independent
contractors. WWE moved to dismiss the action and the
district court granted the motion, holding that the
claims were either time-barred, barred by prior rulings,
or frivolous.
Connecticut law requires tort claims to be brought
“within three years from the date of the act or omission
complained of.” Conn. Gen. Stat. § 52-577. The threeyear period “begins with the date of the act or omission
complained of, not the date when the plaintiff first
discovers an injury.” Collum v. Chapin, 40 Conn. App.
449, 451–52 (1996) (citing Fichera v. Mine Hill Corp.,
207 Conn. 204, 212–13 (1988)). The complaint in
Laurinaitis alleges that WWE concealed the risk that
concussive blows to the head could cause permanent
degenerative neurological conditions with the aim of
inducing the wrestlers to continue performing. The
district court dismissed the complaint, reasoning that
any concealment of information alleged to have
occurred must have occurred at a time when the
wrestlers were still performing, and because it was not
disputed that none had wrestled later than 2011, their
tort claims were time-barred. We find no error in the
district court’s conclusion.

App. 13
Under Connecticut law, wrongful death claims must
be brought “within two years from the date of death”
except that “no such action may be brought more than
five years from the date of the act or omission
complained of.” Conn. Gen. Stat. § 52-555(a). Section
52-555 may “serve as a bar to a wrongful death claim”
even if “an injured victim could not have known that he
or she had a claim against the alleged tortfeasor until
after the limitation period had expired.” Greco v.
United Techs. Corp., 277 Conn. 337, 353 (2006). The
district court correctly determined that none of the
plaintiffs in the Laurinaitis action had wrestled for
WWE within five years of the filing of that complaint
and thus the wrongful death claims were also timebarred. Again, we find no error.
The remaining claims are also time-barred. The
misclassification claims allege that the wrestlers’
classification as independent contractors was a part of
a scheme to defraud. Even assuming the longer sixyear statute of limitations for contract claims applies,
compare Conn. Gen. Stat. § 52-577 with Conn. Gen.
Stat. § 52-576, none of the wrestlers plausibly alleged
that they were first misclassified within six years of the
filing of the Laurinaitis complaint. Finally, we affirm
the dismissal of plaintiff’s Occupational Safety and
Health Act (“OSHA”), Employee Retirement Income
Security Act (“ERISA”), Racketeer Influenced and
Corrupt Organizations Act (“RICO”), Family and
Medical Leave Act (“FMLA”), and unconscionable
contracts claims for the reasons stated by the district
court.

App. 14
Connecticut statutes of repose may, under
appropriate circumstances, be tolled under what its
courts term the ‘continuing course of conduct’ doctrine.
Watts v. Chittenden, 301 Conn. 575, 583–84 (2011)
(recognizing that a period of repose may be tolled in the
proper circumstances, reflecting the “policy that,
during an ongoing relationship, lawsuits are premature
because specific tortious acts or omissions may be
difficult to identify and may yet be remedied”).
Appellants contend that it applies in this case.
Pursuant to that doctrine, a plaintiff must show that a
defendant: “(1) committed an initial wrong upon the
plaintiff; (2) owed a continuing duty to the plaintiff that
was related to the alleged original wrong; and
(3) continually breached that duty.” Witt v. St. Vincent’s
Med. Ctr., 252 Conn. 363, 370 (2000). Where
Connecticut courts have found a duty “continued to
exist after the cessation of the act or omission relied
upon, there has been evidence of either a special
relationship between the parties giving rise to such a
continuing duty or some later wrongful conduct of a
defendant related to the prior act.” Macellaio v.
Newington Police Dep’t, 145 Conn. App. 426, 435
(2013). The existence of a special relationship “will
depend on the circumstances that exist between the
parties and the nature of the claim at issue.” Saint
Bernard Sch. of Montville, Inc. v. Bank of Am., 312
Conn. 811, 835 (2014).
The district court concluded that the Laurinaitis
plaintiffs failed plausibly to allege a special or
continuing relationship between themselves and WWE,
in part because “a mere contractual relationship does
not create a fiduciary or confidential relationship,” Id.

App. 15
at 836. There were no plausible allegations in the
complaint that could lead the court reasonably to
conclude that WWE had a continuing duty to provide
comprehensive health care to the wrestlers after they
stopped performing. Likewise, the district court was
unpersuaded by the allegation that continuing royalty
payments somehow gave rise to a duty on the part of
WWE with respect to the alleged misclassification as
independent contractors. We agree with the district
court and we similarly conclude that the continuingcourse-of-conduct doctrine did not cause the otherwise
applicable statutes of limitation or repose to be tolled.
The district court was also correct that the statutes
of limitation and repose should not be tolled under the
fraudulent concealment doctrine. For the doctrine to
apply, the wrestlers were required plausibly to allege
that WWE “(1) had actual awareness, rather than
imputed knowledge, of the facts necessary to establish
the plaintiffs’ cause of action; (2) intentionally
concealed these facts from the plaintiffs; and
(3) concealed the facts for the purpose of obtaining
delay on the plaintiffs’ part in filing a complaint on
their cause of action.” Falls Church Grp., Ltd. v. Tyler,
Cooper & Alcorn, LLP, 281 Conn. 84, 105 (2007). Proof
of fraudulent concealment requires “clear, precise, and
unequivocal evidence.” Id.
We agree with the district court that the complaint
in Laurinaitis contained no plausible allegations that
WWE fraudulently concealed any causes of action from
its wrestlers. We therefore affirm the district court’s
grant of WWE’s motion to dismiss the Laurinaitis
action.

App. 16
IV.
During the course of the actions discussed above,
WWE moved under Rules 11 and 37 for sanctions
against plaintiffs-appellants’ counsel in the Singleton
and Laurinaitis actions. The district court referred the
motions to Magistrate Judge Robert A. Richardson
who, in a Report and Recommendation dated February
22, 2018, recommended that monetary sanctions be
awarded. The district court adopted the
Recommendation. The district court wrote that “this
case has been characterized by [counsel’s] repeated
failures to comply with the clear and unambiguous
provisions of the Federal Rules of Civil Procedures and
this Court’s repeated instructions and admonitions,
which has resulted in a considerable waste of the
Court’s and the Defendants’ time and resources.”
While sanctions have been awarded, the amount of
sanctions has not been determined; consequently, this
Court lacks appellate jurisdiction over the sanctions
appeal. See Pannonia Farms, Inc. v. USA Cable, 426
F.3d 650, 652 (2d Cir. 2005) (per curiam); see also
Discon, Inc. v. NYNEX Corp., 4 F.3d 130, 133 (2d Cir.
1993) (“[A] sanction order that leaves the amount of the
sanction for later determination is not final and,
therefore, not appealable under [28 U.S.C.] § 1291.”).
We therefore dismiss appellant Kyros’s appeal of the
Rule 37 and Rule 11 sanctions orders. We have
considered the plaintiffs-appellants’ remaining
arguments and conclude that they are either waived or
without merit.
In sum, the appeals in Haynes v. World Wrestling
Entertainment, Inc., No. 3:15-cv-1156 (VLB), Singleton

App. 17
v. World Wrestling Entertainment, Inc., No. 3:15-cv-425
(VLB), Frazier v. World Wrestling Entertainment, Inc.,
No. 3:15-cv-1305 (VLB), and McCullough v. World
Wrestling Entertainment, Inc., 172 F. Supp. 3d 528 (D.
Conn. 2016) (VLB), are dismissed because the notices
of appeal were untimely and we therefore lack
appellate jurisdiction.
We also lack appellate jurisdiction over the appeal
of sanctions orders in Singleton and Laurinaitis v.
World Wrestling Entertainment, Inc., No. 3:16-cv-1209
(VLB) because the amount of the sanctions has not
been set and thus the order is not yet final. Finally, we
affirm the district court’s dismissal of all claims in
Laurinaitis. Those claims are time-barred, and the
plaintiffs-appellants have failed to plausibly allege that
the applicable limitations period should be tolled.
CONCLUSION
Accordingly, the appeals of the merits orders in
Haynes, McCullough, Frazier, and Singleton are
DISMISSED for lack of appellate jurisdiction. The
appeal of sanctions ordered in Laurinaitis and
Singleton is DISMISSED for lack of appellate
jurisdiction. The judgment of the district court in all
other respects is AFFIRMED.4

4

WWE’s motions to amend the captions are DENIED. See Fed. R.
App. P. 12(a) (“Upon receiving the copy of the notice of appeal . . .
the circuit clerk must docket the appeal under the title of the
district-court action.”).

App. 18
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

App. 19

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
[Filed: September 17, 2018]
CIVIL ACTION NO. 3:15-CV-1074 (VLB)
LEAD CASE
____________________________________
RUSS MCCULLOUGH, et al.
)
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.,
)
Defendant.
)
____________________________________)
-----------------------------CIVIL ACTION NO. 3:15-CV-994 (VLB)
CONSOLIDATED CASE
____________________________________
WORLD WRESTLING
)
ENTERTAINMENT, INC.,
)
Plaintiff,
)
)
v.
)
)

App. 20
ROBERT WINDHAM, THOMAS
)
BILLINGTON, JAMES WARE,
)
and OREAL PERRAS,
)
Defendants.
)
____________________________________)
-----------------------------CIVIL ACTION NO. 3:16-CV-1209 (VLB)
CONSOLIDATED CASE
____________________________________
JOSEPH M. LAURINAITIS, et al., )
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.
)
and VINCENT K. MCMAHON
)
Defendants.
)
____________________________________)
September 17, 2018
MEMORANDUM OF DECISION
GRANTING DEFENDANTS’ MOTIONS FOR
JUDGMENT ON THE PLEADINGS
[DKT. NO. 205] AND TO DISMISS [DKT. NOS.
266, 269] AND GRANTING IN PART AND
DENYING IN PART DEFENDANTS’ MOTION
FOR SANCTIONS [DKT, NO. 262]

App. 21
I. Introduction
On September 29, 2017, this Court issued an order
(the “Order”) regarding a motion for judgment on the
pleadings and motions to dismiss and for sanctions
filed by World Wrestling Entertainment, Inc. (“WWE”)
and Vincent McMahon (collectively, Defendants). The
Order directed counsel for the Plaintiffs in the
Laurinaitis action (“Laurinaitis Plaintiffs”) and
declaratory judgment Defendants in the Windham
action (“DJ Defendants” or “Windham Defendants”)
(collectively, “Plaintiffs” or the “Wrestlers”) to “file
amended pleadings which comply with Federal Rules
of Civil Procedure 8 and 9 and which set forth the
factual basis of their claims or defenses clearly and
concisely in separately numbered paragraphs.” [Dkt.
No. 362 at 20]. In order to assist Plaintiffs’ counsel to
meet their theretofore unsatisfied pleading obligation–
as noted in the Court’s prior rulings–and to mitigate
any potential further prejudice to the Defendants, the
Court also required the Wrestlers’ counsel to
demonstrate that they had conducted factual due
diligence in preparation for filing an amended
complaint by:
submitting for in camera review affidavits
signed and sworn under penalty of perjury,
setting forth facts within each plaintiff’s or
[declaratory judgment] defendant’s personal
knowledge that form the factual basis of their
claim and defense, including without limitation:
1. the date or dates on which they wrestled
for WWE or any or its agents or affiliates
(including the first and last date);

App. 22
2. if they wrestled for more than one person
and or entity, for whom they wrestled,
and for what period of time;
3. whether they ever signed any agreement
or other document in connection with
their engagement to wrestle by or for
WWE or any of its agents or affiliates;
4. whether they were ever or are now in
possession of any document relating to
their engagement to wrestle by or for
WWE or any of its agents or affiliates,
including without limitation W-4s, W-2s
or 1099s; and
5. what specific WWE employees or agents
said or did that forms the basis of each
and every one of the claims or defenses in
the wrestler’s pleading, including:
a. a reference to the specific paragraph of
the complaint;
b. when and where such act occurred or
such statement was made;
c. the identities of any and all the
persons present at the time of the act
or statement; and
d. any and all other facts personally
known to the affiant that form the
basis of their belief that WWE or any
or its agents or affiliates knew or
should have known that wrestling
caused any traumatic brain injuries,
including CTE.
Id. at 20-21. The Court reserved its judgment on
pending motions to dismiss, for judgment on the

App. 23
pleadings, and for sanctions, to give the Wrestlers a
final opportunity to file pleadings that complied with
both the Federal Rules of Civil Procedure and the
Order.
The Wrestlers filed a Second Answer in the
Windham action [Dkt. No. 364] and a Second Amended
Complaint (“SAC”) in the Laurinaitis action [Dkt. No.
363] on November 3, 2017. The Wrestlers’ counsel also
submitted for in camera review affidavits from each
Wrestler. After reviewing each of these submissions,
and for the reasons that follow, the Court finds that
Wrestlers’ counsel did not comply with the Order and
that declaratory judgment, dismissal, and sanctions are
warranted.
II.

Background

On January 16, 2015, Plaintiff’s counsel,
Konstantine Kyros filed the first of six lawsuits on
behalf of former WWE wrestlers, alleging they are
either suffering from symptoms of permanent
degenerative neurological conditions resulting from
traumatic brain injuries sustained during their
employment, or are at increased risk of developing such
conditions. As set forth below, this case has been
characterized by Attorney Kyros’ repeated failures to
comply with the clear, and unambiguous provisions of
the Federal Rules of Civil Procedure and this Court’s
repeated instructions and admonitions, which has
resulted in a considerable waste of the Court’s and the
Defendants’ time and resources.

App. 24
A. Attorney Kyros’ Attempts to Evade the
Court’s Jurisdiction
The first of the consolidated cases, with lead
plaintiffs Evan Singleton and Vito LoGrasso, purported
to be a class action and was transferred to this Court
from the Eastern District of Pennsylvania pursuant to
a forum selection clause in contracts signed by each of
the plaintiffs. [Dkt. No. 6]. Thereafter, Attorney Kyros
filed several purported class actions in districts other
than Connecticut, each seeking the same or similar
redress for the same alleged conduct as the purported
class action pending before this Court. Each of these
cases was subsequently transferred to this Court, with
the District of Oregon noting that counsel’s choice of
forum showed evidence of forum shopping. Attorney
Kyros them filed the Laurinitis action in this district
but which was randomly assigned to Judge Eginton,
thereupon Attorney Kyros attempted to prevent the
case from being transferred to this Court, despite the
clear and unambiguous language of this district’s
related case rule.
WWE sought sanctions against Kyros due to his
persistence in filing suit in courts outside of this
district. In the exercise of utmost restraint the Court
denied this motion, but noted Kyros’ actions appeared
to be “part of a vexatious and transparent attempt to
circumvent two prior decisions by district courts in
Oregon and California either enforcing the forumselection clauses or nonetheless transferring WWE
concussion litigation to this district.” [Dkt. No. 253 at
25]. The Court also noted that “Plaintiffs’ forumshopping has forced multiple district courts to exert

App. 25
needless effort to corral these cases to the proper
forum.” Id. Nevertheless, the Court denied WWE’s
motion for sanctions because Kyros had filed the most
recent of the consolidated cases in the correct district.
Id. at 25-26. The Court noted, however, that it was
“open to reconsidering this finding at a later date
should Kyros revert to bad habits.” Id. at 26.
B. Attorney Kyros Repeatedly Files
Complaints Rife with Irrelevant,
I n f l a m m a t o r y, an d I n a c c u r a t e
Information
The complaints in the initial actions consolidated
before this Court were nearly identical. They were
exceedingly long and consisted of paragraphs asserting
generalities, legal conclusions and facts unrelated to
the plaintiffs’ claims. The Court repeatedly instructed
Attorney Kyros on his professional obligations under
Federal Rules of Civil Procedure 8, 9, and 11. For
example, in a June 8, 2015 scheduling conference, the
Court admonished Plaintiffs that “[t]he defendant
shouldn’t have to write a motion to dismiss, nor should
the Court have to read, research, and write a decision
on a motion to dismiss when it’s patently clear to the
parties prior to the filing of the motion, that the claim
should be dismissed.” [Case No. 15-cv-425, Dkt. No. 73
at 49]. The Court went on to explain that:
“[A] complaint should be a compilation of facts facts. I’d really, really like you to read the
Federal rule, give it some close consideration,
perhaps read some cases on the pleadings
standards, and then file this complaint again in
a week without any scrivener errors, without a

App. 26
lot of superfluous, hyperbolic, inflammatory
opinions and references to things that don’t have
any relevance.”
Id. at 60. The Court specifically noted that the
Singleton complaint referenced a report that became
public in 2014, claimed that the plaintiffs were
deceased when they were not, and referenced events
that transpired in the lives of wrestlers who were not
parties to the lawsuit. Id. at 60-64. The Court asked,
“What does that have to do with either of your
clients? They had both stopped wrestling before
2014. I see no reason to include that in the
complaint, other than to inflame. It’s
argumentative. A complaint should be clear and
concise statement of the facts that form the
basis of your claim. So you need to identify what
claim you’re asserting, do the research to find
out what facts have to be proven in order to
establish that claim and allege the facts that are
necessary to prove each claim. Because the rest
of that is just window dressing. And that’s where
you get into the trouble that you’re in where
you’re asserting that someone’s dead who’s not
because the complaint is full of hyperbolic stuff
. . . . [I]t may be clear, but . . . it’s not concise and
it’s not accurate.
Id. at 61. The Court then granted the plaintiffs leave to
amend their complaint, which they did.
Despite deficiencies in the amended complaints filed
in the Singleton case and others, the Court considered
WWE’s motions to dismiss the complaints on their

App. 27
merits, and dismissed claims (1) for negligence for
failure to state a claim under Connecticut law; (2) for
negligent misrepresentation and fraudulent deceit, for
failure to identify with any specificity any false
representation by WWE upon which the plaintiffs
relied; (3) and for fraudulent concealment and medical
monitoring, because neither stated a separate and
independent cause of action under Connecticut law.
[Dkt. No. 116 at 70]. The ruling also stated that the
complaints were “excessively lengthy, including large
numbers of paragraphs that offer content unrelated to
the Plaintiffs’ causes of action and appear aimed at an
audience other than this Court.” [Dkt. No. 116 at 4].
A fraudulent omission claim as to plaintiffs
Singleton and LoGrasso survived the summary
judgment stage, on the ground that these plaintiffs had
adequately alleged that WWE knew of the risk that
repeated concussions or subconcussive blows could
cause permanent degenerative neurological conditions
like CTE as early as 2005 and fraudulently failed to
disclose this risk.
C. Attorney Kyros’ Conduct During the
Discovery and Summary Judgment
Phases of Singleton
The parties conducted discovery into Singleton’s and
Lograsso’s claims, during which WWE attempted to
uncover, among other things, the basis for plaintiffs’
allegations that (1) Singleton experienced symptoms
associated with a traumatic brain injury from which he
suffered while wrestling for WWE; (2) WWE made
“deceptive public statements” which “downplayed
known long-term health risks of concussions”; (3) WWE

App. 28
attempted to criticize or discredit studies relating to
brain trauma or CTE; (4) individuals associated with
WWE stated “wrestlers diagnosed with brain trauma
did not receive these injuries as a result of wrestling for
WWE.” [See Dkt. No. 198 at 22-35]. WWE also sought
information regarding the specific fraudulent omissions
or misrepresentations that formed the basis of the
plaintiffs’ claims. Id. at 36. Plaintiffs were unable or
failed to do so. When the plaintiffs served deficient
interrogatory responses relating to these issues, WWE
filed a motion to compel, which the Court granted in
part. With respect to interrogatories asking Plaintiff to
identify a person or statement, the Court noted that
“[w]here Plaintiff is unable to identify a statement or
speaker in response to an interrogatory, Plaintiff must
state that fact.” [Dkt. No. 144].
Plaintiffs supplemented their responses. However,
WWE judged these responses insufficient, and filed a
motion for Rule 37 sanctions, arguing that plaintiffs
failed to comply with the Court’s ruling on WWE’s
motion to compel. [See Dkt. No. 198]. WWE specifically
asked the Court to dismiss the case with prejudice and
to award attorney’s fees. On February 22, 2018,
Magistrate Judge Robert A. Richardson issued a ruling
recommending that the Court order further
supplementation of these six interrogatories, and that
the Court order Attorney Kyros and his law offices to
pay WWE all of the legal fees that it incurred in
connection with its motion for sanctions. [Dkt. No. 371
at 17]. While Judge Richardson recommended deniying
WWE’s motion to the extent it sought dismissal with
prejudice, he noted that “plaintiffs and their counsel
are now on notice that any further noncompliance

App. 29
during the remainder of this litigation may result in
dismissal of the case.” Id. at 18. The Court adopted this
recommended ruling on July 22, 2018. [See Dkt. No.
376].
Shortly after Judge Richardson issued his
recommended ruling, on March 28, 2018, the Court
granted summary judgment as to Singleton’s and
LoGrasso’s claims on the grounds that (1) Plaintiffs
failed to present any evidence that WWE knew of the
risk that concussions could cause permanent
degenerative neurological conditions prior to 2007,
which was after LoGrasso’s retirement from wrestling;
and (2) WWE offered undisputed evidence that it
warned Singleton of the risk before he sustained his
career-ending injury in 2012. [Dkt. No. 374 at 18-19].
The Court also noted that Plaintiffs’ counsel had once
again “asserted facts and advanced legal theories for
which there is no reasonable evidentiary and legal
basis” and again “caution[ed] that such conduct
subjects counsel to Rule 11 sanctions.” [Dkt. No. 374 at
21]. The Court then advised Plaintiffs’ attorneys to
discharge their ethical duty to the court by “read[ing]
the record in its entirety before filing anything with the
Court to assure their reasonable belief in any and all
future assertions of fact and law.” Id.
D. Windham Procedural History
WWE filed a complaint for declaratory judgment
(“DJ”) against the Windham Defendants, arguing that
the potential claims raised in demand letters sent by
these Defendants were barred by Connecticut’s
statutes of limitations and repose. The Windham
Defendants filed a motion to dismiss the DJ action. In

App. 30
their motion, the Windham Defendants argued that the
Court lacked subject matter jurisdiction to issue a
declaratory judgment, because the anticipated lawsuits
that WWE identified were too remote and speculative
to create a justiciable case or controversy. The Court
granted the Windham Defendants’ motion to dismiss
on the grounds that it had denied WWE’s motion to
dismiss LoGrasso’s complaint.
WWE filed a motion for reconsideration of this
dismissal, arguing in part that the Court erred when it
presumed that the tolling doctrines which permitted
LoGrasso’s suit to move forward also applied to the
declaratory judgment action. In particular, WWE
argued:
“The Court’s conclusion that Plaintiff LoGrasso
plausibly alleged a basis for tolling under the
continuing course of conduct and fraudulent
concealment exceptions was based on his
allegations that WWE knew of information
concerning a link between repeated head trauma
and permanent neurological conditions in 2005
or later. By 2005, all of the tort claims
threatened by the named Defendants in the
Windham action would have been foreclosed for
years because none of them had performed for
WWE since at least 1999.”
[Dkt. No. 119-1 at 15 (citations omitted)]. The Court
granted WWE’s motion for reconsideration in part,
holding that a case or controversy existed with respect
to the named DJ Defendants, and holding that the
application of Connecticut procedural law was
appropriate given that several related cases were

App. 31
already pending in Connecticut, and that even if the
Windham Defendants filed their cases in different
districts, they would likely be transferred to
Connecticut. [Dkt. No. 185 at 39-42]. The Court did not
decide whether tolling the statutes of limitation or
repose would be appropriate as to the Windham
Defendants.
In the Order, the Court stated:
[T]he DJ answer does not articulate any facts
suggesting that discovery will uncover of facts
which would support the defenses asserted. The
Court cannot consider WWE’s motion for
judgment on the pleadings in a vacuum; the
Court must consider the motion in the context of
the sufficiency of the allegations of the
complaints in all of the consolidated cases. In
that regard, counsel for the Windham
Defendants has been involved in the filing of six
separate actions, some of which named plaintiff
wrestlers who had ceased performing for WWE
well before 2005. Despite being hundreds of
pages long, in none of the complaints filed before
Defendants filed the DJ action did the wrestlers’
counsel plausibly allege that before 2005, WWE
knew of a link between repeated head trauma
and permanent degenerative neurological
conditions and fraudulently failed to disclose
this link to its performers. Nor do the Windham
Defendants.
....

App. 32
Because (1) the Court has already thoroughly
evaluated the issues presented in the
consolidated cases, determining that the claims
of wrestlers who had stopped performing for
WWE prior to 2005 are barred; (2) the Windham
Defendants have not offered any indication in
their answer to WWE’s declaratory judgment
complaint that their anticipated claims would
deviate from the claims asserted by the plaintiffs
in the earlier consolidated cases; and (3) because
additional discovery would be wasteful and
unnecessary, the Court is inclined to grant
WWE’s Motion for Judgment on the Pleadings.
[Dkt. No. 362 at 17-19]. Nevertheless, the Court
deferred judgment on WWE’s Motion for Judgment on
the Pleadings, to give the DJ Defendants the
opportunity to amend their answer to specifically allege
known facts or “facts likely to be discovered on further
investigation” that would show that their claims were
not time-barred and to submit affidavits from each of
the DJ Defendants consistent with the Order.
E. Laurinaitis Procedural History
On July 18, 2016, Attorney Brenden Leydon filed
the Laurinaitis complaint, which was also signed by
Attorney Kyros, Anthony M. Norris, Erica C. Mirabella
and Sylvester J. Boumil. This complaint named 53
plaintiffs, was 213 pages long, featured 667 separate
paragraphs, and was accompanied by twelve exhibits
totaling 208 pages. [Case No. 3:16-cv-1209, Dkt. No. 1].
The case was initially assigned to U.S. District Judge
Warren W. Eginton, who ordered the case transferred
to this Court under the District’s related case policy on

App. 33
September 27, 2016, following motion practice. [Case
No. 3:16-cv-1209, Dkt. Nos. 28, 35, 39]. On October 3,
2016, this Court consolidated the case with the other
WWE concussion cases pending before this Court.
[Case No. 3:16-cv-1209, Dkt. No. 45]. Defendants WWE
and Vincent McMahon filed motions for sanctions and
to dismiss on October 17 and October 19, respectively.
[Dkt. Nos. 228-236]. The Court referred the sanctions
motion to Judge Richardson on November 4, 2016.
[Dkt. No. 249].
In the first sanctions motion, the Defendants stated
that, pursuant to Federal Rule of Civil Procedure
11(c)(2), they served motions for sanctions on Plaintiffs
on August 5, 2016 and August 19, 2016, “advising them
that the Complaint made patently false allegations,
asserted time-barred and frivolous legal claims . . . [and
that] at least 19 of the Plaintiffs executed releases
covering the claims in the Complaint.” [Dkt. No. 229 at
21]. Specifically, the motion alerted Plaintiffs that their
complaints contained “patently false and nonsensical
allegations” resulting from Plaintiffs’ counsel’s decision
to “plagiarize extensive portions” of the compliant filed
in the National Football League (“NFL”) concussion
litigation. [Dkt. No. 229 at 23-24]. These allegations
included, for example, the name NFL rather than
WWE, the assertion that “wrestler” Mike Webster
“sustained repeated and disabling head impacts while
a player for the Steelers,” despite the facts that Mr.
Webster was a football player, not a wrestler, and that
the Steelers are an NFL team unaffiliated with the
WWE. [Dkt. No. 229 at 24 (citing Compl. ¶ 249)].
Although Defendants identified several other obviously
false allegations, Plaintiffs’ counsel did not withdraw or

App. 34
amend their complaint within 21 days of service of the
sanctions motion. See Fed. R. Civ. P. 11(c)(2)
(permitting a party on whom a sanctions motion is
served 21 days to withdraw or amend their submission
before the party seeking sanctions can file the
sanctions motion before the Court). Nearly three
months after the sanctions motion was filed, Plaintiffs’
counsel had not withdrawn or amended any
allegations. Not until November 9, 2016–and only after
the Court referred the sanctions motion to Judge
Richardson–did Plaintiffs withdraw or amend their
allegations by filing their First Amended Complaint
(“FAC”). [Dkt. No. 252].
While the FAC removed or edited some of the most
egregiously false allegations, it still fell well short of
the requirements set forth in Rules 8, 9, and 11.
Defendants filed motions to dismiss the FAC and for
sanctions on December 23, 2016, which the Court
addressed in the Order. [Dkt. Nos. 262-270, 362]. The
Court noted that the FAC had ballooned to 335 pages
and 805 paragraphs. [Dkt. No. 362 at 7]. The Court
also cited several examples of “inaccurate, irrelevant,
or frivolous” allegations,1 and noted:

1

The Court’s opinion cited the following paragraphs of the FAC:
¶¶ 51 (referencing a study published in October 2015 despite the
fact that none of the Laurinaitis Plaintiffs were still performing at
that time), 108 (noting that WWE instructed a female wrestler not
to report a sexual assault she endured while on a WWE tour
despite the fact that this has no relevance to her claims about
neurological injuries or the enforceability of her booking contract),
130 (noting that WWE is a monopoly that earns $500 million
annually), 157 (quoting general observations from the book of a
wrestler who is not a party to this lawsuit), 159-161 (noting that

App. 35
“Despite repeatedly requesting that plaintiffs’
counsel exclude irrelevant allegations and
ensure that each claim in each consolidated case
have a reasonable factual and legal basis, this
Court has, in an abundance of deference to the
wrestler plaintiffs and to the detriment of WWE,
applied a liberal pleading standard more suited
to a pro se plaintiff than to a licensed attorney
asserting claims on behalf of an entire class.”
Id. at 19. Nevertheless, the Court granted Plaintiffs
one final opportunity to file a complaint that complied
with the Federal Rules of Civil Procedure, giving notice
that failure to do so would result in dismissal with
prejudice and the imposition of sanctions.
The Laurinaitis Plaintiffs filed the SAC on
November 3, 2017. The SAC is 225 pages long and
contains 669 paragraphs. The Court indicated in the
Order that the parties need not file any briefs or
motions relating to the SAC, in an attempt to minimize

the WWE does not provide wrestlers with health insurance), 28993 (describing a fictional storyline in which a doctor claimed on
television that a wrestler who is not a Laurinaitis Plaintiff
suffered a serious concussion, when in fact he “did not have post
concussion syndrome” and the storyline was intended only to
“create dramatic impact for the fans”), and 302 (stating that “100%
of the four wrestlers studied to date” showed signs of chronic
traumatic encephalopathy (“CTE”) when a publicly available study
published by Bennet Omalu, a neuropatholgist mentioned
elsewhere in the complaint, stated that he examined the brains of
four wrestlers and founds signs of CTE in only two of them and
therefore Plaintiffs knew that only 50% of a statistically
insignificant number of former wrestlers were found to have had
CTE).

App. 36
the costs to the parties and the Court, and because the
Court had reserved judgment on Defendants’ fully
briefed motions to dismiss, for judgment on the
pleadings, and for sanctions. Nevertheless, Defendants
filed an informal response with a list of allegations that
they asserted were still irrelevant or frivolous. [See
Dkt. No. 365]. Plaintiff filed a responsive brief, which
primarily criticized Defendants’ brief for failing to
conform to the requirements for a formal motion to
dismiss, and which did not attempt to explain why the
allegations that the Defendants identified were
relevant or non-frivolous, and did not attempt to
explain why sanctions should not be imposed. [See Dkt.
No. 366].
I.

Legal Standard
A. Motion for Judgment on the Pleadings

“After the pleadings are closed, but early enough
not to delay trial, a party may move for judgment on
the pleadings.” Fed. R. Civ. P. 12(c). “A motion for
judgment on the pleadings is decided on the same
standard as a motion to dismiss under Fed. R. Civ. P.
12(b)(6).” Barnett v. CT Light & Power Co., 900 F.
Supp. 2d 224, 235 (D. Conn. 2012) (citing Hayden v.
Paterson, 594 F.3d 150, 159 (2d Cir. 2010)).
B. Motion to Dismiss
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.”
Sarmiento v. U.S., 678 F.3d 147, 152 (2d Cir. 2012)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
While Rule 8 does not require detailed factual

App. 37
allegations, “[a] pleading that offers ‘labels and
conclusion’ or ‘formulaic recitation of the elements of a
cause of action will not do.” Nor does a complaint
suffice if it tenders ‘naked assertion[s]’ devoid of
‘further factual enhancement.’” Iqbal, 556 U.S. 662, 678
(2009) (citations omitted). “Where a complaint pleads
facts that are ‘merely consistent with’ a defendant’s
liability, it stops short of the line between possibility
and plausibility of ‘entitlement to relief.’” Id. (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 557 (2007)).
“A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Id. (internal citations omitted).
In general, the Court’s review on a motion to
dismiss pursuant to Rule 12(b)(6) “is limited to the
facts as asserted within the four corners of the
complaint, the documents attached to the complaint as
exhibits, and any documents incorporated in the
complaint by reference.” McCarthy v. Dun & Bradstreet
Corp., 482 F.3d 184, 191 (2d Cir. 2007). The Court may
also consider documents of which the Plaintiffs had
knowledge and relied upon in bringing suit, Brass v.
American Film Technologies, Inc., 987 F.2d 142, 150
(2d Cir. 1993), so long as these documents are
“integral” to the complaint and the record is clear that
no dispute exists regarding the documents’ authenticity
or accuracy, Faulkner v. Beer, 463 F.3d 130, 133-35 (2d
Cir. 2006).
Defendants also moved to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(1), on the
grounds that all of the Plaintiffs’ claims are time-

App. 38
barred. “A federal court has subject matter jurisdiction
over a cause of action only when it ‘has authority to
adjudicate the cause’ pressed in the complaint.” Arar v.
Ashcroft, 532 F.3d 157, 168 (2d Cir. 2008), vacated on
other grounds, 585 F.3d 559 (2d Cir. 2009), cert. denied,
560 U.S. 978 (2010) (quoting Sinochem Int’l Co. v.
Malay. Int’l Shipping Corp., 549 U.S. 422, 425 (2007)).
“Determining the existence of subject matter
jurisdiction is a threshold inquiry and a claim is
properly dismissed for lack of subject matter
jurisdiction under Rule 12(b)(1) when the district court
lacks the statutory or constitutional power to
adjudicate it.” Id. (internal citations and quotation
marks omitted). “When jurisdiction is challenged, the
plaintiff bears the burden of showing by a
preponderance of the evidence that subject matter
jurisdiction exists, and the district court may examine
evidence outside of the pleadings to make this
determination.” Id. (internal citations and quotation
marks omitted). “[T]he court must take all facts alleged
in the complaint as true and draw all reasonable
inferences in favor of plaintiff, but jurisdiction must be
shown affirmatively, and that showing is not made by
drawing from the pleadings inferences favorable to the
party asserting it.” Morrison v. Nat’l Austl. Bank Ltd.,
547 F.3d 167, 170 (2d Cir. 2008) (internal citations and
quotation marks omitted) (alteration in original).
C. Motion for Sanctions
Federal Rule of Civil Procedure 11 states that ‘an
attorney who presents ‘a pleading, written motion, or
other paper’ to the court thereby ‘certifies’ that to the
best of his knowledge, information, and belief formed

App. 39
after a reasonable inquiry, the filing is (1) not
presented for any improper purpose, ‘such as to harass,
cause unnecessary delay, or needlessly increase the
cost of litigation’; (2) ‘warranted by existing law or by
a nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law’; and
(3) supported in facts known or likely to be discovered
on further investigation.” Lawrence v. Richman Grp. of
CT LLC, 620 F.3d 153, 156 (2d Cir. 2010) (emphasis
added) (quoting Fed. R. Civ. P. 11(b)). “If . . . the court
determines that Rule 11(b) has been violated, the court
may impose an appropriate sanction on any attorney,
law firm, or party that violated the rule or is
responsible for the violation.” Fed. R. Civ. P. 11(c)(1).
“[D]istrict courts generally have wide discretion in
deciding when sanctions are appropriate.” Morley v.
Ciba-Geigy Corp., 66 F.3d 21, 24 (2d Cir. 1995) (quoting
Sanko Steamship Co., Ltd. v. Galin, 835 F.2d 51, 53 (2d
Cir. 1987)). However, “Rule 11 sanctions should be
imposed with caution,” Knipe v. Skinner, 19 F.3d 72, 78
(2d Cir. 1994), and “district courts [must] resolve all
doubts in favor of the signer,” Rodick v. City of
Schenectady, 1 F.3d 1341, 1350 (2d Cir. 1993).
“[N]ot all unsuccessful arguments are frivolous or
warrant sanction,” and “to constitute a frivolous legal
position for purposes of Rule 11 sanction, it must be
clear under existing precedents that there is no chance
of success and no reasonable argument to extend,
modify or reverse the law as it stands.” See Mareno v.
Rowe, 910 F.2d 1043, 1047 (2d Cir. 1990). With regard
to factual contentions, “sanctions may not be imposed
unless a particular allegation is utterly lacking in
support.” Storey v. Cello Holdings, L.L.C., 347 F.3d

App. 40
370, 388 (2d Cir. 2003) (quoting O’Brien v. Alexander,
101 F.3d 1479, 1489 (2d Cir. 1996)). “[T]he standard for
triggering the award of fees under Rule 11 is objective
unreasonableness and is not based on the subjective
beliefs of the person making the statement.” Star Mark
Mgmt., Inc. v. Koon Chun Hing Kee Soy & Sauce
Factory, Ltd., 682 F.3d 170, 177 (2d Cir. 2012) (quoting
Storey, 347 F.3d at 388). This objective standard is
“intended to eliminate any ‘empty-head pure-heart’
justification” for patently unsupported factual
assertions or frivolous arguments. See Hochstadt v.
New York State Educ. Dep’t, 547 F. App’x 9, 11 (2d Cir.
2013) (quoting Gurary v. Winehouse, 235 F.3d 792, 797
(2d Cir. 2000)).
Dismissal of a complaint with prejudice and
monetary penalties “are among the permissible
sanctions allowed under Rule 11.” Miller v. Bridgeport
Bd. of Educ., No. 3:12-CV-01287 JAM, 2014 WL
3738057, at *10 (D. Conn. July 30, 2014). “Rule 11 also
allows for the Court to refer the misconduct of an
attorney for consideration by disciplinary authorities.”
Id. at *11. However, “[a] sanction imposed under this
rule must be limited to what suffices to deter repetition
of the conduct or comparable conduct by others
similarly situated.” Fed. R. Civ. P. 11(c)(4).
II.

Windham Action

The Court first addresses whether the Windham
Defendants’ amended answer sets forth sufficient facts
to toll the Connecticut statutes of limitation and

App. 41
repose.2 The DJ Defendants’ Second Affirmative
Defense addresses WWE’s claim that the statutes of
limitation and repose bar the DJ Defendants’ claims.
Specifically, it asserts that WWE fraudulently
concealed the cause of action from the DJ Defendants
until 2015. However, the Second Affirmative Defense
does not allege that WWE knew of a link between
concussive or subconcussive blows and permanent
degenerative neurological conditions like chronic
traumatic encephalopathy (“CTE”). Rather, it provides
a summary of the injuries and claimed injustices DJ
Defendants suffered during their tenures as wrestlers,
many of which, such as James Ware’s “snapped”
collarbone and Thomas Billington’s inability to buy
health insurance, have nothing to do with WWE’s
claims or the DJ Defendants’ defenses. [Dkt. No. 364 at
25-26]. The Court also reviewed Mr. Ware’s and Mr.
Billington’s affidavits. Neither sets forth any facts
suggesting that WWE knew of the risks of CTE or any
other permanent degenerative neurological condition
before either wrestler retired and failed to disclose this
risk, either fraudulently or despite a continuing duty to
either wrestler to warn him of these risks. Nor do the
Wrestlers point to anything in the record to support
this claim in opposition to the Defendants’ motion. The
Wrestlers therefore have not set forth any facts that
would justify tolling Connecticut’s statutes of limitation
and repose–either in their original or amended
answers. The Court therefore enters judgment on the

2

The Court refers to pages 12-18 of the Order for a description of
the law governing the statutes of limitation and repose and the
ways in which the prior answer was deficient.

App. 42
pleadings in favor of WWE as to DJ Defendants Ware
and Billington.
Counsel for the two remaining DJ Defendants has
represented that they are deceased. WWE has not
sought to substitute executors or administrators of
their estates. Pursuant to Federal Rule of Civil
Procedure 25(a),
“If a party dies and the claim is not
extinguished, the court may order substitution
of the proper party. A motion for substitution
may be made by any party or by the decedent’s
successor or representative. If a motion is not
made within 90 days after service of a statement
noting the death, the action by or against the
decedent must be dismissed.”
The DJ Defendants have failed to file a formal
suggestion of death with this Court, nor have they
offered any indication that they have served such
suggestion of death on the executors or representatives
of the estates of DJ Defendants Windham and Perras,
in accordance with Rule 25(a). See Gothberg v. Town of
Plainville, 305 F.R.D. 28, 29-30 (D. Conn. 2015)
(holding that service of a suggestion of death on counsel
for the parties, and not on the executors or
administrators of the decedents estates was insufficient
to trigger the 90-day period within which a motion for
substitution may be filed); George v. United States, 208
F.R.D. 29, 31 (D. Conn. 2001) (stating that death must
be “formally” suggested “upon the record.”).
If Windham or Perrasis is deceased, the Court
cannot enter judgment against him unless an

App. 43
opportunity to file a suggestion of death is afforded.
The Court therefore dismisses these two Defendants. If
either party wishes to substitute the executor or
administrator of either estates, it must file a a formal
suggestion of death filed and served on all interested
parties within 30 days, and a proper motion for
substitution must be filed within 90 days of service of
the suggestion of death. If no party seeks to substitute
a duly authorized representative for Windham or
Perras within the time period allotted, all claims
against them shall be dismissed with prejudice without
further order of the Court.
III.

The Laurinaitis Action

The Court next addresses Defendants’ Motions to
Dismiss [Dkt. Nos. 263, 266, and 269]. Defendants
sought dismissal pursuant to Federal Rules of Civil
Procedure 12(b)(1) and 12(b)(6), and as a Rule 11(c)
sanction. The Court finds that dismissal with prejudice
is warranted because the Laurinaitis claims are either
barred by this Court’s prior rulings, time-barred, or
frivolous, and that amendment would be futile.
A. Plaintiffs’ Fraudulent Concealment and
Medical Monitoring Claims are Barred
by the Court’s Prior Rulings
Plaintiffs assert separate counts of “fraudulent
concealment” and “medical monitoring” despite this
Court’s clear holding, in the very first of the WWE
concussion cases that Attorney Kyros filed, that neither
constitute causes of action under Connecticut law. [See
Dkt. No. 116 at 54 (stating that “fraudulent”
concealment is not a separate cause of action”); Dkt.

App. 44
No. 116 at 69 (stating that “[a] particular type of
measure of damages and a cause of action entitling a
person to a particular type or measure of damages are
separate and distinct legal principles” and dismissing
the medical monitoring claim because “plaintiffs have
failed to articulate any authority supporting the
proposition that plaintiffs can bring a cause of action of
‘medical monitoring’ separate and apart from their
cause of action for fraudulent omission under
Connecticut law”)]. Nor has he filed or prevailed on an
appeal of the Court’s rulings or filed a motion for
reconsideration pointing out any error in the Court
rulings. Attorney Kyros simply ignores the Court’s
rulings in violation of the law-of-the-case doctrine. See
United States v. Carr, 557 F.3d 93, 102 (2d Cir. 2009)
(“[W]hen a court has ruled on an issue, that decision
should generally be adhered to by that court in
subsequent stages in the same case . . . . [T]he law-ofthe-case doctrine [is] driven by considerations of
fairness to the parties, judicial economy, and the
societal interest in finality”). These claims must
therefore be DISMISSED once again.
B. Plaintiffs Have Asserted Numerous
Patently Time-Barred Claims
The first complaint in this action was filed on July
18, 2016. The SAC does not allege that any Plaintiff
wrestled for WWE and suffered a head injury while
wrestling later than 2011. Similarly, with limited
exceptions, the Complaint does not state when each
Plaintiff first entered into a contract classifying him or
her as an independent contractor. However, the
wrestler who retired most recently, Salvador Guerrero,

App. 45
signed a booking contract in which he was classified as
an independent contractor in 2001, when he first
started wrestling for WWE. [SAC, Exh. A.]. It is
therefore reasonable to assume that booking contracts
were signed when each wrestler began wrestling for
WWE. Terry Brunk began wrestling for WWE most
recently–in 2006. [SAC ¶ 63].
1. Tort Claims
It is not subject to challenge that the statute of
limitations for tort claims set forth in Conn. Gen. Stat.
52-577 applies to Plaintiff’s claims for fraud, fraudulent
nondisclosure, and civil conspiracy to commit
fraudulent concealment. Section 52-577 provides that
“[n]o action founded upon a tort shall be brought but
within three years from the date of the act or omission
complained of.” “The three year limitation period of
§ 52-577 begins with the date of the act or omission
complained of, not the date when the plaintiff first
discovers an injury.” Collum v. Chapin, 40 Conn. App.
449, 451-52 (1996) (citing Fichera v. Mine Hill Corp.,
207 Conn. 204, 212-13 (1988)). “The relevant date of
the act or omission complained of, as that phrase is
used in § 52-577, is the date when the negligent
conduct of the defendant occurs and not the date when
the plaintiffs first sustain damage . . . . Ignorance of his
rights on the part of the person against whom the
statute has begun to run, will not suspend its
operation.” Kidder v. Read, 150 Conn. App. 720, 726-27
(2014).
Plaintiffs’ tort claims arise out of their allegation
that WWE concealed the risk that concussions or
subconcussive blows could cause permanent

App. 46
degenerative neurological conditions in order to induce
Plaintiffs to continue to continue wrestling. This
omission must have occurred at a time when the
Plaintiffs were still wrestling and could still suffer
head injuries while wrestling. With the possible
exception of Plaintiff James Snuka, discussed in the
next section, no Plaintiff has alleged that he or she
wrestled for WWE later than 2011.
2. Wrongful Death and Survival Actions
The estates of five wrestlers–James Snuka, John
Matthew Rechner, Brian David Knighton, Timothy
Alan Smith, Ronald Heard, and Harry Masayoshi
Fujiwara–also assert wrongful death and survival
claims. Wrongful death claims must be brought “within
two years from the date of death” except that “no such
action may be brought more than five years from the
date of the act or omission complained of.” Conn. Gen.
Stat. § 52-555(a). “Section 52-555 may “serve as a bar
to a wrongful death claim” even if “an injured victim
could not have known that he or she had a claim
against the alleged tortfeasor until after the limitation
period had expired.” Greco v. United Techs. Corp., 277
Conn. 337, 353 (2006). Conn. Gen. Stat. § 52-594
provides that if the time for bringing an action has not
elapsed at the time of a person’s death, the executor of
that person’s estate may bring an action within a year
of the death.
Fujiwara last wrestled in 1996, [SAC ¶ 55], Rechner
last wrestled in 2008, [SAC ¶ 85], Knighton last
wrestled in 2005 [SAC ¶ 86], and Heard last wrestled
in 1989 [SAC ¶ 109]. The Complaint alleges that Snuka
appeared in WWE performances between 2005 and

App. 47
2015. [SAC ¶ 52]. However, the affidavit of the executor
of Mr. Snuka’s estate, submitted for in camera review,
stated that 1996 was “[t]oward the end of his career,”
that “most of Jimmy’s full-time wrestling was at the
height of the 1980s,” and that he was “inactive” or
“largely semi-retired” between 1996 and 2015. The
complaint does not allege, and the affidavit does not
support any allegations, that Mr. Snuka suffered any
head injuries or risked incurring such injuries later
than 1996. All these wrestlers, with the possible
exception of Mr. Snuka, retired more than five years
before this lawsuit was filed. And Mr. Snuka has not
alleged that any of his alleged injuries were incurred
during WWE appearances post-dating 1996. Wrongful
death actions are therefore barred by Section 52-555.
Survival actions are barred because the statutes of
limitation or repose for each of the deceased Plaintiffs’
other claims have elapsed.
3. Misclassification Claims
Plaintiffs assert misjoined claims that they were
misclassified as independent contractors and thereby
denied the benefits and protections of the Occupational
Safety and Health Act, the National Labor Relations
Act, the Employee Retirement Income Security Act,
and the Family and Medical Leave Act. Because
Plaintiffs assert that the misclassification was part of
a “scheme to defraud the Plaintiffs” and “achieved by
the presentation to the Plaintiffs of boilerplate Booking
Contracts,” the misclassification claims are governed
either by the three-year statute of repose for tort
actions, Conn. Gen. Stat. § 52-577, or the six-year

App. 48
statute of limitations for contract actions, Conn. Gen.
Stat. § 52-576.
The District of Connecticut has previously
considered the statute of limitations for
misclassification claims relating to WWE booking
contracts. In Levy v. World Wrestling Entertainment,
Inc., No. CIV.A.308-01289(PCD), 2009 WL 455258, at
*1 (D. Conn. Feb. 23, 2009), Judge Dorsey held that
misclassification claims arose “at the inception” of the
booking contracts. Plaintiff has not offered this Court
any compelling justification for disregarding Judge
Dorsey’s holding. As noted above, it appears that
booking contracts were entered into when each
wrestler joined WWE. To the extent any of the
Plaintiffs did not sign a booking contract, but instead
made “handshake deals” or worked as “jobbers,” these
wrestlers must have known of their classification as
independent contractors either when these deals were
first made, or when each of these wrestlers received tax
paperwork within the year of making that deal.
Plaintiffs also would have been aware throughout their
employment that they were not being awarded the
same benefits as individuals classified as employees of
WWE. Indeed, Plaintiffs expressly state in their
complaint that they were not given retirement or
health benefits.
The Plaintiff who most recently joined WWE did so
in 2006–approximately ten years before this case was
filed. Therefore, none of the Plaintiffs can establish
that they were first misclassified as independent
contractors within six years of the date they filed the
complaint in this action. Plaintiffs’ ERISA and OSHA

App. 49
reporting claims are predicated on this
misclassification claim, and Plaintiff has not offered
the Court any authority to suggest that these claims
may survive after the misclassification claim is
dismissed.
4. RICO Claims
Plaintiffs’ claims under the Racketeer Influenced
and Corrupt Organization Act, 18 U.S.C. § 1132(a)(3)
are also time-barred. Civil RICO actions have a fouryear limitations period. In re Trilegiant Corp., Inc., 11
F. Supp. 3d 82, 104 (D. Conn. 2014), aff’d sub nom.,
Williams v. Affinion Grp., LLC, 889 F.3d 116 (2d Cir.
2018) (citing Agency Holding Corp. v. Malley-Duff &
Assocs., Inc., 483 U.S. 143, 156-57 (1987)). This
limitations period “begins to run when the plaintiff
discovers or should have discovered the RICO injury.”
Id. (quoting In re Merrill Lynch P’ship Litig.,154 F.3d
56, 58 (2d Cir. 1998)). “The four-year limitation period
begins anew [for a civil RICO claim] each time a
plaintiff discovers or should have discovered a new and
independent injury.” Id. However, “actual knowledge of
the fraudulent scheme is not necessary; an objective
standard is used to impute knowledge to the victim
when sufficient ‘storm clouds’ are raised to create a
duty to inquire.” Id. at 106. Plaintiffs acknowledge that
CTE was only diagnosable by an autopsy performed
after death.
Because Plaintiffs’ RICO claims are predicated on
Plaintiffs’ alleged misclassification as independent
contractors, and such misclassification must have
taken place when each Plaintiff was first hired, the
limitations period runs from when each Plaintiff signed

App. 50
a booking contract, began working for WWE, first
received a tax statement classifying him or her as an
independent contractors, or noticed he or she was not
receiving the benefits to which WWE employees were
entitled. No Plaintiff has alleged that he or she did so
less than ten years before this action was filed.
Plaintiffs’ RICO claims are therefore time-barred.
5. FMLA Claims
The Family and Medical Leave Act provides that
“an action may be brought under this section not later
than 2 years after the date of the last event
constituting the alleged violation for which the action
is brought.” 29 U.S.C. § 2617(c)(1). For a willful
violation, the limitations period is three years. 29
U.S.C. § 2617(c). With the exception of Mr. Snuka, each
Plaintiff stopped working for WWE more than three
years before this case was filed. They therefore cannot
establish that their FMLA claims arose within the
limitations period. Plaintiff Snuka has not alleged that
he even asked for family or medical leave between 2013
and 2016. He also has not alleged that he was
improperly denied such leave or punished for taking
such leave within the limitations period. The Plaintiffs’
FMLA claims are therefore time-barred.
6. Successor Liability
Because all of the substantive claims against WWE
are time-barred, and all the claims that arise out of
Plaintiffs’ work for ECW or WCW predate their WWE
claims, these ECW and WCW claims are also timebarred. The Court therefore need not specifically

App. 51
address whether WWE should be liable for claims
arising out of its relationship with ECW or WCW.
C. Plaintiffs’ “Unconsionable Contracts”
Claims are Frivolous
Plaintiffs claim that their booking contracts were
void as unconscionable, but they attach the contracts of
only two wrestlers to their complaint, and identify no
particular unconscionable terms. Rather, Plaintiffs
allege generally that they were coerced into signing
unfavorable “boilerplate” contracts without the
assistance of their own attorney or under threat that
they would be fired or not hired if they refused to sign,
and that these contracts misclassified the wrestlers as
independent contractors. The Court has already
established that misclassification claims are timebarred. The remaining allegations regarding the
condition under which these contracts were signed are
not claims that the contracts were unconscionable.
Even if the Court were to liberally construe these
claims as undue influence claims, they would not be
actionable and are therefore frivolous. The Connecticut
Supreme Court has held that “ratification results, as a
matter of law, ‘if the party who executed the contract
under duress accepts the benefits flowing from it or
remains silent or acquiesces in the contract for any
considerable length of time after opportunity is
afforded to annul or avoid it.’” Young v. Data Switch
Corp., 231 Conn. 95, 103 (1994) (quoting Gallon v.
Lloyd-Thomas Co., 264 F.2d 821, 826 (8th Cir. 1959)).
This reasoning also applies when a contract is voidable
for undue influence. See Gengaro v. City of New Haven,
118 Conn. App. 642, 653 (2009) (holding that “the

App. 52
reasoning set forth in Young can be applied” to actions
to void a contract because of undue influence). And the
Connecticut Supreme Court has held that a delay of 17
months constitutes a “considerable length of time.” See
Young, 231 Conn. at 103. Each Plaintiff who signed a
booking contract with WWE enjoyed the benefits of
those contracts without seeking legal intervention for
years following the execution of the contracts, and
indeed, years following the termination of each
Plaintiff’s employment with WWE. Binding
Connecticut precedent bars these claims, and Plaintiff’s
counsel has set forth no non-frivolous argument for
modifying or reversing this law.
D. The Statutes of Limitation Should Not
Be Tolled Under the Continuing Course
of Conduct Doctrine
Under appropriate circumstances, the Connecticut
statutes of repose may be tolled under the continuing
course of conduct doctrine. The plaintiff must show the
defendant: “(1) committed an initial wrong upon the
plaintiff; (2) owed a continuing duty to the plaintiff that
was related to the original wrong; and (3) continually
breached that duty.” Witt v. St. Vincent’s Med. Ctr., 252
Conn. 363, 370 (2000).
Where Connecticut courts have found a duty
“continued to exist after the act or omission relied
upon: there has been evidence of either a special
relationship between the parties giving rise to such a
continuing duty or some later wrongful conduct of a
defendant related to the prior act.” Macellaio v.
Newington Police Dep’t, 145 Conn. App. 426, 435
(2013). The existence of a special relationship “will

App. 53
depend on the circumstances that exist between the
parties and the nature of the claim at issue.” Saint
Bernard Sch. of Montville, Inc. v. Bank of Am., 312
Conn. 811, 835 (2014). Connecticut courts examine
each unique situation “in which there is a justifiable
trust confided on one side and a resulting superiority
and influence on the other.” Alaimo v. Royer, 188 Conn.
36, 41 (1982). Specifically, a “‘special relationship’ is
one that is built upon a fiduciary or otherwise
confidential foundation characterized by a unique
degree of trust and confidence between the parties, one
of whom has superior knowledge, skill or expertise and
is under a duty to represent the interests of the other.”
Saint Bernard Sch., 312 Conn. at 835.
However, “a mere contractual relationship does not
create a fiduciary or confidential relationship,” id. at
835-36, and employers do necessarily not owe a
fiduciary duty to their employees, Grappo v. Atitalia
Linee Aeree Italiane, S.P.A., 56 F.3d 427, 432 (2d Cir.
1995); Bill v. Emhart Corp., No. CV 940538151, 1996
WL 636451, at *3-4 (Conn. Super. Ct. Oct. 24, 1996).
The law will imply [fiduciary responsibilities] only
where one party to a relationship is unable to fully
protect its interests [or where one party has a high
degree of control over the property or subject matter of
another] and the unprotected party has placed its trust
and confidence in the other.” Hi-Ho Tower, Inc. v. ComTronics, Inc., 255 Conn. 20, 41 (2000).
Plaintiffs have not established that WWE had any
continuing duty with respect to their health or their
employment status after they left WWE. For example,
Plaintiffs allege that WWE “sends substance

App. 54
dependency letters annually to its former performers
offering free treatment, as well as community updates
and quarterly royalty payments” and maintains a
“Talent helpline.” [SAC ¶¶ 270, 271]. It is reasonable to
infer, based on WWE’s offer to provide substance abuse
treatment, that the hotline is related to substance
abuse prevention or treatment. It is not reasonable to
conclude from the allegations in the complaint that
WWE has a continuing duty to keep itself apprised of
former wrestlers’ health or to provide comprehensive
health care to these wrestlers. It is similarly
unreasonable to infer that retired wrestlers would not
seek medical treatment from sources outside of WWE
after their retirement. Indeed, Plaintiffs do not allege
that WWE purported to be their primary health care
provider, or that WWE diagnosed, treated, monitored,
or advised the Plaintiffs regarding their health,
including their mental health, after they retired.
Similarly, the Court is at a loss to imagine how
continuing royalty payments give rise to any duty to
the Plaintiffs regarding their alleged misclassification
as independent contractors decades earlier.
E. The Statutes of Limitation and Repose
Should Not Be Tolled Under the
Fraudulent Concealment Doctrine
Connecticut has codified the doctrine of fraudulent
concealment in Conn. Gen. Stat. § 52-595, which
provides: “[i]f any person, liable to an action by
another, fraudulently conceals from him the existence
of the cause of such action, such cause of action shall be
deemed to accrue against such person so liable therefor
at the time when the person entitled to sue thereon

App. 55
first discovers its existence.” In order to rely on Section
52-595 to toll the statutes of limitations and repose, a
plaintiff must demonstrate that “the defendant: (1) had
actual awareness, rather than imputed knowledge, of
the facts necessary to establish the cause of action,
(2) intentionally concealed those facts from the plaintiff
and (3) concealed those facts for the purpose of
obtaining delay on the part of the plaintiff in filing a
cause of action against the defendant.” Falls Church
Grp., Ltd. v. Tyler, Cooper & Alcorn, LLP, 281 Conn.
84, 105 (2007).
Fraudulent concealment under Section 52-595 must
be pled with sufficient particularity to satisfy the
requirements Fed. R. Civ. P. 9(b) with regard to fraud
claims, because a claim that the statute of limitations
should be tolled because of fraud, is “obviously, a claim
for fraud.” In re Publ’n Paper Antitrust Litig., No.
304MD1631SRU, 2005 WL 2175139, at *5 (D. Conn.
Sept. 7, 2005). In addition, a plaintiff must show that
due diligence “did not lead, and could not have led, to
discovery” of the cause of action. Martinelli v.
Bridgeport Roman Catholic Dioceses, 196 F.3d 409, 427
(2nd Cir. 1999). “Typically, a plaintiff will prove
reasonable diligence either by showing that: (a) the
circumstances were such that a reasonable person
would not have thought to investigate, or (b) the
plaintiff’s attempted investigation was thwarted.” OBG
Tech. Servs., Inc. v. Northrop Grumman Space &
Mission Sys. Corp., 503 F. Supp. 2d 490, 509 (D. Conn.
2007). Affirmative acts of concealment are not always
necessary to satisfy the requirements of Section 52-595.
McCullough v. World Wrestling Entm’t, Inc., 172 F.
Supp. 3d 528, 555 (D. Conn.), reconsideration denied,

App. 56
No. 3:15-CV-001074 (VLB), 2016 WL 3962779 (D.
Conn. July 21, 2016), and appeal dismissed, 838 F.3d
210 (2d Cir. 2016). “[M]ere nondisclosure may be
sufficient when the defendant has a fiduciary duty to
disclose material facts.” Id.
Plaintiff’s counsel has not had the opportunity to
conduct extensive discovery on this issue in prior
consolidated cases. He was unable to uncover any
evidence showing that WWE has or had actual
knowledge that concussions or subconcussive blows
incurred during professional wrestling matches cause
CTE. The earliest evidence they were able to uncover
is the fact that WWE learned from public news reports
that one wrestler, Christopher Benoit, was diagnosed
with CTE in 2007. Plaintiffs’ counsel therefore lacks
any good faith basis for asserting that WWE was aware
of any association between professional wrestling and
CTE prior to 2007, which was after most of the
Plaintiffs retired.
The Court is also unwilling to find that the
diagnosis of one wrestler with CTE is sufficient to
imbue WWE with actual awareness of a probable link
between wrestling and CTE. Further, counsel lacks a
good faith basis for asserting that Plaintiffs who retired
after 2007 could not on their own, in the exercise of due
diligence, uncover information timely about CTE or the
risks that concussions or subconcussive blows could
cause CTE. For example, the circumstances
surrounding Mr. Benoit’s death were so tragic and so
horrifying that it would have been reasonable for his
fellow wrestlers to follow news developments about him
and about CTE, through which they could have

App. 57
deduced that they were at risk of developing CTE and
sought medical opinions about risks to their own
health. This information was widely available in public
news sources, such that WWE did not have superior
access to it, and could not have thwarted any
attempted investigation. Tolling on the basis of
fraudulent concealment is therefore baseless.
F. Amendment Would Be Futile
As noted above, Plaintiffs have asserted numerous
patently time-barred claims that have nothing to do
with Plaintiffs’ alleged head trauma, any long-term
consequences of such trauma, or WWE’s concealment
of the risk that such trauma could cause permanent
degenerative neurological conditions. The Court has
also repeatedly admonished the Wrestlers’ counsel,
Attorney Kyros and his appearing co-counsel regarding
his inclusion of irrelevant and inflammatory facts in its
pleadings. [See, e.g., Dkt. No. 362 at 7, 20 (stating that
the Laurinaitis complaint included “numerous
allegations that a reasonable attorney would know are
inaccurate, irrelevant, or frivolous”); Dkt. No. 263-2 at
60 (noting that prior complaint included “superfluous,
hyperbolic, inflammatory opinions and references to
things that don’t have any relevance”); Dkt. No. 116 at
13 (criticizing counsel for including in pleadings
“content unrelated to the Plaintiffs’ causes of action”)].
In addition, the Court has repeatedly criticized
Attorney Kyros for filing “excessively lengthy”
complaints, [Dkt. No. 116 at 13], including the FAC in
the Laurinaitis action, which the Order noted was 335
pages long, and included 805 paragraphs. The Court
clearly instructed Attorney Kyros that if he failed to

App. 58
file an amended complaint that complied with Federal
Rules of Civil Procedure 8, 9, and 11, the case would be
dismissed with prejudice. In addition, the Court
reminded Attorney Kyros and his appearing co-counsel
of the due diligence required to be undertaken to
assure compliance with the rules, and ordered them to
file evidence that the process of reaching a good faith
belief in the facts asserted had been conducted. They
have persistently ignored this Court’s orders and
persisted in filing complaints, including filing a markup of a previously critiqued deficient complaint, which
fail to remotely satisfy the pleading standards.
Rule 8(a)(2) states that a complaint must contain “a
short and plain statement of the claim showing that
the pleader is entitled to relief.” Rule 9 requires the
Wrestlers to “state with particularity the
circumstances constituting fraud or mistake,” which is
of particular relevance to claims that WWE
fraudulently failed to disclose the risks that
concussions and subconcussive blows could cause
permanent degenerative neurological conditions like
CTE, or fraudulently concealed any causes of action.
The SAC remains unreasonably long, asserts claims
that this Court has previously dismissed, and continues
to assert facts which Plaintiffs’ counsel has no reason
to believe are true. While the SAC has now been
reduced to 225 pages and 669 paragraphs, counsel
accomplished this by single spacing roughly 54 pages,
and through the liberal use of subparagraphs. While it
is clear that Attorney Kyros made some revisions to the
prior complaint, he made no effort to present a short
and plain statement of the Plaintiffs’ entitlement to

App. 59
relief, as required by Rule 8. Nor have Attorney Kyros
and his appearing co-counsel demonstrated that they
have conducted due diligence sufficient to have a good
faith belief in the facts asserted in the SAC. Moreover,
the SAC is rife with allegations: (1) that this Court has
previously considered and dismissed; (2) that are
patently irrelevant to the issues present in this lawsuit
(including those the Court previously identified as
being irrelevant); and (3) that any reasonable attorney
would know are frivolous.
For example, its order regarding WWE’s motions to
dismiss the first two of the Laurinaitis Plaintiffs’
complaints, the Court specifically noted that a
reference to a study published in October 2015 was
irrelevant because none of the Plaintiffs were still
wrestling in 2015. [Dkt. No. 362 at 7]. Nevertheless, in
the SAC, Plaintiffs cite several news reports and
studies published between 2013 and 2017 in support of
its claim that “it is not plausible that the WWE is
unaware of the risks of CTE in its performers.” [SAC
¶¶ 284-94]. What is really at issue in this case is
whether WWE knew of the risk that repeated head
trauma could cause permanent degenerative
neurological conditions, fraudulently failed to disclose
these risks to wrestlers, and then fraudulently
concealed facts which it had a legal duty to disclose
that would have given rise to legal claims between each
Plaintiff’s retirement and the date that this action was
filed. Whether WWE currently is or could be in
possession of evidence that concussions can cause CTE
is immaterial.

App. 60
The Court also previously identified as irrelevant
the assertion that “WWE is a monopoly that earns $500
million annually,” “general observations from . . . a
wrestler who is not a party to this lawsuit,” and the
fact that “WWE does not provide wrestlers with health
insurance.” [Dkt. No. 362 at 7-8]. This non-exhaustive
list of irrelevant allegations seems to have had little to
no effect on Attorney Kyros’ decision-making, because
the SAC still lists WWE’s revenues, observations that
former wrestler and non-party Jesse Ventura made on
a television show, and the fact that WWE did not
provide wrestlers with health insurance. [SAC ¶¶ 11,
114, 263, 387-88, 328, 379, 462]. In addition to these
irrelevant allegations are numerous others, including
a list of physical injuries that have nothing to do with
concussions or head trauma, incurred by several
Plaintiffs in the ring. [See SAC ¶ 37 (alleging that
“Plaintiff Jon Heidenreich sustained serious shoulder
injuries requiring multiple surgeries” and that
“Plaintiff Marty Jannetty sustained a severe broken
ankle”].
Attorney Kyros’ decision to assert frivolous claims
has required the Court to waste considerable judicial
resources sifting through three unreasonably long
complaints filed in the Laurinaitis action, with the
vague hope that some claim, buried within a mountain
of extraneous information, might have merit. “The
function of the pleadings is to give opposing parties
notice of the facts on which the pleader will rely.” Van
Alstyne v. Ackerley Grp., Inc., 8 Fed. App’x 147, 154 (2d
Cir. 2001). Counsel’s inclusion of numerous allegations
which are unrelated to any non-frivolous claim, and do
nothing more than paint WWE as a villain, does not

App. 61
provide Defendants with such notice. Instead, it
needlessly increases the cost of litigation by, for
example, burdening Defendants with the task of
drafting and prosecuting multiple motions to dismiss
and for sanctions, none of which prompted Attorney
Kyros to withdraw factually unsupportable allegations
or frivolous claims during the safe harbor period set
forth in Rule 11(c)(2). Furthermore, if the Court
required the Defendants to engage with a complaint
comprised primarily of irrelevant and inflammatory
factual allegations, it would be shirking its
responsibility to employ the Federal Rules of Civil
Procedure to “secure the just, speedy, and inexpensive”
disposition of this action. See Fed. R. Civ. P. 1.
The Court has been extremely forgiving of Attorney
Kyros’ and his appearing co-counsels’ highly
questionable practices throughout this case, in an effort
to give each wrestler a fair hearing. However, despite
second, third, and fourth chances to submit pleadings
that comply with Rules 8, 9, and 11, Attorney Kyros
has persisted in asserting pages and pages of frivolous
claims and allegations for which he lacked any factual
basis. He was warned that if he continued to do so this
case would be dismissed, and he ignored this warning.
Attorney Kyros has offered the Court no reason to
believe that if given a fifth, sixth, or seventh chance, he
would prosecute this case in a manner consistent with
the Federal Rules of Civil Procedure.
Accordingly, the Court finds that further
amendment would be futile and that only the award of
attorney’s fees and costs would deter Attorney Kyros
from committing future violations of Rule 11. Attorney

App. 62
Kyros and his Law Offices shall pay all of the legal fees
that the Defendants reasonably incurred in connection
with both of their Motions for Sanctions [Dkt. Nos. 262
and 228]. All fees paid pursuant to this order are to be
paid by the law firm and not by the client. Further, in
order to protect the public, Attorney Kyros is ordered
to send by a receipted mail delivery service a copy of
this ruling to his appearing co-counsel and to each of
the Laurinaitis Plaintiffs and any other future,
current, or former WWE wrestler who has retained or
in the future does retain his legal services to file suit
against WWE alleging an injury sustained during their
wrestling contract with WWE.
IV.

Conclusion
For the foregoing reasons:
1. WWE’s Motion for Judgment on the
Pleadings [Dkt. No. 205] is GRANTED and
declaratory judgment will enter as to DJ
Defendants Ware and Billington.
2. The action against DJ Defendants Windham
and Perras is DISMISSED without prejudice
to reopening upon the filing and service
within 28 days of a formal suggestion of
death and the filing within 90 days
thereafter of a motion to substitute the
administrators or executors of Windham’s
and Perras’ estates.
3. The Court GRANTS Defendants’ Motions to
Dismiss [Dkt. Nos. 266, 269].

App. 63
4. The Court GRANTS IN PART Defendants’
Motion for Sanctions [Dkt. No. 262] to the
extent it sought the award of attorney’s fees
and costs.
5. Nothing in this decision shall preclude
Attorney Kyros from seeking contribution
from other appearing co-counsel.
6. The Court does not retain jurisdiction for
purpose of resolving sanction-sharing
disputes among the attorneys.
The Clerk is directed to enter judgment for the
Defendants, close this case and to terminate all
pending motions in this consolidated case.
IT IS SO ORDERED.
/s/
Hon. Vanessa L. Bryant
United States District Judge
Dated at Hartford, Connecticut: September 17, 2018

App. 64

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
[Filed: November 10, 2016]
CIVIL ACTION NO. 3:15-cv-001074 (VLB)
Lead Case
____________________________________
RUSS McCULLOUGH, a/k/a “Big )
Russ McCullough”, et al,
)
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.,
)
Defendant.
)
____________________________________)
-----------------------------CIVIL ACTION NO. 3:15-cv-01305 (VLB)
Consolidated Case
____________________________________
MICHELLE JAMES, as mother
)
and next Friend of MATTHEW
)
OSBORNE, a Minor Child and
)
TEAGAN OSBORNE, a
)
Minor Child,
)
Plaintiffs,
)

App. 65
v.

)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.,
)
Defendant.
)
____________________________________)
-----------------------------CIVIL ACTION NO. 3:15-cv-01229 (VLB)
Consolidated Case
____________________________________
CASSANDRA FRAZIER,
)
individually and as next of kin to )
her deceased husband, NELSON )
LEE FRAZIER, JR., and as
)
personal representative of THE
)
ESTATE OF NELSON
)
LEE FRAZIER, JR, DECEASED, )
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.
)
Defendant.
)
____________________________________)
November 10, 2016

App. 66
MEMORANDUM OF DECISION GRANTING
DEFENDANTS’ MOTION TO DISMISS THE
FRAZIER ACTION [Dkt. 103] AND GRANTING
DEFENDANT’S MOTION TO DISMISS THE
OSBORNE ACTION [Dkt. 104].
MEMORANDUM OF DECISION DENYING
DEFENDANTS’ MOTION FOR SANCTIONS
[Dkt. 80]
Plaintiffs in the Frazer and James cases in this
consolidated wrestling concussion litigation are the
decedents of former wrestlers who performed for
compensation for World Wrestling Entertainment Inc.
(“WWE”), a Connecticut entertainment company which
produces televised wrestling programming. Plaintiffs
have brought wrongful death claims alleging that the
decedents’ deaths resulted from traumatic brain
injuries sustained during their employment as
wrestlers for WWE, and that the negligence and/or
fraudulent conduct of WWE caused those injuries.
In a memorandum of opinion and accompanying
Order dated March 21, 2016 (the “March 21 Opinion”),
this Court dismissed similar claims brought by other
retired former wrestlers alleging that they were injured
as a result of WWE’s negligence in scripting violent
conduct and failing to properly educate, prevent,
diagnose and treat them for concussions. Prior to the
entry of the Court’s March 21 Opinion, WWE
separately moved to dismiss the Complaints in both of
the instant wrongful death actions, arguing that the
Plaintiffs’ claims are time-barred and fail to state a
claim under Connecticut’s wrongful death statute.
[Dkt. 103, 104]. WWE also previously filed a motion to

App. 67
impose sanctions against Plaintiffs’ counsel,
Konstantine Kyros (“Kyros”), Erica Mirabella
(“Mirabella”), and R. Christopher Gilreath (“Gilreath”)
for their conduct, and in particular the conduct of
attorney Kyros, in the filing of the James matter in
Texas. [Dkt. 80].
Currently before the Court are WWE’s motions to
dismiss the two wrongful death actions in Frazier and
James, as well as WWE’s motion for sanctions related
to the filing of the James matter. For the reasons
stated below, WWE’s motions to dismiss [Dkt. 103, 104]
are GRANTED and the Frazier [3:15-cv-1229] and
James [3:15-cv-1305] actions are DISMISSED. WWE’s
Motion for Sanctions [Dkt. 80] is DENIED.
I.

Factual Background

The facts and allegations in the Amended
Complaint in the action brought by Michelle James
[3:15-cv-01305-VLB, Dkt. 99] (hereinafter “JAC”)] are
nearly identical to the facts and allegations in the
Amended Complaint brought by Cassandra Frazier, et
al. [3:15-cv-01229, Dkt. 98] (hereinafter “FAC”)]. Both
amended complaints are also nearly identical to the
amended complaints brought by several other former
WWE wrestlers against WWE in this consolidated
action, including those brought by Russ McCullough
[3:15-cv-01074, Dkt. 73], and Evan Singleton [3:15-cv00425, Dkt. 67]. All of the wrestlers alleged that they
were injured as a result of WWE’s negligence in
scripting violent conduct and failing to properly
educate, prevent, diagnose and treat them for
concussions.

App. 68
In its March 21, 2016 Opinion, the Court
exhaustively reviewed the factual allegations asserted
against WWE in the complaints brought by Plaintiffs
McCullough and Singleton. As those complaints are
nearly identical to the complaints brought by Plaintiffs
in Frazier and James the Court incorporates that
portion of its earlier Opinion describing the factual
allegations against WWE. Relevant to the instant
motions are the following facts concerning the named
decedents in Frazier and James, which are taken from
the Amended Complaints in those respective actions.
a. Nelson Lee Frazier
Plaintiff Cassandra Frazier is the widow of Nelson
Lee Frazier (“Frazier”), a deceased former WWE
wrestler. Frazier performed in at least 289 matches
while affiliated with WWE between June 14, 1993 and
March 11, 2008, which was the date of his last
performance. [FAR ¶¶ 117-406]. Frazier maintained a
weight of approximately 500 pounds while wrestling for
WWE. [Id. ¶ 172]. Frazier had an admittedly
“complicated medical history” that included “weight
issues and heart conditions.” [Id. ¶ 156]. Frazier
vaguely alleges that he sustained “countless head
injuries” while wrestling in addition to “numerous
other physical injuries.” [Id.]. The Complaint does
allege that Frazier “had large knots on his head, as the
scar tissue on his skull formed into permanent lumps”
and also “evidenced indentations in his skull,” but does
not describe how Frazier acquired those injuries or
their medical significance. [Id. ¶ 157]. On six specific
dates in 1993, 1995, 1999 and 2005 and 2006, Frazier
is vaguely alleged to have “sustained head injuries.”

App. 69
[Id. ¶¶ 184-190]. Plaintiff’s complaint does not identify
the injuries suffered. Like many of the other named
Plaintiffs in this consolidated action, Frazier generally
describes the physical contact in each of the alleged
incidents – a fall to the mat, for example, or a blow to
the head – without alleging any specific or medicallydiagnosed physical injury or even alleging that he ever
sought medical treatment after the incident.
The Complaint alleges that toward the end of
Frazier’s WWE wrestling career, he sought medical
treatment from his own physician. Frazier’s personal
physician told him he was an “idiot” for choosing to
wrestle for a living and encouraged WWE to release
him from employment. [Id. at ¶¶ 168, 170]. Prior to his
death, Frazier sought medical attention from for severe
depression and severe migraines. [Id. ¶¶ 113, 114].
Frazier died of a heart attack on February 18, 2014,
nearly six years after he last performed for WWE. The
official records of Tennessee identified the immediate
cause of death as “Hypertensive cardiovascular
disease” and “[m]orbid obesity, diabetes mellitus” as
other significant contributing conditions.1 Nonetheless,
Frazier alleges in conclusory fashion that “[a]s a direct
and proximate result of the WWE’s negligence, Nelson
Frazier was put in a worse-off state of well-being as
evidenced by the above complications, which to a
1

A certified copy of Frazier’s death certificate was attached to
WWE’s Motion to Dismiss as Exhibit A. The Court takes judicial
notice of it with respect to this motion to dismiss. See G-I
Holdings, Inc. v. Baron & Budd, No. 01 Civ. 0216 (RWS), 2003 WL
193502, at *8 (S.D.N.Y. Jan. 29, 2003); Johnson v. Morgenthau,
160 F.3d 897, 898 (2d Cir. 1998).

App. 70
reasonable degree of medical certainty, more likely
than not attributed [sic] to Nelson Frazier’s heart
attack and his inability to survive the heart attack.”
[FAR ¶ 302]. This is the sole allegation raised by
Plaintiff linking Frazier’s heart attack with any
wrongful act by WWE.
The official death certificate of Tennessee shows
that no autopsy was performed and that Frazier was
cremated. Notably, unlike all of the other complaints
filed in the TBI cases against WWE, including the
James Amended Complaint, the Amended Complaint
in Frazier omitted the allegation that CTE can only be
diagnosed post-mortem by direct tissue examination of
the brain. [See, e.g., Dkt. 73, McCullough Amended
Complaint ¶ 35]
b. Matthew Osborne
Plaintiff Michelle James (“James”) brought suit as
mother and next friend of two of the children of a
deceased former wrestler named Matthew Osborne
(“Osborne”). James does not allege facts suggesting
that she has standing to bring this action. She does not
claim to have ever been married to Osborne or that she
is the executor of Osborne’s estate.
The Complaint alleges that Osborne had an
“approximately 30 year association as a wrestler with
WWE” ending in 2007. [Dkt. 99, JAC ¶ 17]. WWE
argues, and Plaintiff did not contest, that publiclyavailable information establishes that Osborne
performed for WWE during two one-year stints from
1985-86 and again from 1992-93 and subsequently
made a single ‘special guest’ appearance at a WWE

App. 71
program in 2007 “for a few minutes.” [Def.’s Mem. at 4,
n. 4]. WWE therefore argues that the Complaint is
misleading in suggesting that Osborne had a thirtyyear wrestling career with WWE and that Osborne’s
employment relationship with WWE was terminated in
1993.
In or around September 2007, WWE established a
wellness program, described in the Court’s March 21
Opinion. As part of the new wellness program, WWE
offered to pay for rehabilitation services if any former
wrestler needed help for drug or alcohol abuse. WWE
acknowledges that Osborne “sought such help,” and
that WWE paid for Osborne to obtain drug
rehabilitation services from a third party in 2008,
which “he successfully completed.” [Def.’s Mem. at 5].
The Complaint alleges that Osborne died of a drug
overdose on June 28, 2013 at his home in Plano, Texas.
[JAC ¶¶ 4, 187, 277]. The official conclusion of the
Assistant County Medical Examiner for Collins County
Texas was that his death was accidental and caused by
the toxic effects of high levels of opiates.2

2

An autopsy report concerning the death of Matthew Osborne was
attached to WWE’s Motion to Dismiss as Exhibit 1. The Court
takes judicial notice of this document as an official record. See
Johnson v. Morgenthau, 160 F.3d 897, 898 (2d Cir. 1998) (holding
that the court could take judicial notice of a party’s death when
provided with a death certificate); Valley Surgical Ctr. LLC v. Cty.
of Los Angeles, No. CV 13-02265 DDP AGRX, 2015 WL 3825310,
at *6 n.1 (C.D. Cal. June 18, 2015) (taking judicial notice of a
coroner’s report and its contents, where the complaint alleged facts
from the report, and where no party questioned the report’s
authenticity).

App. 72
The Plaintiffs allege that CTE can only be
diagnosed post-mortem by direct tissue examination of
the brain, [JAC ¶ 58, 93]. While James suggests that
“any tissue samples of [Osborne’s] brain tissue collected
during his autopsy can be studied for the presence of
Tau protein for a definitive diagnosis,” [id. ¶ 33] she
has not alleged that the medical examiner actually
collected or examined such samples. Consequently,
James has failed to allege facts that would indicate on
what information she relied to determine that Osborne
had CTE, or that Osborne’s death from a drug overdose
was caused by CTE.
II.

Procedural History

Frazier and James are the fourth and fifth carboncopy concussion cases against WWE, respectively, to be
transferred to this District after originally having been
filed in other jurisdictions. In the first of these five
cases to be filed, Singleton, Plaintiffs did not oppose
transfer on the basis of a binding forum-selection
clause in the employment contracts WWE signs with
its wrestlers. [Dkt 6, 11]. In the second-filed case,
McCullough, Plaintiffs argued that the forum selection
clauses were unconscionable under California law and
therefore unenforceable. [Dkt. 21]. McCullough was
transferred to this District after a court in the Central
District of California found that the forum selection
clauses were valid and enforceable. [Dkt. 24].
Plaintiffs also opposed transfer of the third-filed
case, Haynes, on the basis that the named plaintiff in
that action had not signed a contract with WWE
containing a forum-selection clause. A district court in
the District of Oregon nonetheless granted WWE’s

App. 73
motion to transfer the Haynes action to this District
pursuant to 28 U.S.C. § 1404(a) after finding that the
plaintiff’s choice of forum was entitled to little weight
given obvious forum-shopping by Plaintiffs’ counsel and
considerations of forum non conveniens. [Dkt. 59].
On June 8, 2015, this Court ordered WWE and
Plaintiffs’ lead and local counsel to appear for a status
conference in the Singleton/LoGrasso and McCullough
cases. Among other admonitions of counsel for
inflammatory and unprofessional conduct, the Court
referred Plaintiff’s counsel, Konstantine Kyros, to Rule
8 of the Federal Rules of Civil Procedure, which
requires a complaint to consist of a short and plain
statement of the facts which form the plaintiff’s claims,
and specifically instructed him to “read the Federal
Rule, give it some close consideration, perhaps read
some cases on the pleading standard, and then file this
complaint again in a week without any scrivener
errors, without a lot of superfluous, hyperbolic,
inflammatory opinions and references to things that
don’t have any relevance.” [Dkt. 73 at 60].
Haynes was subsequently transferred to this Court
on June 25, 2015. [Id.] The very next day, Attorney
Kyros filed the last of the five consolidated wrestling
cases, James, in the Northern District of Texas. Kyros
and the numerous other counsel co-signing the James
complaint on behalf of the Plaintiffs declined to heed
the Court’s admonition to edit the unnecessary
verbiage, irrelevant allegations, conclusory statements
and inflammatory language in the original complaints.
After numerous communications between various
counsel for both parties concerning the veracity of

App. 74
several assertions repeatedly included in the carboncopy wrestling complaints, WWE ultimately filed the
instant Rule 11 motion while the James case was
pending in Texas. WWE did not serve a copy of the
exact Rule 11 motion ultimately filed in Texas twentyone days in advance of filing that motion – instead, a
prior iteration of the motion was served on Kyros’ firm
bearing the case caption of the Haynes matter while
that case was pending in Oregon. Nonetheless, the
instant Rule 11 motion seeks the imposition of
sanctions against Kyros on the basis of alleged
falsehoods in the James complaint, that WWE claims
to have repeatedly pointed out to Plaintiffs’ counsel,l as
well as on the basis of Plaintiffs’ pattern of forum
shopping. [Dkt. 80].
The James case was transferred to this Court from
Texas after Plaintiffs withdrew their objection to
transfer. WWE argues that Plaintiffs’ counsel,
however, failed to remove allegedly false assertions
from the complaint when, after lengthy delay, Plaintiffs
finally filed amended complaints in both Frazier and
James, therefore underlining WWE’s case for the
imposition of sanctions. Moreover, in filing amended
complaints in Frazier and James, Kyros and numerous
other co-signing counsel declined to heed this Court’s
admonition to edit the complaints to reduce their
unnecessary length and irrelevant, inflammatory
allegations.
In its March 21 Opinion, the Court dismissed the
negligence claims asserted in McCullough, Singleton,
and Haynes, and held that Plaintiffs’ only plausible
claim against WWE under Connecticut law was a

App. 75
single count of fraud by omission for WWE’s alleged
failure to disclose information linking wrestling with
long-term brain damage in the face of a plausible duty
to disclose such information. The Court found that such
claims could only be brought by wrestlers who
performed for WWE after WWE was alleged to have
acquired the knowledge which it allegedly failed to
disclose – which Plaintiffs alleged was on or about the
year 2005. The Court further found that it was
plausible that this fraud claim may not be barred by
the operation of Connecticut’s statutes of limitations
and repose with respect to wrestlers who performed
after 2005.
III.

Legal Standard

“‘To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.’”
Sarmiento v. U.S., 678 F.3d 147 (2d Cir. 2012) (quoting
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). While Rule
8 does not require detailed factual allegations, “[a]
pleading that offers ‘labels and conclusions’ or
‘formulaic recitation of the elements of a cause of action
will not do.’ Nor does a complaint suffice if it tenders
‘naked assertion[s]’ devoid of ‘further factual
enhancement.’” Iqbal, 556 U.S. at 678 (citations and
internal quotations omitted). “Where a complaint
pleads facts that are ‘merely consistent with’ a
defendant’s liability, it ‘stops short of the line between
possibility and plausibility of ‘entitlement to relief.’” Id.
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 557
(2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to

App. 76
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. (citations
omitted).
In considering a motion to dismiss for failure to
state a claim, the Court should follow a “two-pronged
approach” to evaluate the sufficiency of the complaint.
Hayden v. Paterson, 594 F.3d 150, 161 (2d Cir. 2010).
“A court ‘can choose to begin by identifying pleadings
that, because they are no more than conclusions, are
not entitled to the assumption of truth.’” Id. (quoting
Iqbal, 556 U.S. at 679). “At the second step, a court
should determine whether the ‘well-pleaded factual
allegations,’ assumed to be true, ‘plausibly give rise to
an entitlement to relief.’” Id. (quoting Iqbal, 556 U.S. at
679). “The plausibility standard is not akin to a
probability requirement, but it asks for more than a
sheer possibility that a defendant has acted
unlawfully.” Iqbal, 556 U.S. at 678 (quotations
omitted).
In general, the Court’s review on a motion to
dismiss pursuant to Rule 12(b)(6) “is limited to the
facts as asserted within the four corners of the
complaint, the documents attached to the complaint as
exhibits, and any documents incorporated in the
complaint by reference.” McCarthy v. Dun & Bradstreet
Corp., 482 F.3d 184, 191 (2d Cir. 2007). The Court may
also consider “matters of which judicial notice may be
taken” and “documents either in Plaintiffs’ possession
or of which Plaintiffs had knowledge and relied on in
bringing suit.” Brass v. Am. Film Techs., Inc., 987 F.2d
142, 150 (2d Cir.1993); Patrowicz v. Transamerica

App. 77
HomeFirst, Inc., 359 F. Supp. 2d 140, 144 (D. Conn.
2005).
IV.

Discussion
a. Connecticut Law Applies
Claims of Both Decedents

to the

The Frazier and James Plaintiffs have not
challenged WWE’s assertion that Connecticut law
applies to their claims by virtue of the forum-selection
clauses in the contracts between both wrestlers and
WWE; and Plaintiffs in both cases have submitted
opposition briefing relying exclusively on Connecticut
law. Moreover, in the Court’s March 22, 2016 Opinion,
the Court had previously determined that Connecticut
law applied to the claims brought by plaintiff William
Haynes III, an Oregon resident who had urged
application of Oregon law to his negligence claims
against WWE. For the reasons stated in that opinion,
the Court applies Connecticut law to the claims of the
respective decedents in the two wrongful death actions.
b. Wrongful Death Is the Exclusive
Remedy for Both Plaintiffs Under
Connecticut Law
Connecticut’s wrongful death statute provides the
exclusive remedy for claims alleging injuries resulting
in death. See Ladd v. Douglas Trucking Co., 203 Conn.
187, 195 (1987) (“Since its enactment our wrongful
death statute has been regarded as the exclusive
means by which damages resulting from death are
recoverable.”). WWE therefore argues that all other
counts of the James and Frazier Amended Complaints
must be dismissed.

App. 78
Plaintiffs argue, without citation to relevant
Connecticut authority, that “multiple counts may be
necessary to provide adequate relief, especially where
punitive and special damages are separate and distinct
from statutory claims.” [Pl.’s Mem. at 27, citing
Caulfield v. Amica Mutual Ins. Co., 31 Conn. App. 781,
785, n. 3 (Conn. App. 1993)]. Caulfield, in which a
Connecticut appellate court found that statutory
multiple damages were not recoverable under
Connecticut’s uninsured motorist statute, was not a
wrongful death action brought under Section 52-555,
and does not even mention Section 52-555 or discuss
the availability of alternative causes of action
thereunder.
Connecticut law is clear that because Section 52-555
provides the exclusive remedy for injuries where death
is a result of the wrongful act, administrators are
therefore precluded from pleading alternative common
law causes of action arising from the alleged wrongful
act. Lynn v. Haybuster Mfg., Inc., 226 Conn. 282, 295
(1993) (holding that Section 52-555 “is the sole basis
upon which an action that includes as an element of
damages a person’s death or its consequences can be
brought.”); Floyd v. Fruit Indus., Inc., 144 Conn. 659,
669 (1957) (“[T]here cannot be a recovery of damages
for death itself . . . in one action and a recovery of antemortem damages, flowing from the same tort, in
another action brought under [the survival statute].”);
Marsala v. Yale-New Haven Hosp., Inc., No.
AANCV126010861S, 2013 WL 6171307, at *14 (Conn.
Super. Ct. Oct. 30, 2013) (striking common law causes
of action for assault and battery in action brought
under Section 52-555); Herbert v. Frontier of Northeast

App. 79
Conn., Inc., 2004 Conn. Super. LEXIS 229, at *8-11
(Conn. Super. Ct. 2004) (striking claims for punitive
damages and attorney’s fees). Plaintiffs make clear
throughout their opposition to the motions to dismiss
that each decedent’s death is alleged to be the direct
result of the tortious acts of WWE, whether those acts
constituted fraud or negligence. Alternative causes of
action arising from those wrongful acts directly
resulting in death are therefore barred. The common
law claims asserted by both Plaintiffs in Counts I-V of
both Amended Complaints are DISMISSED.
c. The James Action Must Be Dismissed
for Lack of Standing Under Conn.
Gen. Stat. 52-555
Under Connecticut law, “[s]tanding to bring a
wrongful death action is . . . conferred only upon either
an executor or administrator.” Isaac v. Mount Sinai
Hosp., 210 Conn. 721, 725-26 (1989) (citations omitted);
see also Ellis v. Cohen, 118 Conn. App. 211, 216 (2009)
(“§ 52-555 creates a cause of action for wrongful death
that is maintainable on behalf of the estate only by an
executor or administrator.”). Where, as in the case of
Michelle James, the plaintiff is neither the executor nor
administrator of the decedent’s estate the plaintiff
lacks standing to bring a wrongful death action.
Plaintiffs do not contest Michelle James’ lack of
standing. On the contrary, Plaintiffs repeatedly request
that this Court “out of equity and in the interests of
judicial economy and justice . . . permit the constructive
refiling of the action within a reasonable period of time
after an estate has been established, an administrator
appointed, and Plaintiff serves WWE anew under the

App. 80
accidental failure of suit statute, Conn. Gen. Stat. § 52592.” [Pl.’s Mem. at 4, 42, 44]. In the alternative,
Plaintiffs request “an extension of time under Rule 6(b)
to remedy any procedural inadequacies which might
affect Plaintiff’s pursuit of her valid, substantive
claims.” [Id.].
After the James action was filed in Texas, Plaintiffs
had nearly six months to address these “procedural
inadequacies” prior to the filing of WWE’s motion to
dismiss. Plaintiffs also had the opportunity to file an
Amended Complaint, and an extension of time was
provided to plaintiffs’ counsel to accommodate the filing
of that Amended Complaint. At no time did counsel for
Plaintiffs invest the minimal effort and expense
necessary to establish an estate and appoint an
administrator in order to confer standing to bring the
instant suit.
Nonetheless, in the interests of equity and justice to
the families of the decedents, the Court might have
been inclined to dismiss the action without prejudice to
re-filing notwithstanding the conduct of the Kyros firm
and its co-counsel, described above. However, for the
reasons stated below, the Court finds that leave to refile would be futile as Plaintiffs have not pled a
plausible cause of action under the wrongful death
statute. The James action is DISMISSED.

App. 81
d. Plaintiffs Fail to Allege A Plausible
Causal Relationship Between the
Decedents’ Deaths and the Wrongful
Acts Alleged
To state a claim under Connecticut’s wrongful death
statute, the plaintiff bears the burden “to prove an
unbroken sequence of events that tied [his] injuries to
the [defendant’s conduct] . . . This causal connection
must be based upon more than conjecture and
surmise.” Alexander v. Town of Vernon, 101 Conn. App.
477, 485 (2007) (citations omitted).
True to form, in over forty pages of briefing
submitted in opposition to WWE’s motion to dismiss,
counsel for Plaintiffs could identify only four vague and
conclusory assertions of ‘fact’ to link Frazier’s death
with the more than one hundred pages of alleged
wrongful conduct on the part of WWE detailed in the
prolix Amended Complaint. These four assertions are
listed below:
I.

II.
III.

IV.

“WWE created and maintained a
dangerous work environment that caused
Mr. Frazier to suffer serious injuries . . .”
“Mr. Frazier incurred many of these
injuries. . . .”
“These injuries, along with the poor
lifestyle Mr. Frazier was forced to
maintain throughout his employment,
directly caused his death.” (emphasis
added)
“WWE continued, until Mr. Frazier’s
death, to act and omit [sic] information
regarding Mr. Frazier’s injuries, health,

App. 82
and well-being which prevented Mr.
Frazier from receiving necessary medical
treatment and which ultimately led to his
death.”
[Pl.’s Mem. at 33]. The Court notes that Plaintiffs
cited the exact same four ‘facts’ with respect to
causation in opposition to WWE’s motion to dismiss the
James case. [Pl.’s Mem. at 34].
The bare requirements of Iqbal and Twombly,
however, demand more than these bald assertions,
unsupported specific facts, that an individual was
‘injured’ many times and that those undetermined
‘injuries’ led to that individual’s death. See Bell
Atlantic Corp. v. Twombly, 127 S. Ct. 1955, 1957 (2007)
(“a district court must retain the power to insist upon
some specificity in pleading before allowing a
potentially massive factual controversy to proceed”),
citing Associated Gen. Contractors of Cal., Inc. v.
Carpenters, 459 U.S. 519, 528, n. 17 (1983).
The Court notes, in particular, the facially specious
assertions by Plaintiffs’ counsel that, “upon information
and belief,” both Frazier and Osborne “had CTE.” [FAC
¶ 35]. The complaints contain no information from
which such a belief could be derived. In the first three
carbon-copy wrestling complaints filed by Kyros and
his numerous co-counsel in these consolidated cases,
Kyros specifically alleged that CTE could only be
diagnosed post-mortem through an autopsy of the
subject’s brain. There, the allegation that CTE could
only be diagnosed post-mortem was included to bolster
the claims of the other named Plaintiffs, who had to
allege that they have been ‘injured’ due to being at

App. 83
greater risk of developing CTE, because, by its very
nature, the disease could not be diagnosed without an
autopsy. It is no wonder, then, as WWE points out, that
Plaintiffs chose to remove the allegation regarding the
diagnosis of CTE from the Frazier’s complaint.
Frazier’s brain has been destroyed and cremated, and
James has alleged no facts to indicate that Osborne’s
autopsy included the relevant analysis of his brain
tissue or that any brain tissue samples from this
autopsy have been preserved. It is impossible to
plausibly allege, much less prove that either wrestler
had CTE. Kyros and his co-counsels’ assertion that
either wrestler had the condition “upon information
and belief” must therefore be knowingly false.
Not only have Plaintiffs failed to plausibly allege
that their decedent had CTE, neither Plaintiff has
alleged facts linking their decedent’s death with CTE.
In a wrongful death action under Connecticut law, a
plaintiff must allege specific facts tending to show a
plausible connection between the death of the decedent
and the wrongful conduct alleged against the
defendant. See, e.g., Rose v. City of Waterbury, Civil
Action No. 3:12cv291 (VLB), 2013 WL 1187049, at *10
(D. Conn. Mar. 21, 2013) (granting Rule 12(b)(6) motion
where wrongful death Plaintiffs failed “to allege any
causal relationship between the Hospital’s conduct and
[plaintiff’s] death”). Here, yet again, counsel for
Plaintiffs resort only to rank speculation, alleging
without any factual support that:
As a direct and proximate result of the WWE’s
negligence, Nelson Frazier was put in a worseoff state of well-being as evidenced by the above

App. 84
complications, which to a reasonable degree of
medical certainty, more likely than not
attributed [sic] to Nelson Frazier’s heart attack
and his inability to survive the heart attack.”
[FAC ¶ 302]. By Plaintiffs’ own admission, Frazier
was a six-foot-nine-inch, nearly 500-pound man who
“suffered from diabetes, an enlarged heart, and obesity”
and suffered a heart attack in the shower. [FAC ¶ 50,
160]. Even if the Court assumes for the purposes of this
motion that Plaintiffs’ unprovable allegation that
Frazier “had CTE” were true, the Amended Complaint
does not contain a single allegation that heart failure
can be a symptom or consequence attributable to a
neurologically degenerative condition like CTE. Thus,
counsel’s allegation that Frazier’s “inability to survive
the heart attack” can be “more likely than not
attributed” to his CTE is yet another bald and baseless
allegation, unprovable and unsupportable, which the
Court deems unworthy of the barest measure of
credibility.
In sum, Plaintiffs have not pled specific facts
tending to show that Frazier’s death resulted from
specific injuries sustained while wrestling for the WWE
much less that his death was the result of fraudulent
conduct on the part of WWE but for which Frazier
would not have contracted CTE. The Frazier action is
DISMISSED.
e. The Court Denies WWE’s Request for
Sanctions
Rule 11 sanctions may be properly assessed against
(1) any attorney who “present[s] to the court a

App. 85
pleading, written motion, or other paper – whether by
signing, filing, submitting, or later advocating it” that
violates the requirements of Rule 11, or (2) any
attorney who is responsible for such violation. Fed. R.
Civ. P. 11(b). An attorney violates Rule 11 when he
“mak[es] false, misleading, improper, or frivolous
representations to the court.” Housatonic Habitat for
Humanity, Inc. v. General Real Estate Holdings, LLC,
3:13-01888, 2015 WL 3581242 at *2 (D. Conn. June 5,
2015) (quoting Williamson v. Recovery Ltd. P’ship, 542
F.3d 43, 51 (2d Cir. 2008)).
Rule 11 sanctions are also appropriate “when court
filings are used for an ‘improper purpose.’” Ipcon
Collections LLC v. Costco Wholesale Corp., 698 F.3d 58
(2d Cir. 2012). A pleading is filed for an improper
purpose if it is used to “harass, cause unnecessary
delay, or needlessly increase the cost of litigation.” Fed.
R. Civ. P. 11(b)(1). Similarly, the Court may impose
sanctions under 28 U.S.C. § 1927 on “[a]ny attorney or
other person admitted to conduct cases in any court of
the United States . . . who so multiplies the proceedings
in any case unreasonably and vexatiously.” 28 U.S.C.
§ 1927. “Although the decision to impose sanctions . . .
is uniquely within the province of a district court . . .
any such decision must be made with restraint and
discretion. Mantell v. Chassman, 512 Fed. Appx. 21, at
*1 (2d. Cir. 2013) (citations omitted).
Fed. R. Civ. P. Rule 11(c)(1) provides a twenty-one
day “safe harbor” provision to Rule 11 and reads as
follows:
(2) Motion for Sanctions. A motion for sanctions
must be made separately from any other motion

App. 86
and must describe the specific conduct that
allegedly violates Rule 11(b). The motion must
be served under Rule 5, but it must not be filed
or be presented to the court if the challenged
paper, claim, defense, contention, or denial is
withdrawn or appropriately corrected within 21
days after service or within another time the
court sets. If warranted, the court may award to
the prevailing party the reasonable expenses,
including attorney’s fees, incurred for the
motion.
Fed. R. Civ. P. Rule 11(c)(1). The safe harbor
provision is “a strict procedural requirement” to the
enforcement of Rule 11. Star Mark Mgmt. v. Koon
Chun Hing Kee Soy & Sauce Factory, Ltd., 682 F.3d.
170, 175 (2d. Cir. 2012). “[T]he plain language of the
rule states explicitly that service of the motion itself is
required to begin the safe harbor clock,” and informal
warnings or letters are insufficient to trigger proper
notice. Gal v. Viacom Int’l., Inc., 403 F. Supp. 2d 294,
309 (S.D.N.Y. 2005).
WWE first served Kyros with a Rule 11 motion in
the Haynes action (the “Haynes Motion”) on July 17,
2015, while that action was still pending in the District
of Oregon. After some, but not all, of the allegations
that gave rise to the Haynes Motion were removed
following a pre-filing conference, the parties agreed to
delay WWE’s filing of a Rule 11 motion until WWE’s
motion to dismiss the Haynes case in its entirety was
decided. It is undisputed that after Kyros caused the
James action to be filed in Texas, WWE filed the
instant Rule 11 Motion without serving it on Kyros and

App. 87
co-counsel for the purposes of satisfying the 21 day safe
harbor period. Kyros thus argues that “WWE has failed
to properly serve Plaintiffs’ Counsel with the as filed
Motion for Sanctions” and therefore “the safe harbor
period has not yet begun to run and this Motion should
be denied.” [Pls.’ Opp. at 10].
WWE responds that “the motion served by WWE
fully disclosed the grounds for the motion filed by
WWE, which WWE argues “merely added some
procedural history.” [Def.’s Rep. at 1, n. 2]. WWE cites
no authority for the proposition that a substantially
similar Rule 11 motion, identifying the allegedly
improper conduct at issue, but served in a case pending
in the District of Oregon and bearing the Oregon case
caption, with at least some noticeable changes to text,
can satisfy Rule 11’s safe harbor provision with respect
to another Rule 11 motion filed in a separate case
pending in the Northern District of Texas. On the
contrary, prior courts have strictly enforced Rule 11’s
safe harbor provision even where the allegedly
offending party was served with a substantially similar
motion putting that party on notice of the conduct at
issue. See, e.g., Intravaia v. Rocky Point Union Free
School Dist., 2014 U.S. Dist. LEXIS 176235, at *9
(E.D.N.Y. Dec. 22, 2014) (holding that Rule 11 motion
that was not prepared as a separate motion did not
satisfy Rule 11’s safe harbor provision even if it was
served more than 21 days prior to the filing of a
separate motion for sanctions and put counsel on notice
of the improper conduct alleged).
Even if the Court were inclined to overlook the
failure to serve an exact copy of the instant Rule 11

App. 88
motion, the Court finds that such relief is not
warranted on the grounds presented. “‘[D]istrict courts
generally have wide discretion in deciding when
sanctions are appropriate.’” Morley v. Ciba-Geigy Corp.,
66 F.3d 21, 24 (2d Cir. 1995) (quoting Sanko Steamship
Co. v. Galin, 835 F.2d 51, 53 (2d Cir. 1987)). However,
“courts may issue Rule 11 sanctions only in
extraordinary circumstances,” and they should “always
be a (very) last resort.” Jackson v. Connecticut Dep’t of
Pub. Health, No. 3:15-CV-750 (CSH), 2016 WL
1531431, at *4 (D. Conn. Apr. 15, 2016) (citations
omitted). Sanctionable conduct is, therefore, often
willful and the product of bad faith. Id. (denying motion
for sanctions where “no facts suggest [party] acted in
bath faith” and party’s “behavior fails to indicate the
willful misconduct implicated by Rule 11.”) The Court
observes that there often exists a fine line between bad
faith, willful misconduct and overly zealous advocacy.
At this stage of the litigation, it is difficult to determine
on which side of the divide Kyros’ actions fall. WWE
presents five grounds for the imposition of Rule 11
sanctions, each of which provide examples of Kyros’
habit of deceptive and inflammatory rhetoric in
Plaintiffs’ filings throughout these consolidated
wrestling cases. However, none of the five grounds
presented merit further use of judicial resources for the
purpose of imposing a sanction.
First, WWE argues that Kyros misled the Court by
alleging that Osborne wrestled for WWE “beginning in
1985 and ending in 2007” as part of “an approximately
twenty-two year career and until his untimely death.”
[JAC ¶ 2]. WWE argues that Osborne only performed
for WWE from 1985-86 and from October 1992 to

App. 89
October 1993. Osborne did not wrestle again for WWE
until a one-time appearance, literally for a few
minutes, at a special anniversary show in 2007.” [Def.’s
Mem. at 27]. Kyros’ allegation of a twenty two-year
career is deceptive and misleading – it suggests that
Osborne wrestled for WWE for twenty-two years as
opposed to approximately two years. At best, the
statement is a half-truth, in that Osborne likely
wrestled for other employers and events not sponsored
by WWE between 1993 and 2007. As discussed above,
however, the length of Osborne’s career does not impact
the Court’s determination that the wrongful death
claim asserted by Michelle James must be dismissed.
Kyros’ half-truths undermine his credibility and the
credibility of the filings submitted by Plaintiffs’
counsel. However, the Court does not deem this
particular allegation worthy of sanction because the
duration of his career is superfluous—it is a collateral
matter not probative of his claim.
WWE next argues that Kyros misled the Court with
respect to the allegation that WWE executive
Stephanie McMahon concealed the concussion risks
involved in WWE wrestling in testimony before
Congress. [JAC ¶¶ 59, 64-65]. In its March 22 Opinion,
the Court examined this allegation and found it to be
without merit, rebuking Kyros for “repeatedly
misrepresent[ing] the substance and meaning of
[McMahon’s] testimony.” [Op. at 58]. WWE also argues
that Kyros misled the Court with respect to his
allegation that WWE “attempted to discredit” studies
linking the deaths of two former NFL players with
CTE. [JAC ¶¶ 70-73]. At the time of 2005 comments
made by Dr. Joseph Maroon regarding these studies,

App. 90
Dr. Maroon was not in the employ of WWE.
Nonetheless, Kyros goes on to allege that WWE
“responded” to the studies on ESPN, quoting a WWE
statement contained in a ESPN article published in
2009, four years later. [JAC ¶ 73]. Once again, Kyros’
deliberately misleading language suggesting that WWE
directly contested a specific CTE study in 2005 further
undermines his and Plaintiffs’ credibility, but does not
merit the imposition of sanctions.
WWE argues that Kyros “instituted this case in
violation of the valid, enforceable mandatory forumselection clause that Osborne agreed” in his 1992
contract with WWE. WWE cites to several cases in
which prior courts have sanctioned attorneys under
Rule 11 for patently frivolous filings in jurisdictions
other than those named in presumptively valid forumselection clauses. See, e.g., Smith v. Martin, 02-1624,
2004 WL 5577682 at *4 (D.D.C. Jan. 28, 2004)
(imposing Rule 11 sanctions for “patently frivolous”
claims that were barred by forum-selection and
arbitration clauses); Freeman v. Bianco, 02 Civ. 7525,
2003 WL 179777 at *5-6 (S.D.N.Y. Jan. 24, 2003)
(holding complaint filed in violation of presumptively
valid choice of forum clause violated Rule 11); Jayhawk
Investments, L.P. v. Jet USA Airlines, Inc., 98-2153,
1999 WL 588195 at *1 (D. Kan. June 8, 1999)
(imposing sanctions under Rule 11 where Plaintiffs
filed suit in Kansas despite a presumptively valid
forum- selection clause mandating filing in New York).
It is clear that Kyros filed the James action in Texas
as part of a vexatious and transparent attempt to
circumvent two prior decisions by district courts in

App. 91
Oregon and California either enforcing the forumselection clauses or nonetheless transferring WWE
concussion litigation to this district. Kyros and cocounsel apparently believed that they could convince a
district court that because the James action was a
wrongful death action filed by a survivor of the
wrestler-decedent who, obviously, never signed their
own contract with WWE, the claims alleged in James
were “extra-contractual.” [Dkt. 22 at 1]. Kyros was
wrong; Plaintiffs’ argument was not convincing, and
the James action was transferred to this district.
Ten months later, in July of 2016, Kyros filed a new
action on behalf of fifty named wrestlers against WWE
in the District of Connecticut. It therefore appears that
Kyros and co-counsel have finally given up on their
obvious and unsupportable attempts to circumvent the
jurisdiction of this Court. Although Plaintiffs’ forumshopping has forced multiple district courts to exert
needless effort to corral these cases to the proper
forum, sanctions are not needed at this time to prevent
Plaintiffs from venturing into vexatious forum
shopping with respect to future claims against WWE.
The Court is open to reconsidering this finding at a
later date should Kyros revert to prior bad habits.
Finally, WWE notes that, contrary to this Court’s
instructions at the June 8 status conference, Kyros and
co-counsel declined to remove numerous paragraphs
from the Amended Complaint that bear little to no
relevance to the Osborne’s death. In particular, WWE
points to “thirty-nine separate paragraphs of
allegations and color pictures” depicting former
performers who have died but which have no relevance

App. 92
or connection to the place, time or events surrounding
Osborne’s death. One such paragraph describes the
death of a former wrestler, Owen Hart, during a
wrestling stunt that went awry in 1999. Plaintiffs have
not provided any explanation for how Hart’s death
relates to Osborne’s or to CTE or concussions generally.
To the extent such pictures and specific prior injuries
sustained by other wrestlers are included to offer visual
evidence that wrestling involves violent contact and
risk of injury, they are unnecessary and unduly
inflammatory.
Baseless claims that are included in a complaint as
part of a media campaign to pressure the defendant
with negative public relations have been found to
evidence bad faith and improper purpose on the part of
filing counsel. See Galonsky v. Williams, 96 CIV. 6207,
1997 WL 759445 at *6 (S.D.N.Y. Dec. 10, 1997) (noting
“baseless claims as part of a public relations campaign
in order to embarrass the defendants and thereby
coerce a settlement”). And at least one other district
court has sanctioned counsel for the deliberate
inclusion of inflammatory content in a pleading after
receiving a prior warning against doing so. See
Marceaux v. Lafayette City-Parish Consol. Gov’t, Nos.
14-31043, 14-31213, 2015 WL 3544648, at *1-3 (5th Cir.
2015) (affirming imposition of Rule 11 sanctions where
counsel because asserted in an amended complaint “the
same impertinent, immaterial, and scandalous
allegations . . . which they had been warned” by the
district court not to include).
The Court would be well within its broad discretion
to sanction counsel for their failure to adhere to the

App. 93
Court’s instructions and trim the inflammatory content
and unnecessary length of the carbon-copy complaints
in these consolidated cases. Their failure to do so forced
the Court to needlessly expend resources combing
through hundreds of paragraphs of allegations, to find
a single shred of relevant factual content indicating
whether Plaintiffs asserted a plausible claim. In doing
so, however, the Plaintiffs only further underlined for
the Court the lack of substantive factual content
actually contained in these complaints. Although it is
perhaps a close question, the Court finds that no Rule
11 sanction is merited for counsel’s disregard of the
Court’s comments at the June 8 conference.
Kyros’ false and misleading statements, identified
by WWE above, together with other statements the
Court has examined – including Kyros’ unprovable
claim that deceased and, in at least one case, cremated
former wrestlers had CTE “upon information and
belief” – are highly unprofessional. These misleading,
deceptive, and baseless allegations are precisely the
types of statements that many state bar associations
have targeted in promulgating rules of professional
conduct which demand that admitted attorneys speak
with candor to the trier of fact. The Court admonishes
Kyros and his co-counsel to adhere to the standards of
professional conduct and to applicable rules and court
orders lest they risk future sanction or referral to the
Disciplinary Committee of this Court.
V.

Conclusion

For the reasons stated above, WWE’s motions to
dismiss [Dkt. 103, Dkt. 104] are GRANTED and the
Frazier [3:15-cv-1229] and James [3:15-cv-1305] actions

App. 94
are DISMISSED. WWE’s Motion for Sanctions [Dkt.
80] is DENIED.
IT IS SO ORDERED.
/s/
Hon. Vanessa L. Bryant
United States District Judge
Dated at Hartford, Connecticut: November 10, 2016

App. 95

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket Nos. 16-1231(L), 16-1237(Con)
[Filed: September 27, 2016]
August Term 2016
Submitted: August 30, 2016
Decided: September 27, 2016
__________________________________________
Russ McCullough, Ryan Sakoda, and
)
Matthew Robert Wiese, individually and
)
on behalf of all others similarly situated;
)
William Albert Haynes, III,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
World Wrestling Entertainment,
)
Incorporated,1
)
Movant-Defendant-Appellee.
)
__________________________________________)
Before: NEWMAN, WINTER, and RAGGI, Circuit
Judges.

1

This caption, altered for purposes of this opinion, does not change
the official caption.

App. 96
Motion to dismiss appeals of orders dismissing two
of several cases consolidated in the District Court for
the District of Connecticut (Vanessa L. Bryant, District
Judge).
Motion granted.
David R. Fine, K&L Gates LLP,
Harrisburg, PA (Jerry S. McDevitt,
Curtis B. Krasik, K&L Gates LLP,
Pittsburgh, PA, Jeffrey Mueller, Day
Pitney LLP, Hartford, CT, on the
motion), for Movant-DefendantAppellee World Wrestling
Entertainment, Incorporated.
William M. Bloss, Koskoff, Koskoff &
Bieder, P.C., Bridgeport, CT
(Konstantine W. Kyros, Kyros Law
Offices, Hingham, MA, Charles J.
LaDuca, Cuneo Gilbert & LaDuca,
LLP, Bethesda, MD, Michael J.
Flannery, Cuneo Gilbert & LaDuca,
LLP, St. Louis, MO, Robert K.
Shelquist, Scott Moriarity, Lockridge
Grindal Nauen P.L.L.P., Minneapolis,
MN, Harris L. Pogust, Pogust Braslow
& Millrood, LLC, Conshohocken, PA,
Erica Mirabella, Mirabella Law, LLC,
Boston, MA, on the memorandum in
opposition), for Plaintiffs-Appellants
Russ McCullough, Ryan Sakoda,
Matthew Robert Wiese, and William
Albert Haynes, III.

App. 97
JON O. NEWMAN, Circuit Judge:
The pending motion to dismiss two appeals merits
a brief opinion to clarify the circumstances under which
judgments entered in some, but not all, cases that have
been consolidated are final for purposes of appellate
jurisdiction. Clarification is needed in the aftermath of
the Supreme Court’s decision in Gelboim v. Bank of
America Corp., 135 S. Ct. 897 (2015).
The appeals arise from cases in the District Court
for the District of Connecticut. That Court (Vanessa L.
Bryant, District Judge) consolidated six cases, five of
which were brought against Defendant-Appellee World
Wrestling Entertainment, Inc. (“WWE”). See
McCullough v. WWE, No. 3:15-cv-01074-VLB (D.
Conn.), Dkt. Nos. 41 (July 23, 2015), 49 (Aug. 4, 2015),
79 (Oct. 5, 2015). On WWE’s motion to dismiss, the
District Court later entered an order dismissing two of
the cases, one brought by Plaintiffs-Appellants Russ
McCullough and others, and one brought by PlaintiffAppellant William Albert Haynes III. Id. Dkt. No. 116
(Mar. 21, 2016). From the order entered in favor of
WWE in these two cases, Plaintiffs-Appellants filed
timely notices of appeal. Id. Dkt. Nos. 123, 124 (Apr.
20, 2016).
WWE, relying on our decision in Hageman v. City
Investing Co., 851 F.2d 69 (2d Cir. 1988), moved to
dismiss these appeals on the ground that other
consolidated cases remained pending in the District
Court. The Plaintiffs-Appellants oppose dismissal,
urging us to reconsider Hageman in light of the
Supreme Court’s decision in Gelboim. Although only an
in banc court can reject a prior decision of this Court,

App. 98
see United States v. Wilkerson, 361 F.3d 717, 732 (2d
Cir. 2004), a panel that believes an intervening
Supreme Court decision has abrogated a prior decision
can present that view to the active judges, and, in the
absence of objection, disregard the prior decision.2 We
therefore proceed to consider the effect, if any, of
Gelboim on Hageman.
Hageman
concerned
two
employment
discrimination cases that a district court had
consolidated. Like the consolidation in the pending
matter, this was a district court consolidation for all
purposes, not a consolidation by the Multi-District
Litigation Panel (“MDL”) for “coordinated or
consolidated pretrial proceedings” authorized by 28
U.S.C. ¶ 1407. The district court in Hageman dismissed
the sole claim in one of the consolidated cases. The
plaintiff appealed the order of dismissal, and the
defendants moved to dismiss the appeal because claims
in the other consolidated case remained pending.
The opinion in Hageman identified three possible
approaches to the issue presented by the motion to
dismiss the appeal: (1) a judgment disposing of any
claim in a consolidated action could be appealed, (2) an
“absolute rule” that a judgment in a consolidated action
could be appealed only if it disposed of all claims, and
(3) “a flexible approach, examining the type of
consolidation and the relationship between the
2

A recent example of that procedure is Doscher v. Sea Port Group
Securities, LLC, No. 15-2814, 2016 WL 4245427, at *4-5 & *5 n.9
(2d Cir. Aug. 11, 2016) (circulation to active judges prior to filing
opinion that considered effect of intervening Supreme Court
decision).

App. 99
consolidated actions in order to determine whether the
actions could be appealed separately absent Rule 54(b)
certification.” Hageman, 851 F.2d at 71. Hageman
adopted a variant of the flexible approach. We stated:
[T]he best way to weigh these competing
benefits of an absolute rule and a more flexible
approach is to hold that when there is a
judgment in a consolidated case that does not
dispose of all claims which have been
consolidated, there is a strong presumption that
the judgment is not appealable absent Rule
54(b) certification. In highly unusual
circumstances, a litigant may be able to
overcome this presumption and convince us that
we should consider the merits of the appeal
immediately, rather than waiting for a final
judgment.
Id. Concluding that the presumption had not been
overcome, we dismissed the appeal.
Several years later we again considered the
appealability of an order dismissing a complaint in a
consolidated action. The consolidation involved a large
group of cases transferred by the MDL Panel to the
Southern District of New York “for coordinated or
consolidated pretrial proceedings.” In re: Libor-Based
Financial Instruments Antitrust Litigation, No. 1:11md-02262-NRB (S.D.N.Y.) (“Libor I”) Dkt. No. 1 (Aug.
12, 2011), reported at 802 F. Supp. 2d 1380, 1381
(J.P.M.L. 2011). The District Court entered an order
dismissing the complaint of Ellen Gelboim and Linda
Zacher, which had made one claim, an antitrust
violation. Libor I, 935 F. Supp. 2d 666, 738 (S.D.N.Y.

App. 100
2013).3 On appeal from that order, this Court dismissed
“the appeals” because all claims in the consolidated
action had not been dismissed. In re Libor-Based
Financial Instruments Antitrust Litigation, Nos. 133565, 13-3636, 2013 WL 9557843 (2d Cir. Oct. 30, 2013)
(“Libor II”).4 Libor II did not cite Hageman, but did cite
Houbigant, Inc. v. IMG Fragrance Brands, LLC, 627
F.3d 497 (2d Cir. 2010), see 2013 WL 9557843, at *1,
which had relied on Hageman, see Houbigant, 627 F.3d
at 498.

3

The District Court dismissed the Gelboim-Zacher complaint in an
order entered March 29, 2013. See Libor I, Dkt. No. 286. The
Plaintiffs-Appellants’ timely notice of appeal (“NOA”) from that
order states that they “believe” a judgment was later “entered on
or about August 26, 2013 by operation of Federal Rule of Civil
Procedure 58(c)(2)(B). Id. Dkt. No. 409 at 2 n.1 (Sept. 17, 2013).
That subsection of Rule 58 provides that judgment “is entered” for
rulings that are required to be set forth in a separate document
when the ruling is so set forth or “150 days have run from the
entry in the civil docket.” Presumably, this subsection means that
a judgment is deemed to be entered 150 days after entry of the
ruling in the civil docket. See Mora v. United States, 323 F. App’x
18, 19-20 (2d Cir. 2009) (“If a separate judgment is not entered, it
is deemed to have been entered 150 days after entry of the
dispositive order.”). The docket in Libor I does not reflect a
judgment dismissing the Gelboim-Zacher complaint.
4

This Court’s dismissal order refers to “appeals” and bears two
docket numbers, Nos. 13-3565 and 13-3636. No. 13-3565 is the
appeal brought by Ellen Gelboim and Linda Zacher. No. 13-3636
is an appeal brought by several Charles Schwab entities whose
case was included in the consolidated MDL action. Those two
appeals were administratively consolidated by our Clerk’s Office,
an action implicitly reflected by Dkt. No. 11 in No. 13-3565.

App. 101
The Supreme Court reversed this Court’s decision
in Libor II. Gelboim v. Bank of America Corp., 135 S.
Ct. 897 (2015).5 The Court, citing Hageman, noted that
our Court “does not differentiate between all-purpose
consolidations . . . and . . . § 1407 consolidations for
pretrial proceedings only.” Id. at 904 n.2. The Court
ruled that the Gelboim-Zacher appeal should not have
been dismissed because it was an appeal from a
judgment dismissing one case that had been
consolidated only for MDL purposes. As the Court
explained:
Cases consolidated for MDL pretrial proceedings
ordinarily retain their separate identities, so an
order disposing of one of the discrete cases in its
entirety should qualify under § 1291 as an
appealable final decision.
Id. at 904 (footnote omitted).
Relevant to the pending matter, the Court added,
“We express no opinion on whether an order deciding
one of multiple cases combined in an all-purpose
consolidation qualifies under § 1291 as a final decision
appealable of right.” Id. at 904 n.4. Because the
McCullough and Haynes cases, the subjects of the
5

The Supreme Court understood this Court to have dismissed only
“the appeal filed by Gelboim and Zacher,” Gelboim, 135 S. Ct. at
902, see also id. at 904, although our order had dismissed both the
Gelboim-Zacher appeal and the appeal of the Schwab entities. See
footnote 4, supra. Only Gelboim and Zacher filed a petition for
certiorari seeking review of our Court’s order. Petition for Writ of
Certiorari, id. (No. 13-1174) (Mar. 26, 2014). The Supreme Court
granted their petition. 134 S. Ct. 2876 (2014). The Schwab entities
did not file a petition for certiorari.

App. 102
pending motion, were consolidated with other cases in
the District Court for all purposes,6 and because the
Supreme Court in Gelboim explicitly declined to
express an opinion on the appealability of a dismissal
of one of multiple cases in such a consolidation,
Gelboim does not oblige us to reconsider the continuing
validity of Hageman. Applying Hageman, we see
nothing in the Plaintiffs-Appellants’ papers that
overcomes the “strong presumption that the judgment
is not appealable.” Hageman, 851 F.2d at 71.
Accordingly, the motion to dismiss the appeals in
16-1231 and 16-1237 is granted, without prejudice to
renewal of these appeals upon entry of a final judgment
in the District Court disposing of all the cases with
which the McCullough and Haynes cases have been
consolidated.

6

The Plaintiffs-Appellants dispute that the cases were
consolidated for all purposes. See Plaintiffs’ Memorandum of Law
in Opposition to Motion to Dismiss 3. They call our attention to
Katz v. Realty Equities Corp., 521 F.2d 1354 (2d Cir. 1975), and
Greenberg v. Giannini, 140 F.2d 550 (2d Cir. 1944). In Katz, the
district court explicitly consolidated cases “for all pretrial
purposes.” 521 F.2d at 1356. In Greenberg, the consolidation “was
only a convenience, accomplishing no more than to obviate the
duplication of papers and the like.” 140 F.2d at 552. The
consolidation orders in the pending cases give no indication that
consolidation was accomplished for anything less than all
purposes. See Fed. R. Civ. P. 42(a)(2).

App. 103
A True Copy
Catherine O’Hagan Wolfe, Clerk
United States Court of Appeals, Second Circuit
/s/ Catherine O’Hagan Wolfe
[SEAL]

App. 104

APPENDIX E
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
[Filed: March 21, 2016]
CIVIL ACTION NO. 3:15-cv-001074 (VLB)
Lead Case
____________________________________
RUSS McCULLOUGH, a/k/a “Big )
Russ McCullough”, RYAN
)
SAKODA, and MATTHEW R.
)
WEISE, a/k/a “Luther Reigns,”
)
individually and on behalf of all )
Others similarly situated,
)
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.,
)
Defendant.
)
____________________________________)
------------------------------

App. 105
CIVIL ACTION NO. 3:15-cv-00425 (VLB)
Consolidated Case
____________________________________
EVAN SINGLETON and
)
VITO LOGRASSO
)
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.,
)
)
Defendant.
)
____________________________________)
-----------------------------CIVIL ACTION NO. 3:15-cv-01156 (VLB)
Consolidated Case
____________________________________
WILLIAM ALBERT HAYNES III, )
Individually and on behalf of all )
Others similarly situated,
)
Plaintiffs,
)
)
v.
)
)
WORLD WRESTLING
)
ENTERTAINMENT, INC.
)
)
Defendant.
)
____________________________________)
March 21, 2015

App. 106
MEMORANDUM OF DECISION GRANTING IN
PART AND DENYING IN PART DEFENDANT’S
MOTION TO DISMISS THE SECOND
AMENDED COMPLAINT BROUGHT BY
PLAINTIFFS SINGLETON AND LOGRASSO
[Dkt. 43], GRANTING DEFENDANT’S MOTION
TO DISMISS THE AMENDED COMPLAINT
BROUGHT BY PLAINTIFF HAYNES [Dkt. 64]
AND GRANTING THE DEFENDANT’S MOTION
TO DISMISS THE AMENDED COMPLAINT
BROUGHT BY PLAINTIFFS MCCULLOUGH,
SAKODA, AND WEISE [Dkt. 95].
Plaintiffs in this consolidated action are former
wrestlers for World Wrestling Entertainment Inc.
(“WWE”), a Connecticut entertainment company which
produces televised wrestling programming. Plaintiffs
allege that they are either suffering from symptoms of
permanent degenerative neurological conditions
resulting from traumatic brain injuries sustained
during their employment as wrestlers for WWE or are
at increased risk of developing such conditions.
Plaintiffs claim that they were injured as a result of
WWE’s negligence in scripting violent conduct and
failing to properly educate, prevent, diagnose and treat
them for concussions. Plaintiffs also claim that WWE
had knowledge of evidence suggesting a link between
repeated head trauma that could be sustained during
WWE events and permanent degenerative neurological
conditions such as CTE and either concealed such
evidence, fraudulent or negligently denied that it
existed, or failed to disclose it in the face of a duty to
disclose. Plaintiffs allege that they relied on such
fraudulent statements or omissions to their detriment

App. 107
in making decisions regarding their health. In total,
plaintiffs have asserted six claims against WWE in
their Complaints, including: “Fraudulent
Concealment”; (Count II) “Fraud by Omission”; (Count
III) Negligent Misrepresentation; (Count IV)
Fraudulent Deceit; (Count V) Negligence; and (Count
VI) Medical Monitoring.
Currently before the Court are WWE’s Motions to
Dismiss the Second Amended Complaint brought by
plaintiffs Singleton and LoGrasso, in its entirety, for
failure to state a claim, as well as WWE’s similar
Motions to Dismiss the Amended Complaints brought
by Plaintiff William Albert Haynes III and Plaintiffs
Russ McCullough, Ryan Sakoda and Matthew Wiese,
both of which are purported class actions. [Dkt. # 74,
Dkt. 95].
Specifically, WWE argues that the claims of all of
the plaintiffs except Singleton must be dismissed
because they are all time-barred by the applicable
Connecticut statutes of limitations and repose, Conn.
Gen. Stat. § 52-584 and § 52–577. [Dkt. 43-1, Def.’s
Mem. at 1]. WWE also argues that Plaintiffs’
negligence-based claims must be dismissed because
WWE owed no duty of care to protect Plaintiffs from
injuries resulting “from the inherent risks of
professional wrestling and within the normal
expectations of professional wrestlers.” [Id. at 2].
Finally, WWE argues that the plaintiffs’ fraud claims,
negligent misrepresentation claims and deceit claims
must be dismissed either because they fail to comply
with the heightened pleading requirements of Rule 9(b)

App. 108
or because they fail to state a cognizable cause of action
under Connecticut law. [Id.].
Plaintiffs respondby arguing that the statutes of
limitation and repose are subject to tolling based on the
continuous course of conduct tdoctrine and because of
fraudulent concealment pursuant to Conn. Gen. Stat.
§ 52-595. Plaintiffs argue that they have stated claims
for negligence because WWE owed a duty of care to
protect the Plaintiffs from the long term neurological
effects that may result from sustaining multiple
concussions and have stated claims for fraud because
WWE failed to disclose that Plaintiffs were at risk for
such neurological conditions.
For the reasons that follow, WWE’s Motion to
Dismiss the Singleton action [Dkt. 43] is GRANTED IN
PART AND DENIED IN PART, and WWE’s Motions to
Dismiss the McCullough and Haynes actions [Dkt. 95,
Dkt. 64] are GRANTED.
I.

Factual Background

The following facts and allegations are taken from
the Second Amended Complaint in the action brought
by Evan Singleton and Vito LoGrasso [3:15-cv-00425VLB, Dkt. #73] (hereinafter “SAC”)] as well as the
Amended Complaint in the purported class action
brought by Russ McCullough [Dkt. 73] (hereinafter
“MAC”)] and the Amended Complaint in the purported
class action brought by William Albert Haynes [3:15-cv01156-VLB, Dkt. #43] (hereinafter “HAC”)]. All three
Complaints contain nearly identical factual allegations
with the exception of certain paragraphs alleging facts
particular to each named plaintiff. The Complaints are

App. 109
also excessively lengthy, including large numbers of
paragraphs that offer content unrelated to the
Plaintiffs’ causes of action and appear aimed at an
audience other than this Court.
a) World Wrestling Entertainment, Inc.
The WWE is an “organizer and purveyor of
professional wrestling events, programs, and matches.”
[SAC ¶ 19]. WWE events are alleged to be an “action
soap opera” in that the events are scripted, both as to
dialogue between the wrestlers as well as the actual
physical wrestling stunts, and the events have
preordained winners and losers. [Id. ¶ 20]. Plaintiffs
allege that WWE creates scripts for its performances
that require its wrestlers to perform “activities that are
exceedingly dangerous.” [Id. ¶¶ 40, 44]. Plaintiffs allege
that WWE adds what it calls “heat” to its scripts in
order to ensure that there is “extra physicality” in its
matches, including the use of weapons or chairs in its
stunts. [Id. ¶ 44]. Plaintiffs allege that they have
sustained “thousands of hits to their heads as part of
scripted and choreographed moves.” [Id. ¶ 50]. As a
result, Plaintiffs “believe they are at greater risk for
developing long-term brain diseases such as dementia,
Alzheimer‘s disease, ALS, and CTE.” [Id. ¶ 2].
The WWE employs trainers and doctors to oversee
its wrestling events and to treat and monitor its
wrestlers for injuries they sustain from participation in
the events or practices. [Id. ¶¶ 86, 129, 131].
Specifically, the WWE created a “Wellness Program,”
launched on February 27, 2006, which provides
“[c]omprehensive medical and wellness staffing,
cardiovascular testing and monitoring, ImPACT

App. 110
concussion testing, substance abuse and drug testing,
annual physicals, [and] health care referrals” to
current and former WWE wrestlers. [Id. ¶ 78]. The
WWE also is alleged to collect injury reports concerning
injuries sustained by WWE talent in the ring. [Id.
¶ 89].
b) Concussions and CTE
Plaintiffs define a “concussion” as a type of mild
traumatic brain injury (“MTBI”) caused by a ‘bump,
blow, or jolt to the head or body.’ A blow to the head
that does not cause a concussion, or that has not been
diagnosed to cause a concussion, is commonly referred
to as a sub-concussive blow.” [Id. ¶ 26]. Concussions
cause numerous symptoms including: “headaches and
problems with concentration, memory, balance
coordination, loss of consciousness, confusion,
disorientation, nausea, vomiting, fatigue or drowsiness,
difficulty sleeping, sleeping more than usual, and
seizures.” [Id. ¶ 28].
Chronic traumatic encephalopathy (“CTE”) is
defined in the Complaints as a permanent change to
brain structure caused by repeated blows to the head.
[SAC ¶¶ 32-33]. CTE is usually caused by repeated
minor traumatic brain injuries that “often occur[] well
before the development of clinical manifestations,”
rather than from a single injury. [Id. ¶ 34].
Concussions can cause CTE, but are not the only cause:
repeated sub-concussive head trauma can also cause
CTE.” [Id. ¶ 25]. Furthermore, sustaining repeated
mild traumatic brain injuries without taking sufficient
time to recover may significantly increase the risk of
developing CTE. [Id. ¶ 30]. Symptoms of CTE include

App. 111
“depression, dementia, cognitive impairment,
Parkinsonism, personality change, speech and gait
abnormalities.” [SAC ¶ 33]. Whereas a concussion’s
symptoms “are often sensory and manifest
immediately,” CTE can manifest much later, and “can
be caused by blows which have no accompanying
symptoms.” [Id. ¶¶ 35-36]. Unlike concussions, CTE
can only be diagnosed post mortem with a “direct tissue
examination, which can detect an elevated level of Tau
protein in brain tissue.” Id.
c) Concussion Training,
Prevention at WWE

Education

and

Each of the six named plaintiffs alleges that they
were “never educated about the ramifications of head
trauma and injury and never received any medical
information regarding concussion or sub-concussive
injuries while employed by the WWE.” [SAC ¶¶ 138139]. Rather, Plaintiffs claim that they “relied on
WWE’s superior knowledge and position of authority.”
[Id. at ¶140].
Beyond that sole allegation, the Complaints devote
large portions of their overall length alleging various
injuries and slights sustained by WWE wrestlers other
than the named plaintiffs. In fact, despite the length of
the Complaints, the Court’s prior admonishment of
plaintiffs’ counsel and the Court’s provision of
additional time to file a Second Amended Complaint in
the Singleton action, there are precious few allegations
which detail specific instances of conduct that have
wronged any of the five plaintiffs. The Complaints are
replete with theoretical allegations of conditions from
which a hypothetical person could suffer without

App. 112
alleging that any particular Plaintiff actually suffers
from such a condition which has been causally
connected by an expert to such Plaintiff’s performance
at WWE events.
For example, the Complaints allege that the WWE
did not adequately train “its wrestlers” to execute
“their moves,” [SAC ¶88], and that WWE created
“complicated and dangerous stunts” which it directed
“its wrestlers” to perform. [SAC ¶ 91]. Some allegations
single out a former WWE trainer, Bill Demott, who is
alleged to have ordered “wrestlers who complained of
injuries” to “sit in time out,” and to have assaulted or
verbally humiliated those wrestlers. [Id. ¶ 98].
Nowhere do the Complaints allege that any of the
named Plaintiffs were subjected to such conduct. Other
allegations are patently vague. As an example, WWE
is accused of having “continuously permeate[d] (sic) an
environment of humiliation and silence.” [Id. ¶ 124].
Demott is accused of having “fostered a brutal culture”
and of having forced unnamed wrestlers into
“dangerous drills that led to many injuries.” [Id. ¶ 98].
Some allegations do not seem to fit plaintiffs’ own
timeline of events. The Complaints allege that “WWE’s
Wellness Program served to deceive Plaintiffs by
providing a false sense of security and assurance that
their health and safety were being adequately
monitored, both in the ring and as former wrestlers.”
[MAC ¶ 83]. The Wellness Program, however, was
created after McCullough, Sakoda and Wiese had
retired, and plaintiffs do not allege that WWE has ever
claimed its Wellness Program was intended to monitor
former talent.

App. 113
Other allegations are patently false.1 They are
simply copied and pasted in whole cloth from one
Complaint to another. For example, the McCullough
Complaint parrots verbatim the allegation that
“LoGrasso, wrestling on average five times a week,
sustained repeated concussions day after day over
many years,” without bothering to change the name of
the plaintiff. [MAC ¶ 43]. Even LoGrasso’s allegation
that he suffered concussions “day after day” is
contradicted by the fact that LoGrasso never alleges
that he was diagnosed with a concussion during his
entire tenure with WWE. Rather, his Complaint
speculatively alleges only that “upon information and
belief” a WWE doctor “would on numerous occasions”
witness LoGrasso suffer head trauma extremely likely
to cause concussions.” [SAC ¶ 135 (emphasis added].
Further, it is unclear what LoGrasso’s basis is for
alleging daily concussions would be, given that he also
alleges that while he was wrestling for WWE he was
never educated “regarding concussion or sub-concussive
injuries” and “never knew that he could sustain a
concussion while remaining awake.” [SAC ¶ 137].
d) WWE’s
A lleged
Knowledge
Concealment of Risks

and

Plaintiffs allege that WWE “concealed important
medical information, including the effects of multiple
head traumas” from the plaintiffs, in a campaign of
misinformation and deception to prevent Plaintiffs
from understanding the true nature and consequences

1

The Court notes that a Motion for Sanctions pursuant to Rule 11
has been filed by WWE in the instant case. [Dkt. 80].

App. 114
of the injuries they have sustained.” [Id. ¶ 60-61].
Specifically, the Singleton and McCullough Complaints
allege that WWE was aware “in 2005 and beyond” that
wrestling for the WWE and suffering head trauma
“would result in long-term injuries.” [SAC ¶ 57, MAC
¶ 57]. It is unclear how plaintiffs arrive precisely at the
year 2005 – the paragraph containing this allegation
cites a link to an internet article on the website of the
Mayo Clinic regarding the causes of concussions that is
no longer available. Elsewhere, the Complaints cite to
studies conducted in 2009 and 2010 and findings in
2007 that former wrestlers may have suffered from
CTE. [SAC ¶ 34, 35, 58]. The Complaints also contain
allegations undermining the claim that WWE “was
aware” of the medical information allegedly concealed,
as they later allege only that “WWE knew, or should
have known, of developments in medical science during
the last decade,” citing to a “large body of medical and
scientific studies that date as far back to the 1920‘s
that link head trauma to long term neurological
problems.” [Id. ¶ 3 (emphasis added)].
Plaintiffs allege that “WWE had superior special
[sic] knowledge of material medical information that
WWE wrestlers did not have access to,” although the
only specific allegation regarding specialized knowledge
is that the WWE allegedly had exclusive access to a
“repository of substantial concussion and other head
injury information,” because the WWE “[u]pon
information and belief, [] regularly collected and
continues to collect wrestler injury reports, including
during [the] Plaintiffs’ careers with WWE[.]” [Id. ¶ 89].

App. 115
The WWE is alleged to have “published articles and
. . . downplayed known long-term health risks of
concussions.” [Id. ¶ 72]. Specifically, WWE is alleged to
have issued a statement to ESPN questioning the
veracity of a report suggesting a former wrestler, Chris
Benoit, suffered from CTE. [Id. ¶ 70]. WWE is alleged
to have stated that it was:
“unaware of the veracity of any of these tests . . .
Dr. Omalu claims that Mr. Benoit had a brain
that resembled an 85 year-old with Alzheimer’s,
which would lead one to ponder how Mr. Benoit
would have found his way to an airport, let alone
been able to remember all the moves and
information that is required to perform in the
ring . . . .” [Id.].
The Complaints allege that WWE CEO Vincent K.
McMahon and former WWE CEO Linda McMahon
further attacked those findings in a joint interview on
CNN in 2007. [Id. ¶ 74]. Plaintiffs cite Dr. Joseph
Maroon’s statements to the NFL Network, Total Access
in March of 2015 that “[t]he problem of CTE, although
real, is its being overexaggerated.” [Id. ¶ 56]. Plaintiffs
also allege that WWE Executive Stephanie McMahon
Levesque’s testified in 2007 to the Committee on
Oversight and Government Reform of the U.S. House
of Representatives that there were “no documented
concussions in WWE’s history.”2 [Id. ¶ 64]. Plaintiff
LoGrasso further alleges that he has received
pamphlets and e-mails from the WWE Wellness

2

As the Court notes in Part 3(a), supra, the Defendant has also
called into question the veracity of this allegation.

App. 116
Program offering support to former wrestlers
struggling with drug and alcohol abuse, but that he has
not received any communication from the WWE
Wellness Program regarding long-term neurological
disorders resulting from wrestling activities. [Id. ¶76].
Finally, plaintiffs allege that the WWE did not
“properly assess, diagnose, and treat their wrestlers,”
although, as described below, none of the five named
plaintiffs brings any allegation that on any specific
date they complained to a specific WWE employee
about concussion-like symptoms and were wrongfully
diagnosed as having not suffered a concussion or
medically cleared to wrestle without adequate rest.
e) The Named Plaintiffs
i)

Plaintiff Vito LoGrasso

Plaintiff Vito LoGrasso began to wrestle for the
WWE in 1990 as an extra, eventually signing a fulltime contract with the WWE in 2005. [Id. ¶¶ 118, 12223]. LoGrasso alleges that he “never knew that he
could sustain a concussion while remaining awake” and
claims he believed that “having his ‘bells rung’ would
not result in a concussion.” [Id. ¶ 137]. LoGrasso
alleges that during his tenure with the WWE, his
trainer Bill Dumott and other unidentified WWE
employees encouraged LoGrasso “to fight through
serious injury,” although such injuries are unspecified.
[Id. ¶ 124]. LoGrasso alleges that he was told by
unidentified WWE employees that injuries he suffered
were part of “paying his dues.” [Id. ¶ 125].
LoGrasso alleges that on some date in September of
2006, he was “kicked in the face outside the ring,”

App. 117
which knocked LoGrasso to the ground “where he
struck his head against concrete steps.” [Id. ¶ 134].
LoGrasso alleges that he was not examined by WWE
medical staff for a possible concussion after the
incident. [Id.]. However, LoGrasso does not allege that
he ever approached any WWE employee to report
concussion-like symptoms or that any specific WWE
employee had knowledge of his condition.
LoGrasso retired from wrestling in 2007. [Id. ¶ 136].
In 2008 LoGrasso began experiencing “symptoms of
neurological injury in the form of residual, pounding
headaches.” [Id. ¶ 140]. In either 2009 or 2010,
LoGrasso was diagnosed with “TMJ of the jaw” and
was diagnosed as “near deaf in one ear and mostly deaf
in the other.” [Id. at ¶ 141]. In 2014 or 2015 LoGrasso
alleges that he was diagnosed as “having numerous
neurological injuries,” which are not specified. [Id.
¶¶ 142-47].
ii)

Plaintiff Evan Singleton

Plaintiff Evan Singleton is a Pennsylvania resident
who signed a contract with the WWE in 2012 and
wrestled for WWE from 2012 to 2013. [SAC ¶ 93].
Singleton alleges that he “did not have adequate time
to rest between matches and was encouraged to wrestle
while injured.” [Id. ¶ 95]. Singleton also alleges that he
sustained “numerous” injuries to the “upper body, neck
and head” during his two year wrestling career with
WWE, though such injuries are unspecified in the
Complaint. [Id.].
Singleton simultaneously alleges that WWE was
negligent because, during training, Singleton was

App. 118
matched “with inexperienced opponents which due to
lack of experience resulted in more injuries” and that
WWE was negligent because Singleton was scripted to
perform a “choke slam” with a “more skilled, more
experienced” wrestler despite Singleton’s own lack of
experience with the maneuver. [Id. ¶¶ 96, 100]. While
performing this maneuver on or about September 27,
2012, Singleton alleges that he was “knocked
completely unconscious” after being “thrown with extra
force” to the wrestling mat. [Id. ¶ 102]. Singleton
alleges that he “suffered a blow to the left side of his
head and sustained a brain injury as a result.” [Id.
¶ 103]. He further alleges that he experienced
symptoms immediately after suffering the blow to the
head in the choke slam maneuver and that after
regaining consciousness he had “balance problems.” [Id.
¶ 100, 103].
While Singleton alleges that he was “not treated”
after the incident, he admits that he saw a WWE
trainer immediately after the incident and was
instructed to rest over the following weekend and have
his father and roommate monitor his condition. [Id.
¶ 104]. Singleton was later seen by a WWE-affiliated
doctor who prescribed additional rest, followed by a
WWE-affiliated neurologist who ordered additional
testing and a referral to a WWE treating psychiatrist.
[Id. ¶¶ 105-106, 115]. Singleton then simultaneously
alleges that he was “not medically cleared to wrestle”
by WWE but that he was “encouraged” to return and
“criticized” and “threaten[ed]” and “harass[ed]” for his
inability to return by his trainer, Demott. [Id. ¶ 108].

App. 119
Singleton does not allege that the WWE ever
cleared him to wrestle again, or otherwise failed to
prevent additional injury or treatment. Rather, he
alleges that as a result of a referral to an inpatient
facility by WWE, his primary care physician
determined that he suffered from a “possible
intracranial hemorrhage.” [Id. ¶ 113]. Singleton also
alleges that he currently experiences migraines and
severe mental health issues as a result of the injury he
sustained on September 27, 2015. [Id. ¶¶ 113, 115].
iii)

Plaintiff Russ McCullough

Plaintiff Russ McCullough is a California resident
who wrestled for the WWE from 1999 to 2001. [MAC
¶ 98]. Several of McCullough’s allegations appear to
have been copied and pasted from the Singleton
Complaint. Like Singleton, McCullough alleges that he
“did not have adequate time to rest between matches
and was encouraged to wrestle while injured.” [Id.
¶ 99]. Also like Singleton, McCullough alleges that he
sustained “numerous” injuries to the “upper body, neck
and head” during his two year wrestling career with
WWE, though such injuries are also unspecified in his
Complaint. [Id. ¶ 100].
McCullough alleges alleges that he was “knocked
completely unconscious” after being struck to the head
with a metal chair during a WWE wrestling match.
[Id.] While unconscious, he was struck in the head with
the metal chair “more than 15 times.” [Id.] McCullough
“sought treatment on his own and on an unspecified
date not later than 2001 and he was diagnosed with a
severe concussion” following the incident. [Id.]
McCullough also alleges that while participating in

App. 120
numerous WWE wrestling matches he suffered “subconcussive or concussive blows.” [Id. ¶ 101].
McCullough currently suffers from “headaches,
memory loss and severe mental health issues.” [Id.
¶ 103].
iv)

Plaintiff Ryan Sakoda

Plaintiff Ryan Sakoda is a California resident who
wrestled for the WWE from 2003 to 2004. [Id. ¶ 104].
Sakoda alleges that he knowingly suffered a traumatic
brain injury when, on an unspecified date in 2003, he
was “knocked unconscious in a match by a Super Kick.”
[Id. ¶ 106]. Sakoda w alleges that WWE trainers and
medical staff told him “not to go to sleep, suggesting
that if he did he may bleed to death and die.” [Id.]. He
alleges that he was “forced to wrestle injured” on the
threat of losing his job. [Id. ¶ 105]. Sakoda alleges that
he currently suffers from headaches, memory loss and
depression. [Id. ¶ 108].
v)

Plaintiff Matt Wiese

Plaintiff Matt Wiese is a California resident who
wrestled from 2003 to 2005 under the stage name
“Luther Reigns.” [Id. ¶ 109]. Wiese alleges that he
knowingly “sustained numerous untreated head
injuries” although such injuries are not specified. [Id.
¶ 110]. Wiese alleges that during a WWE event on an
unspecified date he was punched by a wrestler under
the stage name “Big Show” and sustained “visible
injuries” to his head and vomited afterward. [Id.].
Wiese alleges that “WWE staff took no steps to
intervene in the event” or to treat his condition. [Id.].
However, Wiese does not allege that he ever

App. 121
approached any WWE employee to report concussionlike symptoms or seek treatment or that any specific
WWE employee had knowledge of his condition. Wiese
alleges that he suffers from headaches and memory
loss and has had a stroke. [Id. ¶ 111].
vi)

Plaintiff William Albert Haynes III

Plaintiff William Albert Haynes, III (“Haynes”)
wrestled for WWE from 1986 to 1988. [HAC ¶ 122]. The
Complaint alleges that “Haynes is [sic] well known
champion wrestler.” Id. Like the other named
plaintiffs, Haynes alleges that at unspecified times he
“suffered sub-concussive or concussive blows” and was
subjected to “verbal abuse and pressure” from
unidentified WWE employees. Id. at 123-124. Haynes
alleges that on March 29, 1987, he was “hit in the head
with a large metal chain” which led to an unspecified
“head injury” that was not treated. Id. at 126. Haynes
does not allege that he ever sought treatment or from
the WWE or a physician or trainer employed by WWE
or that he ever complained of concussion-like
symptoms. Haynes alleges that he was never educated
“about the risk of sustaining numerous subconcussive
and concussive blows.” Id. at 125. Haynes “exhibits
symptoms of dementia” and depression. Id. at 131.
f) Procedural History
Plaintiffs Singleton and LoGrasso originally filed
their Complaint in the U.S. District Court for the
Eastern District of Pennsylvania on January 16, 2015
as a purported class action. On February 27, 2015,
WWE filed a Motion to Transfer Venue pursuant to 28
U.S.C. § 1404(a) due to forum-selection clauses in the

App. 122
contracts signed by each of the wrestlers. [Dkt. 6].
Those clauses state that: “[t]he parties agree to submit
any and all disputes arising out of or relating in any
way to this Agreement exclusively to the jurisdiction of
the United States District Court of Connecticut.”
Plaintiffs filed no opposition to the Motion to Transfer.
By Order dated March 23, 2015, the Eastern District of
Pennsylvania granted WWE’s Motion to Transfer,
noting that “[t]he plaintiffs do not oppose a transfer of
venue and agree that the District of Connecticut is an
appropriate forum.” [Dkt. 11].
The McCullough suit was filed as a purported class
action in the Central District of California on April 9,
2015. On May 14, 2015, WWE filed a Motion to
Transfer Venue pursuant to 28 U.S.C. § 1404(a) due to
forum-selection clauses in the contracts signed by each
of the wrestlers. [Dkt. 16]. The McCullough plaintiffs
opposed the Motion to Transfer, arguing that the forum
selection clauses in the contracts are unconscionable
under California and Connecticut law. [Dkt. 21]. On
July 24, 2015, the McCullough Suit was transferred to
this District after a court in the Central District of
California found that the forum selection clauses in the
Plaintiffs’ contracts with the WWE were valid and
enforceable. [Dkt. 24].
Haynes filed his own lawsuit in the United States
District Court for the District of Oregon, purporting to
be a class action. [No. 3:15-cv-0115-VLB, Dkt. 1].
Unlike the named plaintiffs in the Singleton and
McCullough actions, Plaintiff Haynes did not sign a
contract with a forum-selection clause limiting
jurisdiction to the District of Connecticut. Nonetheless,

App. 123
on June 25, 2015, the District Court for the District of
Oregon granted WWE’s Motion to Transfer the Haynes
action to this District pursuant to 28 U.S.C. § 1404(a),
finding that Haynes’ choice of forum was entitled to
little weight since he had brought a class action on
behalf of individuals throughout the United States,
because of evidence of forum-shopping on the part of
Plaintiff’s counsel and because “forum non conveniens
considerations” weighed in favor of transfer. [Dkt. 59].
In addition, Cassandra Frazier and Michelle James,
decedents of former WWE wrestlers have also filed
separate wrongful death actions in the Western
District of Tennessee and in the Northern District
of Texas. [3:15-cv-01305-VLB; 3:15-cv-01229-VLB].3
Finally, the defendant has counter-sued in a
declaratory judgment action styled World Wrestling
Entertainment, Inc v. Windham, et al, No. 3:15-cv00994 (VLB), seeking a declaration from this Court
that any claims by former wrestlers similar to those of
McCullough and LoGrasso are time-barred under the
Connecticut statutes of limitations. The outcome of the
instant motions to dismiss should therefore be
dispositive as to the Windham action.
II.

Standard of Review

“‘To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to

3

The Frazier and James actions have also been transferred to this
district and subsequently consolidated with the Singleton and
McCullough suits. Motions to Dismiss the Amended Complaints in
Frazier and James are now pending before the Court, however
they are not examined in this memorandum of opinion.

App. 124
state a claim to relief that is plausible on its face.’”
Sarmiento v. U.S., 678 F.3d 147 (2d Cir. 2012) (quoting
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). While Rule
8 does not require detailed factual allegations, “[a]
pleading that offers ‘labels and conclusions’ or
‘formulaic recitation of the elements of a cause of action
will not do.’ Nor does a complaint suffice if it tenders
‘naked assertion[s]’ devoid of ‘further factual
enhancement.’” Iqbal, 556 U.S. at 678 (citations and
internal quotations omitted). “Where a complaint
pleads facts that are ‘merely consistent with’ a
defendant’s liability, it ‘stops short of the line between
possibility and plausibility of ‘entitlement to relief.’” Id.
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 557
(2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. (internal
citations omitted).
In considering a motion to dismiss for failure to
state a claim, the Court should follow a “two-pronged
approach” to evaluate the sufficiency of the complaint.
Hayden v. Paterson, 594 F.3d 150, 161 (2d Cir. 2010).
“A court ‘can choose to begin by identifying pleadings
that, because they are no more than conclusions, are
not entitled to the assumption of truth.’” Id. (quoting
Iqbal, 556 U.S. at 679). “At the second step, a court
should determine whether the ‘well-pleaded factual
allegations,’ assumed to be true, ‘plausibly give rise to
an entitlement to relief.’” Id. (quoting Iqbal, 556 U.S. at
679). “The plausibility standard is not akin to a
probability requirement, but it asks for more than a
sheer possibility that a defendant has acted

App. 125
unlawfully.” Iqbal, 556 U.S. at 678 (internal quotations
omitted).
In general, the Court’s review on a motion to
dismiss pursuant to Rule 12(b)(6) “is limited to the
facts as asserted within the four corners of the
complaint, the documents attached to the complaint as
exhibits, and any documents incorporated in the
complaint by reference.” McCarthy v. Dun & Bradstreet
Corp., 482 F.3d 184, 191 (2d Cir. 2007). The Court may
also consider “matters of which judicial notice may be
taken” and “documents either in plaintiffs’ possession
or of which plaintiffs had knowledge and relied on in
bringing suit.” Brass v. Am. Film Techs., Inc., 987 F.2d
142, 150 (2d Cir.1993); Patrowicz v. Transamerica
HomeFirst, Inc., 359 F. Supp. 2d 140, 144 (D. Conn.
2005).
III.

Discussion

At the outset, neither the Singleton nor the
McCullough plaintiffs challenge WWE’s assertion that
Connecticut law applies to their claims by virtue of the
forum-selection clause in the contracts between the
wrestlers and WWE; and plaintiffs in both cases have
submitted opposition briefing relying exclusively on
Connecticut law.
Plaintiff Haynes, however, argues that Oregon
substantive and procedural law must apply to his
claims, noting that he never signed a contract with the
WWE which included a forum-selection clause. The
Court therefore begins by examining the choice-of-law
question with respect to Haynes.

App. 126
1. Connecticut Law Applies to the
Claims in the Haynes, Singleton and
McCullough Actions
Ordinarily, when a case is transferred pursuant to
28 U.S.C. § 1404(a), “the transferee court generally
adheres to the choice of law rules of the transferor
court.” Sissel v. Rehwaldt, 519 Fed. Appx. 13, 17 (2d
Cir. 2013) (citing Van Dusen v. Barrack, 376 U.S. 612,
639 (1964)). WWE notes that an exception applies
when the transferor court lacks personal jurisdiction
over the defendant(s), in which case the transferee
court’s choice-of-law principles govern. See Garena v.
Korb, 617 F.3d 197, 204 (2d Cir. 2010) (“[W]hen a case
is transferred under 28 U.S.C. § 1404(a), the law of the
transferor state is to be applied so long as the
transferor state could properly have exercised
jurisdiction.”).4 However, in this case the determination
of which state’s choice-of-law rules to apply is made
easier by the fact that both Oregon and Connecticut
courts consider choice-of-law questions by examining
the same factors, which are set forth in the
Restatement (Second) of Conflicts § 145. Jaiguay v.
Vasquez, 287 Conn. 948 A.2d 955 (Conn. 2008) (“we
have moved away from the place of the injury rule for
tort actions and adopted the most significant
4 4

WWE notes that its Motion to Dismiss the Haynes action
argued that the District Court for the District of Oregon lacked
personal jurisdiction over WWE. Thus, WWE argues that if this
Court were to determine that WWE was not subject to personal
jurisdiction in Oregon, Connecticut choice-of-law rules would
apply. The Court need not determine whether WWE was subject
to personal jurisdiction in Oregon, as the outcome would be the
same under either state’s choice-of-law analysis.

App. 127
relationship test found in §§ 6 and 145 of the
Restatement (Second) of Conflict of Laws.”); 389
Orange Street Partners v. Arnold, 179 F.3d 656, 662
(9th Cir. 1999) (“Oregon courts follow the Restatement
(Second) of Conflicts of Laws § 145 approach to
determining the appropriate substantive law.”). Under
the factors set forth in the Restatement and the
precedent cases in either jurisdiction, Connecticut
substantive law must be applied to Haynes’ claims.
Section 145 of the Restatement (Second) of Conflicts
provides that “[t]he rights and liabilities of the parties
with respect to an issue in tort are determined by the
local law of the state which, with respect to that issue,
has the most significant relationship to the occurrence
and the parties.” Restatement (Second) Conflict of
Laws § 145(2) (1971). The “contacts” that are to be
taken into account in determining which state has the
most significant relationship include: “(a) the place
where the injury occurred, (b) the place where the
conduct causing the injury occurred, (c) the domicile,
residence, nationality, place of incorporation and place
of business of the parties, and (d) the place where the
relationship, if any, between the parties is centered.”
Id. These contacts “are to be evaluated according to
their relative importance with respect to the particular
issue.” Id.; see also Jaiguay, 948 A.2d at 974 (applying
same); 389 Orange Street Partners, 179 F.3d at 661
(applying same).
The first factor, the place where the injury occurred,
is essentially neutral in this case. Haynes alleges that
he competed in “hundreds” of matches for the WWE,
including matches in front of nationally-televised

App. 128
audiences. [HAC ¶ 122]. Although Plaintiffs argue that
“at least four” of those matches occurred in Oregon,
[Pl.’s Supp. Mem. at 10], it cannot be said that the
“injury” alleged – in the form of increased risk of
degenerative neurological conditions – occurred
exclusively – or even substantially – within Oregon
borders or indeed within any jurisdiction. Haynes has
also brought a purported class action on behalf of
wrestlers who also presumably were injured in
numerous jurisdictions.
The second factor, the place where the conduct
giving rise to the injury occurred, weighs heavily in
favor of the application of Connecticut law. The
documents and witnesses that would be likely to
support Haynes’ fraud claims are likely to be in or near
WWE’s corporate headquarters located in Stamford,
Connecticut. To the extent Haynes alleges negligence
in the form of inadequate training, education,
assessment or medical diagnosis, such conduct is likely
to have occurred in numerous jurisdictions, but with
the direction and coordination of WWE staff located in
Connecticut at that time.
The third factor – the domicile of the parties – is
neutral. Haynes is an Oregon resident and WWE is
incorporated in Connecticut. And the fourth factor, the
place where the relationship between the parties is
centered, weighs somewhat in favor of Connecticut, as
WWE attorneys and staff are likely to have at least
contributed to the development and negotiation of
Haynes’ booking contract and at least contributed to
determining the location, dates and times of Haynes’
wrestling engagements nationwide.

App. 129
The four factors enumerated above weigh in favor of
the application of Connecticut law. The Court also
notes that two important factors in the Oregon court’s
decision to transfer this action to Connecticut were:
(1) evidence of forum-shopping on the part of Plaintiff’s
counsel, and (2) the fact that the Haynes action, along
with the McCullough action which had already been
transferred to this District, was a purported class
action on behalf of individuals domiciled throughout
the United States. [Dkt. 59]. These factors must also be
taken into account here, and lead this Court to assign
little value to the fact that Haynes is an Oregon
resident, essentially the only fact supporting
application of Oregon law. Courts in both the Second
and Ninth Circuits have reached the same conclusion
in similar circumstances. See 389 Orange Street
Partners, 179 F.3d at 662 (applying Connecticut law to
claims brought by former basketball player Clifford
Robinson and noting that “the only factor favoring
Oregon substantive law is Robinson’s residence in
Oregon.”). In such circumstances, the Court must apply
Connecticut substantive law.
Because the Court applies Connecticut substantive
law, the Connecticut statutes of limitations and repose
must also apply. “Under Oregon law, the statute of
limitation is provided by the state which supplies the
substantive law.” 389 Orange Street Partners, 179 F.3d
at 661. And under Connecticut law, the statute of
limitations is considered procedural and the
Connecticut statute of limitations will govern if the
underlying claims existed at common law. Baxter v.
Sturm, Ruger & Co. Inc., 32 F.3d 48, 49 (2d Cir. 1994)
(rejecting application of Oregon statute of limitations

App. 130
and after the Connecticut Supreme Court found the
statute to be procedural and not substantive); Doe No.
1 v. Knights of Columbus, 930 F. Supp. 2d 337, 353 (D.
Conn. 2013) (Connecticut courts traditionally apply
Connecticut’s statute of limitations when the plaintiff
pursues a common law cause of action”).
2. Plaintiffs’ Claims Are Not TimeBarred By Connecticut Statutes of
Limitations and Repose
The WWE urges dismissal of all of the claims of
Plaintiffs LoGrasso, McCullough, Sakoda, and Wiese
on the grounds that these plaintiffs’ fraud and deceit
claims are time-barred pursuant to Conn. Gen. Stat.
§ 52–577, the Connecticut statute of limitations for tort
claims, and that their negligent misrepresentation,
negligence, and medical monitoring claims are timebarred pursuant to Conn. Gen. Stat. § 52–584, the
Connecticut statute of limitations applicable to
negligence claims.
Conn. Gen. Stat. § 52-584 provides in relevant part:
“No action to recover damages for injury to
the person, or to real or personal property,
caused by negligence . . . shall be brought but
within two years from the date when the
injury is first sustained or discovered or in
the exercise of reasonable care should have
been discovered, and except that no such
action may be brought more than three years
from the date of the act or omission
complained of ....”
Conn. Gen. Stat. § 52-584 (West).

App. 131
Section 584, applicable to Plaintiffs negligence
claim, is both a statute of limitations and a statute of
repose, as it contains both a two-year limitations
component running from the date of discovery of the
injury as well as a three-year repose component which
runs from the date of the act or omission alleged to
have caused the injury. See Neuhaus v. DeCholnoky,
905 A.2d 1135, 1142 (Conn. 2006). Section 577,
applicable to Plaintiffs tort claims for fraud and deceit,
is a three-year statute of repose which provides simply
that: “[n]o action founded upon a tort shall be brought
but within three years from the date of the act or
omission complained of.” Conn. Gen. Stat. § 52–577
(West).
Because plaintiff Singleton wrestled for WWE as
late as 2013, WWE has not argued that his claims are
time barred. However, Plaintiffs Haynes, LoGrasso,
McCullough, Sakoda and Wiese each ceased wrestling
for WWE well before 2012 (together, the “Pre-2012
Plaintiffs”). Whether the Pre-2012 Plaintiffs’ claims are
time-barred depends on: (1) when each of the plaintiffs
first discovered “actionable harm” such that the
discovery provision of Conn. Gen. Stat. § 52-584 began
to accrue on their negligence claims; (2) whether WWE
engaged in a continuing course of conduct that tolled
the applicable statutes of repose as to all claims; or
(3) whether WWE engaged in fraudulent concealment
in violation of Conn. Gen. Stat. § 52-595, such that the
applicable statutes of limitations must be tolled as to
all claims.
For the reasons stated below, the Court finds that
to the extent that the harm alleged is an increased risk

App. 132
for permanent degenerative neurological conditions, it
is not evident from the face of the Complaints that any
plaintiff discovered the actionable harm more than two
years prior to the filing of the instant suits. The Court
also finds the statute of limitations and repose may be
tolled only as to the fraudulent omission claim and only
to the extent that the Complaint raises questions of
fact as to whether WWE owed a continuing duty to
disclose, or fraudulently concealed, information
pertaining to a link between WWE wrestling activity
and permanent degenerative neurological conditions.
a. Date of Discovery of Actionable
Harm
WWE first argues that the Pre-2012 Plaintiffs’
negligence claims are barred by the discovery portion
of the statute of limitations at Sec. 584 because the
Plaintiffs discovered the injuries they have complained
of well prior to their retirement from wrestling. The
Connecticut Supreme Court has defined the term
‘injury’ in Sec. 52-584 to be an event that occurs when
the plaintiff suffers “actionable harm.” Lagassey v.
State, 846 A.2d 831, 845 (Conn. 2004). “Actionable
harm,” in turn, “occurs when the plaintiff discovers, or
in the exercise of reasonable care, should have
discovered the essential elements of a cause of action.”
Id. at 846. Thus, “the statute of limitations begins to
run when the claimant has knowledge of facts which
would put a reasonable person on notice of the nature
and extent of an injury and that the injury was caused
by the wrongful conduct of another. . . The focus is on
the plaintiff’s knowledge of facts, rather than on
discovery of applicable legal theories.” Id. The

App. 133
determination of when a plaintiff in the exercise of
reasonable care should have discovered ‘actionable
harm’ is ordinarily a question reserved for the trier of
fact.” Id. at 847.
The WWE notes that under Connecticut law,
although an injury occurs “when a party discovers some
form” of actionable harm, “the harm complained of
need not have reached its fullest manifestation in order
for the limitation period to begin to run.” BellSouth
Telecomm., Inc. v. W.R. Grace & Co., 77 F.3d 603, 614
(2d Cir. 1996), citing Burns v. Hartford Hosp., 472 A.2d
1257, 1261 (1984); Mollica v. Toohey, 39 A.3d 1202,
1206 (2012). Thus, with regard to physical injuries, a
plaintiff need only discover “some physical injury,” not
the “full manifestation” of a given injury, for his or her
claim to accrue. See, e.g., Dennis v. ICL, Inc., 957 F.
Supp. 376, 380 (D. Conn. 1997) (claim accrued when
plaintiff first learned she had tendinitis and “overuse
syndrome” in her wrists due to her work; later
diagnosis of Carpal Tunnel Syndrome was merely the
full manifestation of the condition “that caused her
earlier symptoms.”).
The WWE argues, therefore, that the statutes of
limitations began to run on the Pre-2012 Plaintiffs’
claims at the time that each plaintiff knowingly
sustained head injuries while participating in WWE’s
wrestling matches, because each plaintiff has alleged
that he was aware that he had sustained head trauma
and/or concussions and was at least somewhat
symptomatic of concussive injury at that time that he
was wrestling. [Def.’s Mem. at 24]. It is
inconsequential, WWE argues, that the Pre-2012

App. 134
Plaintiffs “did not discover the full manifestation of
these alleged head injuries” until a later date. [Def.’s
Reply at 7].
The Pre-2012 Plaintiffs have different responses on
the issue of the date of discovery of actionable harm.
Plaintiff Vito LoGrasso, the only Pre-2012 Plaintiff to
have been diagnosed with any permanent condition,
argues that he did not discover actionable harm until
2014, when he was diagnosed as “permanently
disabled,” allegedly due to the head trauma he
sustained during his tenure with the WWE. [Pls.’ Rep.
Mem. at 6-9]. Other Pre-2012 Plaintiffs have alleged
that the injuries they sustained are not the discrete
head injuries that they suffered while wrestling for
WWE, but rather the increased risk of developing
permanent neurological conditions, including but not
limited to CTE, as a result of their wrestling activity.
[Pls.’s Opp. Mem. at 21 (“[j]ust because the Plaintiffs
knew they were being hit on the head does not equate
to their knowledge that they were receiving severe
concussions . . . which . . . will continue to result in
long-term neurological injuries”)].
On this issue, the Court must concur with the
Plaintiffs. The mere fact that the Pre-2012 Plaintiffs
allege that they sustained concussions and head
trauma during their tenure with the WWE; and that
they allege awareness of those concussions and possible
concussion-like symptoms at the time, is not
necessarily dispositive here at the motion to dismiss
stage. A single MTBI such as a concussion, and the
symptoms that a discrete MTBI can manifest, are not
the same “condition” as a disease such as CTE or

App. 135
another degenerative neurological disorder that may –
or may not – be caused by repeated MTBIs.
The distinction between cause and condition is
critical. An individual who smokes cannot be said to be
aware of developing lung cancer merely because the
individual is aware that he or she smokes. And where,
as here, the injury alleged is not an actual condition at
all, but rather an increased risk of developing a
condition, the date of discovery of “some injury”
becomes even more difficult to pinpoint. In such cases,
it is perhaps possible for a plaintiff to be aware of some
form of the risk so as to have discovered the actionable
harm. Certainly the widespread publicity of the
hazards of smoking in recent decades can be said to
have put the American public on notice of an increased
risk for lung cancer. On the face of the Complaints,
however, the Court cannot determine date(s) of
discovery in this case which would bar the instant
claims.
Only one court has considered this issue previously,
in the context of current and former professional
hockey players. See In re Nat. Hockey League Players’
Concussion Injury Litig., 2015 WL 1334027, at *5-7 (D.
Minn. Mar. 25, 2015) (hereinafter the “NHL case”). In
the NHL case, Judge Nelson rejected the NHL’s
substantially similar argument on a Motion to Dismiss
under Minnesota law that “the statutes of limitations
began to run on Plaintiffs’ claims when Plaintiffs
sustained head injuries in the NHL because they were
aware at that time that they had been injured . . . and
the fact that the injuries are now more extensive than
they realized at the time they sustained them does not

App. 136
extend the limitations period.” Id. at *7. Judge Nelson
held that because the NHL plaintiffs “alleged “injury in
the form of an increased risk of developing
neurodegenerative diseases,” it could not be
determined from the face of the Complaint that the
NHL plaintiffs “were aware that they had suffered an
injury—or the possibility of injury—while they were
playing in the NHL.” Id.
The cases cited by WWE in support of an earlier
discovery date under Connecticut law are inapposite
and do not urge a different outcome here. In Slekis v.
Nat’l R.R. Passenger Corp., 56 F. Supp. 2d 202, 206 (D.
Conn. 1999), one court held there was an issue of
material fact as to whether a paraplegic plaintiff who
could not feel a foot injury should have been aware of
his cause of action. In that case, the record was “not
clear as to what plaintiff saw or experienced at the
time of the accident” and whether the experience
should have put him on notice of the injury. Id. at 206.
Similarly, in Mountaindale Condo. Ass’n, Inc. v.
Zappone, 59 Conn. App. 311 (Conn. App. 2000), the
question was whether plaintiff knew of construction
defects in an apartment building sufficient to put the
plaintiff on notice “that it was likely there were
building and fire code violations . . . in the units” prior
to the discovery of those specific code violations. Id. at
324-325. In both cases the plaintiffs saw or heard some
fact or witnessed some incident which could have
reasonably put them on notice of their cause of action.
Here, however, it cannot be determined from the
face of the Complaints and as a matter of law that the
Pre-2012 Plaintiffs were on notice of an increased risk

App. 137
for a latent, permanent neurological condition merely
because they knew they had suffered a concussion
and/or sustained other minor brain trauma during the
time they wrestled for WWE. The Pre-2012 Plaintiffs’
knowledge, or lack thereof, of a connection repeated
concussions or sub-concussive blows to the head and
latent, permanent neurological conditions presents a
material issue of fact that must be decided at a later
date.5 Without knowledge of such a connection,
5

Several facts set forth in LoGrasso’s lengthy, 281-paragraph
Amended Complaint, do suggest that perhaps, at the very least,
LoGrasso should have been aware of some degenerative
neurological condition prior to his diagnosis of CTE in 2015, such
that his claim may have accrued at an earlier date. Specifically,
the Amended Complaint alleges that “by 2008, Mr. LoGrasso was
showing symptoms of neurological injury in the form of residual,
pounding headaches.” [SAC ¶ 140]. Further, LoGrasso alleges that
“[i]n 2009 and 2010 [LoGrasso’s] headaches continued to worsen
and become more frequent.” [SAC ¶ 141]. Apparently in either
2009 or 2010, Mr. LoGrasso “was diagnosed with TMJ of the jaw
and was disabled near deaf in one ear and mostly deaf in the
other.” [Id.]. These admissions raise the question whether
LoGrasso, by admitting that he began experiencing residual
headaches well after he retired in 2008 which worsened in 2009
and 2010, has essentially admitted that he discovered or should
have discovered “some injury” that is the basis for his present
claim.
LoGrasso, for his part, contends that, although he began
experiencing neurological symptoms in 2008, he was unaware that
his symptoms were connected to the head trauma he received
while wrestling with the WWE until his diagnosis 2014. [Pls.’ Rep.
Mem. at 8-9]. Yet the allegation that LoGrasso did not know of a
connection between his headaches and head trauma sustained
during wrestling activity, accepted as true for the purposes of this
motion, nonetheless pushes the boundary between possible and
plausible. Plaintiffs will carry a heavy burden to convince any
reasonable trier of fact that LoGrasso, one year after retiring from

App. 138
Plaintiffs may have discovered “some injury,” but not
“actionable harm” because of their inability to tie head
trauma that they knew they were sustaining to another
party’s breach of a duty to disclose increased risks for
latent, permanent neurological conditions. See
Lagassey, 846 A.2d at 846-47; Slekis, 56 F. Supp. 2d. at
206.
The Court notes that the WWE has not argued in
the instant motions to dismiss that the Pre-2012
Plaintiffs should have reasonably become aware of
their causes of action on the basis of widely-publicized
studies, lawsuits and settlements linking CTE and
other disorders with professional athletes in other
sports in recent years. The Court is skeptical, however,
of the inherent contradiction which underlies plaintiffs’
fraud claims. Plaintiffs simultaneously argue on the
one hand that studies and data linking MTBIs with
permanent degenerative neurological conditions were
both widespread and widely-publicized, and on the
other hand that Plaintiffs had no knowledge of any of
this widely-publicized information and instead relied,
to their detriment, on a television entertainment
company to explain to them the dangers of

wrestling in 2007, could not pinpoint the source of his headaches,
deafness, and TMJ.
WWE did not address this issue in briefing, perhaps because
further factual development is necessary to determine whether
LoGrasso – or any of the other Pre-2012 Plaintiffs – discovered
some form of permanent neurological disorder prior to 2014 or
2015, even if not its “full manifestation.” WWE relied upon the sole
argument that LoGrasso knew he suffered concussions while
wrestling, and therefore discovered “some form” of his latent
neurological condition.

App. 139
volunteering, for compensation, to be hit in the head
repeatedly with a metal folding chair.6
Nonetheless, because LoGrasso’s claim crosses a
minimum threshold of plausibility, and because WWE
did not argue the point in support of its Motion, further
factual development is needed to determine whether
any of the Pre-2012 Plaintiffs discovered, or should
have discovered actionable harm in the form of an
increased risk for latent, permanent degenerative
neurological conditions prior to 2013. WWE’s Motions
are DENIED to the extent they argue that these
plaintiffs negligence claims are time-barred by the
operation of the statute of limitations in Conn. Gen.
Stat. § 52-584.
b. Application of Connecticut’s
Statute of Repose
Even if plaintiffs did not discover actionable harm
at the time they wrestled for WWE, such that their
claims are not barred by the statutes of limitations,
their claims may still be barred by the Connecticut
statutes of repose.
Specifically, Section 52-584 bars a plaintiff from
bringing a negligence claim “more than three years
from the date of the act or omission complained of.”
Conn. Gen. Stat. § 52-584 (West). “[T]he relevant date
6

The Court also notes that the term “punch-drunk” has been
common parlance for decades and certainly well before Plaintiffs
began wrestling for WWE. And in 1984, three years before Plaintiff
Haynes began wrestling for WWE, the boxer Muhammad Ali was
famously diagnosed with early-onset Parkinson’s disease incident
to the head trauma he sustained while boxing.

App. 140
of the act or omission complained of, as that phrase is
used in § 52–584, is the date when the negligent
conduct of the defendant occurs and ... not the date
when the plaintiff first sustains damage . . . .”
Martinelli v. Fusi, 963 A.2d 640, 644 (Conn. 2009).
Therefore, any action commenced more than three
years from the date of the negligent act or omission is
barred by Sec. 52-584, “regardless of whether the
plaintiff could not reasonably have discovered the
nature of the injuries within that time period.” Id.
(Internal quotation marks omitted).
Similarly, Sec. 52-577 allows a tort action to be
brought within three years “from the date of the act or
omission complained of.” Conn. Gen. Stat. § 52-577
(West). And, as with Sec. 52-584, operation of Sec. 52577 cannot be delayed until the cause of action has
accrued, “which may on occasion bar an action even
before the cause of action accrues.” Prokolkin v. Gen.
Motors Corp., 365 A.2d 1180, 1184 (Conn. 1976). Thus,
even if the Pre-2012 Plaintiffs did not discover the
actionable harm alleged until more recently, their
claims may still be barred by the operation of the two
statutes of repose.
Nonetheless, the Connecticut Supreme Court has
recognized that Sec. 52–584 “may be tolled under the
continuing course of conduct doctrine.” Neuhaus, 905
A.2d at 1143. In addition, Conn. Gen. Stat. § 52-595
tolls any statute of limitations or repose, including Sec.
52-584 and Sec. 52-577, if a defendant fraudulently
conceals a cause of action from a plaintiff. See Connell
v. Colwell, 571 A.2d 116, 118 (Conn. 1990) (concluding
that “the exception contained in § 52–595 constitutes a

App. 141
clear and unambiguous general exception to any
Connecticut statute of limitations that does not
specifically preclude its application.”).
WWE argues that “the latest date on which WWE
conceivably could have committed any ‘act or omission’”
with regard to any plaintiff would have been the last
day of their employment with WWE. For each the Pre2012 Plaintiffs, this would have been far more than
three years prior to the filing of the instant lawsuits,
meaning that each of the claims would be reposed.7
The Pre-2012 Plaintiffs appear to concede that the
acts or omissions that form the bases of their suits
occurred more than three years prior to the filing of
their suits, and instead argue solely that their claims
are nonetheless timely because the allegations are
sufficient to show that WWE fraudulently concealed
their cause of action and/or engaged in a continuous
course of conduct that justifies tolling the statutes of
repose.
c.

The Statute of Repose May Be
Tolled by the Continuing Course
of Conduct Doctrine

Under appropriate circumstances, the Connecticut
statutes of repose may be tolled under the continuing
course of conduct doctrine. Blanchette v. Barrett, 640
A.2d 74, 83 (Conn. 1994). The plaintiff must show the
defendant: “(1) committed an initial wrong upon the

7

Plaintiff LoGrasso, for example, has not contested the WWE’s
assertion that the date of the wrongful acts or omissions he
complains of last occurred on or before December 31, 2007.

App. 142
plaintiff; (2) owed a continuing duty to the plaintiff that
was related to the original wrong; and (3) continually
breached that duty.” Witt v. St. Vincent’s Medical
Center, 746 A.2d 753, 762 (Conn. 2000).
Where Connecticut courts have found a duty
“continued to exist after the act or omission relied
upon: there has been evidence of either a special
relationship between the parties giving rise to such a
continuing duty or some later wrongful conduct of a
defendant related to the prior act.” Macellaio v.
Newington Police Dep’t, 75 A.3d 78, 85 (Conn. App.
2013). The existence of a special relationship “will
depend on the circumstances that exist between the
parties and the nature of the claim at issue.” Saint
Bernard School of Montville, Inc. v. Bank of America,
95 A.3d 1063, 1077 (Conn. 2014). Connecticut courts
examine each unique situation “in which there is a
justifiable trust confided on one side and a resulting
superiority and influence on the other.” Alaimo v.
Royer, 448 A.2d 207, 209 (Conn. 1982). Specifically, a
“‘special relationship’ is one that is built upon a
fiduciary or otherwise confidential foundation
characterized by a unique degree of trust and
confidence between the parties, one of whom has
superior knowledge, skill or expertise and is under a
duty to represent the interests of the other.” Saint
Bernard School of Montville, 95 A.3d at 1077.
However, “a mere contractual relationship does not
create a fiduciary or confidential relationship,” id. at
835-36, and employers do necessarily not owe a
fiduciary duty to their employees. Grappo v. Atitalia
Linee Aeree Italiane, S.P.A., 56 F.3d 427, 432 (2d Cir.

App. 143
1995); Bill v. Emhart Corp., No. CV 940538151, 1996
WL 636451, at *3-4 (Conn. Super. Ct. Oct. 24, 1996).
The law will imply [fiduciary responsibilities] only
where one party to a relationship is unable to fully
protect its interests [or where one party has a high
degree of control over the property or subject matter of
another] and the unprotected party has placed its trust
and confidence in the other.” Hi-Ho Tower, Inc. v. ComTronics, Inc., 761 A.2d 1268, 1279-80 (Conn. 2000).
The Pre-2012 Plaintiffs allege that WWE assumed
a continuing duty by virtue of its “ongoing relationships
with Plaintiffs through its Wellness Program,” and “its
public statements . . . which Plaintiffs continued to rely
on to their detriment by failing to seek and receive
necessary medical treatment.” [Pls.’ Opp. Mem. at 14].
The WWE strenuously argues that under
Connecticut law, a continuing duty owed by a
defendant must “rest on the factual bedrock of actual
knowledge,” Neuhaus, 905 A.2d at 1143, and stresses
that none of the Pre-2012 Plaintiffs alleges that they
ever informed the WWE that they were experiencing
concussion-like symptoms. In Neuhaus, the defendant
hospital failed to warn the plaintiff of the risks –
including brain damage – associated with her child’s
respiratory condition upon the plaintiff’s discharge. Id.
at 196. One of the defendant’s doctors had assessed the
child’s risk factors for complications and determined
the child was not at risk of permanent injury. Id. The
Connecticut Supreme Court held that because there
was no evidence that the doctor was ever confronted
with actual knowledge that the child’s treatment at the
hospital “had been mishandled” or became “aware that

App. 144
his original assessment . . . may have been incorrect,”
the hospital did not have a continuing duty to warn the
plaintiff regarding the risks associated with the
underlying condition. Id. at 204.
Ignoring the thrust of WWE’s argument, Plaintiffs
state that “[b]ecause WWE provided [them] with
medical care . . . it had a continuing duty to warn them
of the risks they faced . . . until disclosure resulting in
a complete diagnosis.” [Pls.’s Mem. at 17]. In support,
Plaintiffs cite to the case of Witt v. St. Vincent’s Med.
Ctr., 746 A.2d 753 (Conn. 2000), in which the defendant
doctor made a diagnosis while expressing concern that
his diagnosis may have been incorrect; and later wrote
another note expressing concern that the plaintiff could
develop cancer. However, the issue in Witt, as later
clarified by the Connecticut Supreme Court in
Neuhaus, was the defendant’s “initial and continuing
concern” that had “never been eliminated” which
“triggered his duty to disclose.” 905 A.2d at 1144. Thus,
Witt as clarified by Neuhaus stands for the proposition
that a continuing duty arises when the medical care
provider has reason to suspect that further treatment
is needed at the time of treatment; and not for the
proposition that once treatment is provided a medical
care provider has a duty to advise a patient in
perpetuity about medical discoveries, risks and
treatment for any possible condition that a patient
might reasonably develop.
WWE argues that the court in Neuhaus rejected the
“expansive type of duty urged here . . . to warn of all
potential risks associated with head injuries,” and that
the court in Neuhaus declined to hold that the hospital

App. 145
had a continuing duty to warn of “the universe of
potential risks associated with respiratory distress
syndrome.” [Dkt. 95-1, Def.’s Mem. at 41]. The WWE
further argues that none of the Pre-2012 Plaintiffs
have pled any specific wrongful diagnosis or wrongful
treatment of any specific injury on the part of a WWEaffiliated medical provider.
However, it is at least plausibly alleged8 under
Neuhaus that WWE may have had both the requisite
initial and continuing concern about the long-term
health of its wrestlers such that it owed a continuing
duty to warn those wrestlers about the long-term risks
of head trauma sustained in the ring even after they
had retired. As to an initial concern, it is at least
plausibly alleged that WWE knew as early as 2005
about research linking repeated brain trauma with
permanent degenerative disorders and that such brain
trauma and such permanent conditions could result
from wrestling. For example, the WWE is alleged to
have created its Wellness Program in 2006 on the
advice of its attorney after the deaths of several former
8

The Court notes that Neuhaus and each of the other Connecticut
cases rejecting a plaintiff’s claim of a continuing duty on the part
of a medical provider or practice have occurred at the summary
judgment stage, after factual development shed light on whether
an initial and continuing concern existed. See Martinelli, 290
Conn. at 347-355 (no issue of material fact as to whether the
defendant had a subjective concern or awareness that the
plaintiff’s condition, required further treatment or warning);
Neuhaus, 280 Conn. at 190 (same); Witt, 252 Conn. at 370
(material issue of fact as to whether the defendant physician had
an initial and ongoing concern about the plaintiff); Bednarz v. Eye
Physicians of Cent. Connecticut, P.C., 287 Conn. 158, 947 A.2d 291
(2008)(same).

App. 146
wrestlers from drug and alcohol abuse. WWE’s
attorney is alleged to have recommended to head this
Program Doctor Maroon, a noted neurosurgeon and
head injury specialist for the NFL, who, together with
a colleague, invented the ImPACT concussion test.
[SAC ¶ 76, n. 26]. This fact alone, indeed to WWE’s
credit, plausibly suggests WWE had knowledge causing
it to have an early and strong concerns about the
health effects of wrestling and the long-term
neurological health of WWE wrestlers.
Plaintiffs also plausibly allege that these concerns
continued even after plaintiffs retired from wrestling.
For example, LoGrasso alleges that he has received,
during his retirement, “pamphlets and emails from the
Wellness Program regarding the health and safety of
retired wrestlers.” [Id. ¶ 148]. The Wellness Program is
also alleged to have reached out to former wrestlers “to
offer support for drug and alcohol abuse.” [Id. ¶ 80].
Finally, WWE is alleged to have issued a statement in
response to a 2009 ESPN article downplaying the
likelihood that a deceased former wrestler suffered
from CTE. [Id. ¶ 69]. Such allegations of ongoing
contact may be threadbare, but it cannot be determined
from the face of the Complaints that WWE did not
exhibit an ongoing concern about the health of its
former wrestlers.
Furthermore, the key issue here is whether it can
be determined from the face of the Complaints that
WWE’s initial concern about permanent neurological
disorders had ever “been eliminated.” Witt, 280 Conn.
at 206 (emphasis added). For example, in Sherwood v.
Danbury Hosp., 746 A.2d 730, 733 (Conn. 2000)

App. 147
(Sherwood I), a plaintiff in 1985 had received a
transfusion of blood that she alleged had been
knowingly administered despite having not been tested
for the presence of HIV, even though tested blood was
available. Id. The patient had no further contact or
treatment with the hospital where the transfusion was
performed whatsoever until her discovery that she had
contracted the HIV virus in 1994. Id. Noting that the
plaintiff’s expert had testified that in 1987, “the Center
for Disease Control ... issued a recommendation that
recipients of multiple transfusions between 1978 and
late spring of 1985 be advised that they were at risk for
... HIV ... infection and [be] offered HIV antibody
testing,” and that another hospital had done so for
approximately 17,000 former patients, the court found
that there was a material issue of fact as to whether
the hospital owed a continuing duty to warn the
plaintiff, and remanded the case. Id. at 740. Only after
factual development revealed that the hospital did not
knowingly administer untested blood did the
Connecticut Supreme Court later hold that there was
no continuing duty to warn the plaintiff of the risks
associated with her blood transfusion. Sherwood v.
Danbury Hosp., 896 A.2d 777, 797 (Conn. 2006)
(Sherwood II).9 At the very least, further factual
development is necessary to determine the scope of any

9

Although the WWE may be an entertainment company and not
exclusively a medical provider, the existence of the Wellness
Program and its employment of knowledgeable doctors, including
experts in head trauma such as Dr. Maroon, suggests that cases
such as Neuhaus and Sherwood are at least somewhat analogous
to the case at bar.

App. 148
initial and ongoing concern by WWE about head
injuries in its wrestling programs.
The WWE also argues that an ordinary contractual
relationship, such as that between an employer and an
employee or independent contractor, does not ipso facto
create a “special relationship” giving rise to a
continuing duty. See AT Engine Controls, Ltd. v.
Goodrich Pump & Engine Control Sys., Inc., No. 3:10cv-01539 (JAM), 2014 WL 7270160 (D. Conn. Dec. 18,
2014). WWE argues that plaintiffs’ allegations that
WWE possessed specialized knowledge or skill with
respect to head trauma are “conclusory” and that it
would be improper to impose upon “WWE, an
entertainment company, a legal obligation to
continually update former performers of developments
in medical science regarding potential risks of head
trauma.” [Def.’s Rep. Mem. at 10].
Plaintiffs note WWE’s expansive role in monitoring
the safety of wrestling and the welfare of its wrestlers.
They allege that “WWE trained its wrestlers,
choreographed their performances, and employed
medical staff to monitor its wrestlers’ health.” [Pls.’
Opp. Mem. at 29]. Specifically, the WWE is alleged to
have designed and scripted the specific stunts
performed by the wrestlers, and to have publicly
advised that the activities were safe. [SAC ¶¶ 23, 61].
Plaintiffs alleged that WWE regularly collected and
continues to collect wrestler injury reports, including
during Plaintiffs’ careers with WWE. [Id. ¶ 86].
Plaintiffs allege that the WWE took on a greater role as
a caretaker for its active wrestlers after its creation of
the Wellness Program in 2007. The WWE is alleged to

App. 149
have publicly stated the intent of the Wellness
Program to monitor active wrestlers for concussions,
including providing concussion testing, and to have
boasted that the program is the “finest monitoring
program in American Sports.” [Id. ¶ 82]. Although the
Wellness Program is not alleged to have taken any
active role in monitoring retired wrestlers, the
program’s doctors are alleged to have been
knowledgeable with regard to the latest scientific
studies concerning CTE and other permanent
degenerative disorders, including the head of the
program, Dr. Maroon, who is alleged to have been a
critic of certain studies and findings regarding CTE.
[Id. ¶ 76]. These allegations, if true, would suggest that
a special relationship could have existed between
plaintiffs and WWE, one “characterized by a unique
degree of trust and confidence between the parties” and
by WWE’s “superior knowledge, skill or expertise”
regarding the prevention and diagnosis of traumatic
brain injuries.
Even if WWE did not have a “special relationship”
with its wrestlers that continued past their retirement,
the plaintiffs here have alleged later wrongful conduct
that could relate back to the initial wrong for the
purpose of tolling the statutes of repose. For example,
the Wellness Program is alleged to have contacted
former wrestlers about drug and alcohol abuse, but not
about the long-term effects of head trauma sustained
while wrestling or the need for testing for neurological
disorders. [Id. ¶ 80]. The WWE is alleged to have
discredited or disparaged research surrounding CTE or
the possibility that former wrestlers could have been
diagnosed with CTE. [Id. ¶¶ 68-73]. WWE adamantly

App. 150
disputes many of these allegations and argues
plaintiffs have selectively edited quotes to fabricate
such claims. Nonetheless, accepted as true for the
purposes of these Motions to Dismiss, such allegations
suggest that WWE may have committed later wrongful
conduct related to the initial wrongs. Once again,
further factual development is necessary to determine
whether a special relationship existed by virtue of
WWE’s superior knowledge, and whether that
relationship extended beyond the time period of the
wrestlers’ employment with WWE.10
The Court finds that the complaints plausibly allege
the existence of a continuing course of conduct that
may toll the statutes of repose on the basis of an initial
concern about possible long-term effects of head
injuries sustained while wrestling that was ongoing
and never eliminated. The Court also finds the possible
existence of a special relationship based on the
complaints’ allegations of WWE’s superior knowledge
as well as later wrongful conduct related to the initial
failure to disclose. Thus, the statutes of repose may
tolled by virtue of a continuing duty.

10

The WWE also argues that “LoGrasso’s admission that he had
discovered some form of harm during his tenure with WWE also
precludes him from invoking the continuing course of conduct
doctrine.” [Def.’s Rep. Mem. at n. 7]; see Rosato v. Mascardo, 82
Conn. App. 396, 405 (2004) (“the continuing course of conduct
doctrine has no application after the plaintiff has discovered the
harm”). However, as the Court earlier held at Part III.a, supra, it
cannot be determined from the face of the complaint that any
plaintiff discovered the harm – in the form of an increased risk of
permanent degenerative neurological conditions or actual
diagnoses of such conditions prior to 2012.

App. 151
d. The Statutes of Repose May Be
Tolled Because of Fraudulent
Concealment
Connecticut has codified the doctrine of fraudulent
concealment in Conn. Gen. Stat. § 52–595 (“Section 52595”), which provides: “[i]f any person, liable to an
action by another, fraudulently conceals from him the
existence of the cause of such action, such cause of
action shall be deemed to accrue against such person so
liable therefor at the time when the person entitled to
sue thereon first discovers its existence.” In order to
rely on Section 52-595 to toll the statutes of limitations
and repose, a plaintiff must demonstrate that “the
defendant: (1) had actual awareness, rather than
imputed knowledge, of the facts necessary to establish
the cause of action, (2) intentionally concealed those
facts from the plaintiff and (3) concealed those facts for
the purpose of obtaining delay on the part of the
plaintiff in filing a cause of action against the
defendant.” Falls Church Grp., Ltd. v. Tyler, Cooper &
Alcorn, LLP, 281 Conn. 84, 105, 912 A.2d 1019, 1033
(2007).
Fraudulent concealment under Section 52-595 must
be pled with sufficient particularity to satisfy the
requirements Fed. R. Civ. P. 9(b) with regard to fraud
claims, because a claim that the statute of limitations
should be tolled because of fraud, is “obviously, a claim
for fraud.” In re Publ’n Paper Antitrust Litig., No.
304MD1631SRU, 2005 WL 2175139, at *5 (D. Conn.
Sept. 7, 2005). In addition, a plaintiff must show that
due diligence “did not lead, and could not have led, to
discovery” of the cause of action. Martinelli v.

App. 152
Bridgeport Roman Catholic Dioceses, 196 F.3d 409, 427
(2nd Cir.1999). “Typically, a plaintiff will prove
reasonable diligence either by showing that: (a) the
circumstances were such that a reasonable person
would not have thought to investigate, or (b) the
plaintiff’s attempted investigation was thwarted.” OBG
Technical Services, Inc. v. Northrop Grumman Space &
Mission Systems Corp., 503 F.Sup.2d 490 (D. Conn.
2007) (Internal quotation marks omitted).
The WWE argues that “[t]here is no concealment of
a cause of action unless the defendant makes an
affirmative act or statement concealing the cause of
action.” [Def.’s Rep. Mem. at 12, citing Johnson v.
Wadia, No. CV85 0075560 S, 1991 WL 50291 (Conn.
Super. Mar. 28, 1991)]. On the contrary, the
Connecticut Supreme Court specifically noted in Falls
Church Group that it had not determined “whether
affirmative acts of concealment are always necessary to
satisfy the requirements of § 52–595.” The court
further held that mere nondisclosure may be sufficient
“when the defendant has a fiduciary duty to disclose
material facts.” Id. at 107
Plaintiffs’ allegations that WWE failed to disclose
and concealed information repeated a link between
repeated concussive trauma and permanent
degenerative neurological conditions may implicate the
tolling provision of Sec. 52-595. As the Court noted
above, it is at least plausibly alleged that WWE had
actual knowledge about research linking repeated
brain trauma with permanent degenerative disorders

App. 153
and that such brain trauma and such permanent
conditions could result from wrestling and that the
WWE.
The complaints also allege various public comments
made by WWE officials and doctors that could form the
basis of affirmative acts of concealment, even if no
fiduciary relationship existed between the WWE and
its wrestlers, as well as an intent to conceal. For
example, WWE is alleged to have issued a statement to
ESPN questioning the veracity of a report suggesting
a former wrestler, Chris Benoit, suffered from CTE.
WWE is alleged to have stated that it was “unaware of
the veracity of any of these tests . . . Dr. Omalu claims
that Mr. Benoit had a brain that resembled an 85yearold with Alzheimer’s, which would lead one to ponder
how Mr. Benoit would have found his way to an
airport, let alone been able to remember all the moves
and information that is required to perform in the ring
. . . .” [SAC ¶ 70]. The complaints allege that WWE
CEO Vincent K. McMahon and former WWE CEO
Linda McMahon further attacked those findings in a
joint interview on CNN in 2007. [SAC ¶ 74]. Although
WWE disputes the truthfulness, meaning and import
of such statements and argues that several have been
largely taken out of context, at this stage of the
litigation plaintiffs’ theory that WWE affirmatively
concealed its knowledge of CTE-related risks is
plausible.
Similarly, in the NHL case, Judge Nelson noted the
NHL’s alleged response to questions surrounding
concussions in professional hockey that the league
needed “more data, more research, we cannot say

App. 154
anything conclusive.” 2008 WL 4307568 at *13. NHL
Commissioner Bettman was alleged to have said of
fighting that “[m]aybe it is [dangerous] and maybe it’s
not.” Id. at *10. Deputy NHL Commissioner Daly was
alleged to have publicly stated that “[The NHL is]
completely satisfied with the responsible manner in
which the league and the players’ association have
managed player safety over time, including with
respect to head injuries and concussions . . . .” Id. at
*12. These and other statements were found to have
adequately alleged equitable tolling under the doctrine
of fraudulent concealment.
It can also be inferred from the facts pled that WWE
had knowledge of plaintiffs’ cause of action and that
any concealment was for the specific purpose of
delaying any litigation. Plaintiffs have alleged, for
example, that the Wellness Program was created for
WWE by an attorney in response to the death of a
former wrestler and appears to have immediately
embraced a critic of some aspects of recent CTE
studies. As noted earlier, the WWE and its executives
also made statements questioning one doctor’s
conclusion that a deceased former wrestler likely
suffered from CTE. These facts, assumed to be true for
the purposes of this motion, are sufficient to plausibly
allege intent on the part of the WWE to conceal a cause
of action for the purpose of obtaining delay. See, e.g.,
Puro v. Henry, 449 A.2d 176, 180 (Conn. 1982)
(fraudulent concealment may be inferred by a
reasonable trier of fact from the balance of the
evidence, even if only by circumstantial evidence).

App. 155
3. Plaintiffs Fail to State A Claim for
Negligence Under Connecticut Law
WWE argues that plaintiffs’ negligence claims fail
to state a claim, as the only duty WWE argues that it
owed to plaintiffs under Connecticut law was a duty “to
refrain from reckless or intentional misconduct.” [Def.’s
Mem. at 32].
“The determination of whether a duty exists
between individuals is a question of law.” Jaworski v.
Kiernan, 696 A.2d 332, 335 (Conn. 1997). The Court
must consider “whether the specific harm alleged by
the plaintiff was foreseeable to the defendant.” Id. at
336. In other words, “whether an ordinary person in
the defendant’s position, knowing what the defendant
knew or should have known, would anticipate that
harm of the general nature of that suffered was likely
to result.” Id. The Court must then “determine as a
matter of policy the extent of the legal duty to be
imposed upon the defendant.” Id.
Plaintiff in Jaworski suffered a knee injured in a coed soccer game by incidental contact – a trip from
behind by the defendant, who was another soccer
player – which was not an essential part of the sport.
Although the injury was a foreseeable consequence of
the defendant’s actions, the Connecticut Supreme
Court held that “the normal expectations of
participants in contact team sports include the
potential for injuries resulting from conduct that
violates the rules of the sport.” Id. at 337. These
expectations, in turn, “inform the question of the extent
of the duty owed by one participant to another.” Id.
Considering the prospect for a flood of litigation and

App. 156
the public policy goal of encouraging athletic
competition, the court found that “[a] proper balance of
the relevant public policy considerations surrounding
sports injuries arising from team contact sports also
supports limiting the defendant’s responsibility for
injuries to other participants to injuries resulting from
reckless or intentional conduct.” Id.
Citing Jaworski, WWE argues that all of plaintiffs’
negligence claims “fail under the contact sports
exception” embodied in “the Jaworski rule” because
“negligence concepts do not apply in sporting-type
situations.” [Def.’s Mem. at 31]. WWE argues that in
Mercier v. Greenwich Acad., No. 3:13-CV-4 (JCH), 2013
WL 3874511 (D. Conn. July 25, 2013), Judge Hall cited
Jaworski in holding that a school could not be held
liable for the actions of its basketball coach in failing to
rest and properly asses the plaintiff, who had sustained
a concussion from another player during a basketball
game. Again noting a concern for a possible flood of
litigation, Judge Hall held that “[c]oaches are often
required to make split-second decisions during a game
. . . holding coaches liable for negligence for such
decisions, including player substitution decisions,
would dampen their willingness to coach aggressively
and would unreasonably threaten to chill competitive
play.” Id. at *4 (internal quotations omitted); see also
Trujillo v. Yeager, 642 F. Supp. 2d 86 (D. Conn. 2009)
(applying Jaworski to a co-participant’s coach and that
coach’s employer).
It is clear from these cases that the “Jaworski rule”
has established a limited exception to liability for
general negligence in the “contact team sports” setting

App. 157
by limiting the extent of the duty owed by a coach in
the midst of a game and the duty “owed by one
participant to another.” Jaworski, 696 A.2d 337
(emphasis added). In the instant case, however, the
defendant is not a co-participant and the injury alleged
did not result from participation in a contact team
sport.
WWE nonetheless argues that Jaworski should be
extended to include the facts and circumstances of the
instant case, arguing that “plaintiffs’ alleged injuries
“arise from risks inherent in their chosen profession
which are within the normal expectations of
professional wrestlers.” [Def.’s Rep. Mem. at 2]. WWE
argues that cases in other jurisdictions have further
narrowed the scope of liability where “professional
athletes take risks for compensation and when contact
is a known and purposeful part of the activity.” [Def.’s
Mem. at 32]. WWE cites to Turcotte v. Fell, 502 N.E. 2d
964 (N.Y. 1986), in which the New York Court of
Appeals granted summary judgment in favor of a
defendant racetrack owner accused of negligently
watering a portion of a racetrack, as well as a coparticipant jockey accused of “foul riding” leading to
the plaintiff jockey’s injury. The court held that the
plaintiff assumed the risk of falling from his horse, an
injury well within the “known, apparent and forseeable
dangers of the sport.” Id. at 970. Similarly, in Karas v.
Strevell, 884 N.E. 2d 122 (III. 2008), plaintiff sued both
co-participant hockey players who had caused his
injury by illegally “bodychecking” him from behind as
well as the hockey league that organized the match, for
failing to appropriately enforce rules against such
conduct. The Illinois Supreme Court held that the

App. 158
league could not be held liable for inadequate rule
enforcement, as “rules violations are inevitable in
contact sports and are generally considered an inherent
risk of playing the game.” Id. at 137.
Similarly, in the instant case, Plaintiffs broadly
allege negligence on the part of the WWE in failing to
“exercise reasonable care in training, techniques . . .
and diagnosing of injuries such as concussions and subconcussions.” [SAC ¶ 249]. Each of the named plaintiffs
allege only one specific incident of negligent conduct in
the Complaints, despite the length of all of the
Complaints. Each of the wrestlers alleges a similar
incident – they sustained head trauma due to a blow
from another wrestler or object and WWE failed to
either intervene or diagnose them with concussions
following the incident.11 Taking one example, Plaintiff
11

Plaintiff LoGrasso alleges that WWE scripted a program
involving LoGrasso and another wrestler named “Regal” and that
LoGrasso “was forced to endure and be beaten repeatedly and
suffer sustained head trauma” which caused LoGrasso to “have his
‘bell rung’ every match.” [SAC ¶ 133]. On an unspecified date in
September of 2006, LoGrasso alleges that Regal kicked him in the
face causing him to strike his head against concrete steps,
resulting in unspecified head trauma. [SAC ¶ 134]. Plaintiff Matt
Weise alleges that he “was punched so hard in the head by Big
Show, another WWE wrestler that he had visible injuries to his
head and he vomited following the event. WWE staff took no steps
to intervene in the event and WWE medical staff did nothing to
treat Matt Wiese following the incident.” [MAC ¶ 110]. Plaintiff
Ryan Sakoda alleges that “[w]hile wrestling for the WWE in 2003,
[Sakoda] was knocked unconscious in a match by a Super Kick.
The course of treatment recommended to Ryan by the WWE
medical staff and trainer was “not to go to sleep,” suggesting that
if he did, he may bleed to death and die. He stayed awake that
night.” [MAC ¶ 106]. Plaintiff Russ McCullough alleges that he

App. 159
Singleton alleges an incident on September 27, 2012 in
which he was “choke slammed” by another wrestler
named Erick Rowan, whom Singleton described as a
“more skilled, more experienced” wrestler. [SAC ¶ 100].
Singleton alleges he had only performed a “choke slam”
once before that date even though it is “considered by
wrestlers themselves to be one of the more dangerous
moves.” [SAC ¶ 102]. Singleton alleges that he
“sustained a brain injury as a result.” [SAC ¶ 103].
Singleton also alleges that WWE failed to treat him for
a concussion after the incident. [Id. ¶¶ 104,134-135].
Tellingly, however, none of the six named plaintiffs
alleges that they approached any WWE employee after
any of the six listed incidents to report head trauma or
any symptom of head trauma such as dizziness, and
only two of the six plaintiffs specifically allege that
they sustained a concussion from the incidents in
question.
The Court agrees with WWE that under the contact
sports exception they could only be held liable for
reckless and intentional conduct, and not ordinary
negligence. Plaintiffs were professional wrestlers who
were financially compensated to engage in an activity

“was knocked completely unconscious after being struck by the
back of a metal chair in Cincinnati. After he was knocked
unconscious the beating continued and he was struck in the head
with a metal chair more than 15 times without intervention by
WWE staff. McCullough sought medical treatment on his own and
the head injury was diagnosed as a severe concussion.” [MAC
¶ 100]. Plaintiff William Albert Haynes III alleges that Haynes
alleges that on March 29, 1987, he was “hit in the head with a
large metal chain” which led to an unspecified “head injury” that
was not treated. [HAC ¶ 126].

App. 160
in which physical violence was a known and even
purposeful part of the activity. They were injured by
other participants in what the plaintiffs describe as a
“scripted” performance and thus in a manner that the
plaintiff knew or should have reasonably anticipated.
See Kent v. Pan Am. Ballroom, No. F038650, 2002 WL
31776394 (Cal. Ct. App. Dec. 10, 2002) (“[w]restling,
and particularly professional wrestling, entails
inherent risks of injury. It is a sport where two persons
grab, twist, throw or otherwise exert forces and holds
upon each other’s heads, necks, arms, legs, feet and
torsos with the object of forcing the opponent to the
mat.”); Walcott v. Lindenhurst Union Free School Dist.,
243 A.D.2d 558, 662 N.Y.S.2d 931, 121 Ed. Law Rep.
832 (2d Dep’t 1997)(high school wrestler assumed the
risk of injury resulting from “takedown maneuver” by
opponent as such a risk is inherent in wrestling). Or
they were injured in a manner that could be reasonably
anticipated by an ordinary person who volunteers to
“endure” an at least partially-simulated beating before
a television audience and hits his head outside the
ring. See, e.g., Foronda ex rel. Estate of Foronda v.
Hawaii Intern. Boxing Club, 96 Haw. 51, 25 P.3d 826
(Ct. App. 2001) (risk of boxer falling through the ropes
of a boxing ring is an inherent risk of the sport
assumed by any boxer). As such, their claims are well
within the type of claims for which Jaworski provides
an exception to the general duty of care.
Plaintiff LoGrasso also alleges that he “never
received any medical information regarding
concussions or sub-concussive injuries while employed
by the WWE, and that a WWE trainer named “Bill
Demott” (SAC ¶ 97), or alternatively, “Bill Dumott”

App. 161
(SAC ¶ 124), would “continuously permeate (sic) an
environment of humiliation and silence,” which led
WWE wrestlers “to fight through serious injury,” which
plaintiffs alleged that “upon information and belief has
led to Mr. LoGrasso’s long-term and latent injuries.”
[SAC ¶ 124]. Read liberally, plaintiffs allege that WWE
was negligent in failing to train and educate its
wrestlers about concussions and failed to encourage an
environment in which its wrestlers could seek
appropriate treatment. These are precisely the same
allegations, however, that a court in the Northern
District of California recently rejected in a concussion
case brought by seven youth soccer players. The soccer
players alleged that various soccer leagues, clubs and
associations had negligently failed to “to educate
players and their parents concerning symptoms that
may indicate a concussion has occurred,” among other
allegations. Mehr v. Fed’n Int’l de Football Ass’n, No.
14-cv-3879-PJH, 2015 WL 4366044 (N.D. Cal. July 16,
2015). In dismissing the negligence claim, the court
held that, the soccer plaintiffs “alleged no basis for
imputing to any defendant a legal duty to reduce the
reduce the risks inherent in the sport of soccer, or to
implement any of the “Consensus Statement”
guidelines or concussion management protocols, and
have alleged no facts showing that any defendant took
any action that increased the risks beyond those
inherent in the sport.” Id. at *19. The court noted that
under California law, “a failure to alleviate a risk
cannot be regarded as tantamount to increasing that
risk.” Id., citing Paz v. State of California, 22 Cal.4th
550, 560, 93 Cal.Rptr.2d 703, 994 P.2d 975 (2000).

App. 162
This Court is similarly convinced that plaintiffs
here have failed to allege specific facts – as opposed to
vague and conclusory accusations – that WWE acted
recklessly or intentionally under Jaworski with respect
to the risks that are inherent in compensated
professional stunt wrestling. As such, plaintiffs’
negligence claims fail to state a claim under
Connecticut law. Plaintiffs’ Negligence claims are
DISMISSED.
4. No Separate Cause of Action for
Fraudulent Concealment
WWE argues for dismissal of plaintiffs’ fraudulent
concealment counts on the grounds that fraudulent
concealment is not a separate cause of action under
Connecticut law. [Def.’s Mem. at 40]. WWE is correct
that fraudulent concealment is not a separate cause of
action. See AT Engine Controls Ltd. v. Goodrich Pump
& Engine Control Sys., Inc., No. 3:10-CV-01539 (JAM),
2014 WL 7270160, at *11, n. 17 (D. Conn. Dec. 18,
2014) (“Connecticut law does not even recognize any
affirmative cause of action for fraudulent
concealment”); Liebig v. Farley, No. CV085005405S,
2009 WL 6499423, at *3 (Conn. Super. Ct. Oct. 27,
2009) (“a claim of fraudulent concealment does not
constitute a separate, self-contained cause of action”).
Plaintiffs did not directly address this argument in
briefing, and so the claim may also be considered

App. 163
abandoned.12 Plaintiffs’ separately-titled causes of
action for fraudulent concealment are DISMISSED.
5. Plaintiffs’ Fraudulent Deceit and
Negligent Misrepresentation Claims
Are Not Pled With Sufficient
Particularity
To plead a claim for negligent misrepresentation
under Connecticut law, a plaintiff must allege (1) that
the defendant made a misrepresentation of fact;
(2) that the defendant knew or should have known was
false; (3) that the plaintiff reasonably relied upon the
misrepresentation; and (4) that the plaintiff suffered
pecuniary harm as a result thereof. Trefoil Park, LLC
v. Key Holdings, LLC, No. 3:14-CV-00364 (VLB), 2015
WL 1138542, at *12 (D. Conn. Mar. 13, 2015), citing
Glazer v. Dress Barn, Inc., 274 Conn. 33, 73, 873 A.2d
929, 954 (2005).
For a claim of common law fraud, a plaintiff must
allege “(1) that the representation was made as a
statement of fact; (2) that it was known to be untrue by
the party making it; (3) that it was made for the
purpose of inducing the other party to act upon it; and
(4) that the party to whom the representation was
made was in fact induced thereby to act to his injury.”
Leonard v. Comm’r of Revenue Servs., 264 Conn. 286,
296, 823 A.2d 1184, 1191 (2003). A key difference
between plaintiffs’ deceit and negligent
12

See, e.g., Paul v. Bank of Am., N.A., 3:11–CV–0081 (JCH), 2011
WL 5570789, at *2 (D.Conn. Nov.16, 2011) (“When a party ‘offer[s]
no response’ to its opponent’s motion to dismiss a claim, that claim
is abandoned”)

App. 164
misrepresentation claims is that whereas a defendant
may negligently misrepresent a fact that the defendant
should have known to be false, a deceitful
representation is one that the defendant must “know[]
to be untrue.” Id. at 1191; see also Sturm v. Harb Dev.,
LLC, 298 Conn. 124, 142, 2 A.3d 859, 872 (2010) (“[i]n
contrast to a negligent representation, [a] fraudulent
representation ... is one that is knowingly untrue, or
made without belief in its truth it.”).
The WWE argues that plaintiffs failed to plead their
fraud by omission, fraudulent deceit and negligent
misrepresentation claims with particularity, as is
required under Fed. R. Civ. P. 9(b).
In order to satisfy Rule 9(b)’s particularity
requirement with regard to fraud claims, the complaint
must: “(1) specify the statements that the plaintiff
contends were fraudulent, (2) identify the speaker,
(3) state where and when the statements were made,
and (4) explain why the statements were fraudulent.”
Parola v. Citibank (S. Dakota) N.A., 894 F. Supp. 2d
188, 200 (D. Conn. 2012) (VLB), citing Rombach v.
Chang, 355 F.3d 164, 170 (2d Cir. 2004). Put another
way, “Rule 9(b) particularity means the who, what,
when, where, and how: the first paragraph of any
newspaper story.” Walters v. Performant Recovery, Inc.,
No. 3:14-CV-01977 (VLB), 2015 WL 4999796, at *2 (D.
Conn. Aug. 21, 2015). The Complaints utterly fail to
satisfy this standard.
In addition, a plaintiff must “allege facts that give
rise to a strong inference of fraudulent intent.” Parola,
894 F. Supp. 2d at 200, citing Shields v. Citytrust
Bancorp., Inc., 25 F.3d 1124, 1128 (2d Cir.1994). “The

App. 165
‘strong inference of fraud’ may be established by either
alleging facts to show that a defendant had both motive
and opportunity to commit fraud, or facts that
constitute strong circumstantial evidence of conscious
misbehavior or recklessness.” Id. The requirements of
Rule 9(b) are also applicable to negligent
misrepresentation claims. Yurevich v. Sikorsky Aircraft
Div., United Techs. Corp., 51 F. Supp. 2d 144, 152 (D.
Conn. 1999); Pearsall Holdings, LP v. Mountain High
Funding, LLC, No. 3:13cv437 (JBA), 2014 WL 7270334,
at *3 (D. Conn. Dec. 18, 2014). The Complaint utterly
fail to satisfy this standard as well.
Plaintiffs’ 281-paragraph complaint is replete with
allegations that WWE has “repeatedly” misrepresented
material facts to the plaintiffs, often in the form of
statements that WWE “misrepresented, omitted, and
concealed” various short and long-term risks or possible
diagnoses regarding plaintiffs’ health, without actually
specifying whether such statements were affirmatively
misrepresented, or rather affirmatively concealed, or
simply omitted. But in regard to the fraud claims the
length of plaintiffs’ complaints is deceiving, as the
length belies an utter lack of substance.
In opposition to WWE’s motion to dismiss the
Singleton and LoGrasso complaint, plaintiffs could
manage to identify13 only three specific statements that
they allege to have been fraudulent:

13

In their opposition to WWE’s Motion to Dismiss the McCullough
complaint, plaintiffs did cite any specific statements and focused
almost exclusively on their fraudulent omission claims, essentially
conceding the argument.

App. 166
1. Vince K. McMahon told a congressional
committee that the WWE “is always concerned
about safety of our talent.” SAC ¶ 67.
2. Dr. Joseph Maroon’s statement to the NFL
Network, Total Access in March, 2015 that “the
problem of CTE, although real, is its being overexaggerated.” [SAC ¶ 55].
3. WWE Executive Stephanie McMahon Levesque’s
testimony in 2007 to the Committee on
Oversight and Government Reform of the U.S.
House of Representatives that there were “no
documented concussions in WWE‘s history.”
[SAC ¶ 64].
With regard to Vince K. McMahon’s statement that
the WWE is “always concerned” about its wrestlers’
safety, Plaintiffs did not provide any reason why the
statement was fraudulent or why McMahon knew or
should have known the statement to be false.
With regard to Dr. Maroon’s statement to NFL
Network, WWE argues that “expressing critical
opinions about scientific matters is simply not a
misrepresentation of a past or present material fact.”
[Def.’s Mem. at 40]; see, e.g., Trefoil Park, 2015 WL
1138542, at *8 (noting that Connecticut courts have
long excluded statements of opinion as being sufficient
to support fraud or negligent misrepresentation
claims). Plaintiffs have not addressed this argument
and again appear to have abandoned the claim. More
importantly, the complaints do not allege facts
indicating that at the time the statement was uttered,
Dr. Maroon knew or should have known that CTE was

App. 167
not “over-exaggerated,” or facts indicating that any
plaintiff relied upon the statement – particularly given
that the statement was made after the first complaint
in this action had already been filed.14
With regard to Stephanie McMahon Levesque’s
testimony, plaintiffs appear to have repeatedly
misrepresented both the substance and meaning of
Levesque’s testimony. Plaintiffs describe Levesque as
having testified that there were no “no documented
concussions in WWE’s history,” and provided a link to
the full transcript of the Congressional hearing at
which Levesque testified. On a motion to dismiss, the
Court may consider any document “attached to the
complaint or incorporated in it by reference” as such
documents “are deemed part of the pleading and may
be considered.” McClain v. Pfizer, Inc., No. 3:06-CV1795 (VLB), 2008 WL 681481, at *2 (D. Conn. Mar. 7,
2008), citing Roth v. Jennings, 489 F.3d 499, 509 (2d
Cir. 2007).
The full transcript provides:
(Buffone) Q: So, if I understand you correctly,
since the enactment of the wellness policy,
WWE has documented no concussions?
(Levesque) A: As far as I know, as far as I
was told –

14

Plaintiffs had presumably been informed about the nature and
extent of CTE – at the very least by the attorneys who drafted
their complaints – by March of 2015.

App. 168
(Buffone) Q: Yes.
(Levesque) A: -- no.
[Dkt. 74, Ex. A at 118]. Plaintiffs argue that this
statement was false because, at the time of the
statement, “WWE wrestlers likely had cumulatively
experienced hundreds—if not thousands—of
concussions.” [SAC ¶ 65]. However, Levesque was
asked only about documented instances of concussions,
and not whether any concussions had in fact occurred
– the allegation that concussions likely occurred does
not establish the statement about a lack of documented
concussions to be false. Moreover, Levesque was clearly
asked about documented instances of concussions
“since the enactment of the wellness policy” and not, as
the plaintiffs repeatedly and – at the very least,
misleadingly – asserted in their complaints, “in WWE’s
history.”
In fact, the one specific statement contained in the
complaints that comes closest to providing a basis for
a misrepresentation or deceit claim is one never
mentioned in plaintiffs’ briefing. The Complaints cite a
2009 ESPN article on the deaths of former WWE
wrestlers Chris Benoit and Andrew Martin. [SAC ¶ 69].
In the article, Dr. Bennett Omalu – credited with
discovery of CTE in NFL players – alleges that he
diagnosed Benoit and Martin with CTE after postmortem autopsies. WWE issued the following
statement quoted in the article:
“[w]hile this is a new emerging science, the
WWE is unaware of the veracity of any of these
tests, be it for [professional wrestlers] Chris

App. 169
Benoit or Andrew Martin. Dr. Omalu claims
that Mr. Benoit had a brain that resembled an
85year-old with Alzheimer’s, which would lead
one to ponder how Mr. Benoit would have found
his way to an airport, let alone been able to
remember all the moves and information that is
required to perform in the ring…WWE has been
asking to see the research and tests results in
the case of Mr. Benoit for years and has not been
supplied with them.” [SAC ¶ 69].
WWE’s statement mocks Dr. Omalu’s claim that
Benoit and Martin suffered from CTE by questioning
whether his behavior was consistent with CTE, but
does not state any material fact which plaintiffs allege
to be false. While one could accuse the WWE of having
made the statement perhaps with the intent of
downplaying a link between wrestling and CTE,
plaintiffs have not advanced an argument that any
aspect of the statement falsely claimed that Benoit and
Martin either did not suffer from CTE or that no link
existed between wrestling and CTE. Plaintiffs do claim
that “WWE’s request to examine the research and tests
was feigned,” but do not allege the statement to be false
or to be a statement upon which plaintiffs have
reasonably relied.
Fraudulent statements must be statements of fact
and therefore an expression of an opinion or skepticism
as to the truth of a matter asserted by another cannot
usually support a fraud claim. As the Connecticut
Appellate Court has stated: “[t]he essential elements of
a cause of action in fraud” include that “a false
representation was made as a statement of fact” and

App. 170
“the absence of any one” element “is fatal to a
recovery.” Citino v. Redevelopment Agency, 721 A.2d
1197 (Conn. App. 1998).
As plaintiffs have failed to plead specific facts
indicating that WWE made any specific statement that
it knew or should have known to be false at the time,
upon which plaintiffs reasonably relied, Plaintiffs’
Negligent Misrepresentation and Fraudulent Deceit
claims are DISMISSED.
6. Plaintiffs Singleton and LoGrasso
Have Alleged A Plausible Claim for
Fraud by Omission
In order to adequately plead a fraudulent nondisclosure claim, a party must allege: “the failure to
make a full and fair disclosure of known facts
connected with a matter about which a party has
assumed to speak, under circumstances in which there
was a duty to speak.” Reville v. Reville, 93 A.3d 1076,
1087 (Conn. 2014). A lack of full and fair disclosure of
such facts must be accompanied by an intent or
expectation that the other party will make or will
continue in a mistake, in order to induce that other
party to act to her detriment.” Id. (Internal quotation
marks omitted.) “The key element in a case of
fraudulent non-disclosure is that there must be
circumstances which impose a duty to speak.” Id.
In addition, in order to satisfy the requirements of
Rule 9(b) a plaintiff must “detail the omissions made,
state the person responsible for the failure to speak,
provide the context in which the omissions were made,
and explain how the omissions deceived the plaintiff.”

App. 171
Frulla v. CRA Holdings, Inc., 596 F. Supp. 2d 275, 288
(D. Conn. 2009) (JCH), citing Eternity Global Master
Fund Ltd. v. Morgan Guar. Trust Co. of N.Y., 375 F.3d
168, 187 (2d Cir. 2004).
The WWE argues that plaintiffs have failed to
“allege any fact known to WWE that it did not disclose
to either Plaintiff under circumstances which called for
the disclosure.” Rather, the WWE argues that plaintiffs
base their fraud charges “on not disclosing medical and
scientific opinions not specifically alleged to have even
been known by anybody at WWE, and which are not
facts in any event.” [Def.’s Mem. at 41].
Plaintiffs argue that their allegations are
substantially similar to those brought by the hockey
plaintiffs in the NHL case, where Judge Nelson held
that plaintiffs there had plead sufficient facts to for a
fraudulent omission claim to proceed against the NHL.
In examining whether plaintiffs had detailed the
“what” – the specific omissions made, the court noted
that plaintiffs had alleged:
5. “Although the NHL knew or should have known
. . . about this scientific evidence . . . the NHL never
told Plaintiffs about the dangers of repeated brain
trauma.”
134. “[T]he NHL never told its players that these
. . . studies demonstrate an increased risk for NHL
players . . . .”
143. “At no time, including during the seven year
Concussion Program and in the following seven year
silence before publishing the Program’s report, did
the NHL warn players that the data suggested at a

App. 172
minimum that greater attention to concussions and
head injuries was necessary, that it was possible
that playing in the same game, or soon after, a head
injury was potentially dangerous, or any other such
warning.”
Id. at *11. The Singleton and McCullough
complaints do allege similar allegations against the
WWE. Specifically, plaintiffs here allege that:
3. “WWE has known or should have known for
decades that repeated concussive and sub-concussive
impacts substantially increase the probability that
a wrestler will develop a permanent, degenerative
brain disease. . . .”
56. “. . . WWE was aware in 2005 and beyond that
wrestling for the WWE and suffering head trauma
would result in long-term injuries. And it therefore
should have, but never did, warn Plaintiffs of the
risks of concussions and other brain injuries
associated with wrestling with WWE.”
138. “Mr. LoGrasso was never educated about the
ramifications of head trauma and injury and the
likelihood of concussions and sub-concussions and
the resulting latent neurological injuries suffered
from sustaining concussions and sub-concussive
injuries.”
[SAC at ¶¶ 3, 138, 150 (emphasis added].
In the NHL case, the court also held that plaintiffs
had adequately pled the “who” aspect of their fraud
claim – the person(s) responsible for the omissions.
Specifically, the court noted plaintiffs’ allegations that:

App. 173
16. “Despite the mountain of evidence connecting
hockey to brain injuries, NHL Commissioner Gary
Bettman subsequently stated that more study on
the issue is necessary...”;
84. “At no time during his NHL career did any NHL
personnel advise these players, generally or
specifically, of the negative long-term effects of
sustaining concussions and sub-concussive blows to
the head, including the risks of repeat concussions
and sub-concussive blows....”;
122. “[Brian] Benson, with Jian Kang, ‘contributed
to the drafting of the [Concussion Program’s report]
manuscript.”;
127. “Hockey players, no differently from anyone
else, grow up believing that medical personnel, such
as League medical directors, supervisors, doctors
and trainers, put the patient-players’ interests first
and foremost. Cleared to play immediately after
getting knocked out[,] ... players believed they were,
in fact, ‘good to go’ and not doing any lasting harm
to themselves[.]”
2015 WL 1334027 at *12. Similarly, plaintiffs here
have alleged facts shedding light on both the “who” –
the specific person(s) allegedly responsible for the
omissions – and the “when” – the context of the
omissions. Specifically, plaintiffs here have alleged
that:
55. “ . . . WWE continues to understate the risks
and dangers of CTE, as evidenced by Dr. Joseph
Maroon’s statements to the NFL Network, Total

App. 174
Access in March 2015, ‘The problem of CTE,
although real, is its being over-exaggerated.’
73. “In a joint interview for the 2007 CNN
documentary Death Grip: Inside Pro Wrestling,
WWE CEO Vincent K. McMahon and former WWE
CEO Linda McMahon attacked Dr. Omalu and Dr.
Bailes’s finding that Benoit had suffered from CTE.
This was part of a larger plan to deny that Benoit
had suffered from CTE and to discredit the research
suggesting he had.”
125. “During his training and wrestling career with
WWE, Mr. LoGrasso was told by WWE employees
and at the time believed that injuries he suffered
were part of ‘paying his dues’, and believed that
having ‘your bells rung’, or receiving ‘black and
blues’ and bloody noses only resulted in the
immediate pain and injury with no long-term
ramifications or effects.”
[SAC at ¶¶ 55, 73, 125, 132 (emphasis added]. The
complaints also allege facts indicating the “how” – the
ways in which they were allegedly deceived by the
omissions.
132. “Mr. LoGrasso reasonably relied on the WWE’s
medical personnel, trainers, agents, and documents
when he continued to fight and receive sustained
head trauma repeatedly.
150. Plaintiffs reasonably acted on what WWE
omitted – that concussions and sub-concussive hits
are serious and result in permanent disability and
brain trauma, and that returning to wrestling
before being properly evaluated, treated and cleared

App. 175
to wrestle could result in enormous risks of
permanent damage, especially in returning to
wrestle immediately after taking brutal hits to the
head.
157. WWE’s conduct left [Singlton] without the
necessary knowledge to make informed decisions to
plan for his own future and his family and to
seek appropriate treatment for his latent
neurodegenerative condition during his life.
As to the existence of a duty to speak, the Court
determined in Part III.C above that it is plausible at
this stage of the litigation that defendant owed
plaintiffs a duty on the basis of a special relationship
that existed by virtue of WWE’s superior knowledge
and the expertise of its medical staff as well as a
general duty that may have arisen as a result of
WWE’s voluntarily undertaking to create the Wellness
Program, to provide concussion testing and to reach out
to current and former wrestlers about other hazards
linked with WWE participation, including drug and
alcohol abuse. Further factual development may shed
light on the existence or nonexistence of such a duty.
The WWE argues that under Connecticut law, a
fraudulent omission claim cannot proceed with respect
“to all facts which are open to discovery upon
reasonable inquiry.” [Def.’s Mem. at 50, citing Saggese
v. Beazley Co. Realtors, 109 A.3d 1043, 1056 (Conn.
App. 2015)]. The WWE notes that plaintiffs allege in
their complaints – in an attempt to bolster their
negligence claim – that “[t]he risks associated with
sports in which athletes suffer concussive and subconcussive blows have been known for decades,” and go

App. 176
on to describe “a selection of mounting medical
literature concerning head trauma.” [SAC ¶ 57].
In Saggese v. Beazley Co. Realtors, a Connecticut
Appellate Court upheld a trial court’s finding after a
bench trial that a real estate agent could not be held
liable for fraudulent non-disclosure of a letter
concerning litigation affecting a parcel of property that
had a negative effect on the value of the property in
question. 109 A.3d at 1050. In Saggese, the plaintiff
was made aware of the litigation when she and her
attorney were provided the docket numbers of the cases
involved. Id. at 1056. Finding that there had been no
fraudulent non-disclosure, the court held that “[t]he
substance of the [related] litigation was open to
discovery upon reasonable inquiry” and that “all of the
material information was in the plaintiff’s possession,
but neither she nor her agents made proper use of it.”
Id. The court noted that the real estate agent was not
an attorney and was not in a position to analyze or
comment on the importance of the related litigation. Id.
This Court reads Saggese as upholding a finding,
upon a full record after a bench trial, that the
defendant had not failed to make a “full and fair
disclosure of known facts,” because the known “facts”
that the defendant had a duty to disclose were the
docket numbers, and the very existence, of the related
litigation. A legal analysis of those facts – which might
have led the plaintiff to conclude that the value of the
property was at risk in the litigation, was incumbent
upon plaintiff’s attorney and the defendant was under
no further duty to disclose. The Court does not read

App. 177
Saggese as holding that under Connecticut law a
defendant cannot be held liable for non-disclosure of
publicly available facts.15 Indeed, such a holding would
seem to conflict with the Restatement (Second) of Torts
§ 540, which provides that “[t]he recipient of a
fraudulent misrepresentation of fact is justified in
relying upon its truth, although he might have
ascertained the falsity of the representation had he
made an investigation.” Restatement (Second) of Torts
§ 540 (1977); see also Vega v. Jones, Day, Reavis &
Pogue, 17 Cal.Rptr.3d 26, 35 (Cal. App. 2004) (“[T]he
contention that publicly available information cannot
form the basis for a concealment claim is mistaken.
The mere fact that information exists somewhere in the
public domain is by no means conclusive.”). Rather,
Saggese appears to concern issues of duty and nondisclosure that may present themselves at a later stage
in this case.
The Court notes that Plaintiffs’ 281-paragraph
“kitchen sink” Complaints certainly seem to present
contradictory claims that could make reliance upon
non-disclosure of “known facts” difficult to prove.
Namely, Plaintiffs allege both that information about
concussion risks was both widely known by the public

15

At the very least, Connecticut law is not clear that the public
availability of the facts alleged to have been non-disclosed will bar
recovery in a fraudulent non-disclosure action. But even if
Connecticut law did bar such claims, accepting all of the facts pled
in the complaints as true, WWE’s superior knowledge regarding
such issues may not have been open to discovery by the plaintiffs
upon reasonable inquiry. Again, factual development could shed
light on whether WWE possessed information outside the public
domain that was omitted or concealed.

App. 178
and at the same time fraudulently concealed from
Plaintiffs.
Read liberally, however, the complaints allege that
increasing public and scientific awareness of the risks
related to head trauma ultimately resulted in recent
discoveries regarding a link between repeated head
trauma and permanent degenerative neurological
conditions. In particular, the WWE is alleged in the
various complaints to have had knowledge of such a
link as early as 2005.16 For wrestlers active during and
after 2005, information about a link to permanent
degenerative conditions could plausibly have informed
plaintiffs’ own choices about whether and when to reenter the ring after sustaining a head injury and could
plausibly have prevented permanent brain damage.
Plaintiffs also allege that by virtue of its Wellness
Program, begun in 2007, WWE possessed superior
knowledge regarding a link between participation in
WWE wrestling events and such permanent conditions.
Because Singleton and LoGrasso are alleged to have
wrestled on or after 2005, when WWE’s knowledge of
the non-disclosed facts is alleged to have begun, their
claims for fraudulent non-disclosure may proceed.
Whether WWE may be held liable as a matter of
law for non-disclosure of known facts about permanent

16

As the Court noted in part I(D), supra, it is unclear how the
complaints arrive at the year 2005 as the year in which the WWE
had knowledge of a link between repeated head trauma from
concussive blows with permanent degenerative conditions.
Plaintiffs will need to establish a Record upon which a trier of fact
could conclude that WWE had knowledge of such a link at that
time or at any later time.

App. 179
degenerative neurological conditions that may result
from repeated concussions or sub-concussive impacts is
an issue that must be determined at a later stage in
this case. The fact that some or all of the material
known facts alleged to have been non-disclosed are
within the public domain could undermine Plaintiffs’
claim to detrimental reliance, at the very least. More
importantly, the development of a factual record may
reveal that WWE did not possess or fail to disclose
“known facts” about CTE or other degenerative
conditions and whether such conditions could result
from participation in WWE wrestling events.
WWE’s Motions to Dismiss is DENIED with respect
to the Fraud by Omission claims asserted by Plaintiffs
Singleton and LoGrasso. The Fraud by Omission claims
brought by Plaintiffs Haynes and McCullough are
DISMISSED.
7. No Separate Cause of Action for
Medical Monitoring
Lastly, WWE argues that there is “no independent
cause of action” under Connecticut law for “medical
monitoring.” [Def.’s Mem. at 43]. Plaintiffs respond
only to the extent that they argue that medical
monitoring “expenses are recoverable,” citing to cases
where such damages have been awarded. [Pl.’s Opp.
Mem. at 32]. In other words, plaintiffs failed to address
the argument completely, as the availability of
damages for medical monitoring costs and the
availability of medical monitoring as an independent
cause of action are wholly separate issues. A particular
type or measure of damages and a cause of action

App. 180
entitling a person to a particular type or measure of
damages are separate and distinct legal principles.
Few Connecticut courts have addressed this
question. One Connecticut trial court has held that
“[r]ecovery for such expenses would only be allowable
if these plaintiffs have sustained actionable injuries.”
Bowerman v. United Illuminating, No. X04CV
940115436S, 1998 WL 910271, at *10 (Conn. Super. Ct.
Dec. 15, 1998). One court in this district also noted the
availability of medical monitoring damages if the
plaintiff proved the existence of an actionable injury.
Martin v. Shell Oil Co., 180 F. Supp. 2d 313, 316 (D.
Conn. 2002) (JCH). Because plaintiffs have failed to
articulate any authority supporting the proposition
that plaintiffs can bring a cause of action for “medical
monitoring” separate and apart from their cause of
action for fraudulent omission under Connecticut law,
Plaintiffs’ claims for “Medical Monitoring,” are
DISMISSED. The court expresses no opinion as to
whether plaintiffs may recover such damages in the
event that they establish liability under a cause of
action for fraud by omission.
IV.

Conclusion

For the foregoing reasons, Plaintiffs’ negligence
counts are DISMISSED as those counts fail to state a
claim under Connecticut law. Plaintiffs’ negligent
misrepresentation and fraudulent deceit claims are
DISMISSED as plaintiffs have failed to identify with
specificity any false representation by WWE upon
which they have relied. Plaintiffs’ fraudulent
concealment and medical monitoring claims are

App. 181
DISMISSED as those claims do not state separate and
independent causes of action under Connecticut law.
However, WWE’s motion is DENIED IN PART with
respect to the fraudulent omission claim brought by
Plaintiffs Evan Singleton and Vito LoGrasso, to the
extent that claim asserts that in 2005 or later WWE
became aware of and failed to disclose to its wrestlers
information concerning a link between repeated head
trauma and permanent degenerative neurological
conditions as well as specialized knowledge concerning
the possibility that its wrestlers could be exposed to a
greater risk for such conditions.
WWE’s Motion to Dismiss the Singleton action [Dkt.
43] is GRANTED IN PART AND DENIED IN PART,
and WWE’s Motions to Dismiss the McCullough and
Haynes actions [Dkt. 95, Dkt. 64] are GRANTED in
FULL.
IT IS SO ORDERED.
/s/
Hon. Vanessa L. Bryant
United States District Judge
Dated at Hartford, Connecticut: March 21, 2016

App. 182

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
Docket Nos:
18-3278, 18-3322, 18-3325, 18-3326, 18-3327,
18-3328, 18-3330
[Filed: October 15, 2020]
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 15th day of October, two
thousand twenty.
_____________________________________________
William Albert Haynes, III, et al.,
)
)
Consolidated Plaintiffs-Appellants,
)
)
Kyros Law P.C., Konstantine W. Kyros,
)
)
Appellants,
)
)
v.
)
)
World Wrestling Entertainment, Incorporated, )
)
Consolidated Plaintiff-Defendant)
Appelle,
)
)

App. 183
Vincent K. McMahon, Individually and as
The Trustee of the Vincent K. McMahon
Irrevocable Trust U/T/A dtd.
June 24, 2004, et al.,

)
)
)
)
)
Consolidated Defendant – Appellee. )
_____________________________________________)
ORDER
Appellants filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

App. 184

APPENDIX G
STATUTES AND RULES INVOLVED
1. 28 U.S.C. § 2107 provides, in pertinent part:
(a) Except as otherwise provided in this section,
no appeal shall bring any judgment, order or
decree in an action, suit or proceeding of a civil
nature before a court of appeals for review
unless notice of appeal is filed, within thirty
days after the entry of such judgment, order or
decree.
....
(c) The district court may, upon motion filed not
later than 30 days after the expiration of the
time otherwise set for bringing appeal, extend
the time for appeal upon a showing of excusable
neglect or good cause. In addition, if the district
court finds–
(1) that a party entitled to notice of the entry of
a judgment or order did not receive such notice
from the clerk or any party within 21 days of its
entry, and
(2) that no party would be prejudiced,
the district court may, upon motion filed within
180 days after entry of the judgment or order or
within 14 days after receipt of such notice,
whichever is earlier, reopen the time for appeal

App. 185
for a period of 14 days from the date of entry of
the order reopening the time for appeal.
28 U.S.C. § 2107(a), (c).
2. Federal Rule of Appellate Procedure 4 provides,
in pertinent part:
(a) Appeal in a Civil Case.
(1) Time for Filing a Notice of Appeal.
(A) In a civil case, except as provided in Rules
4(a)(1)(B), 4(a)(4), and 4(c), the notice of appeal
required by Rule 3 must be filed with the district
clerk within 30 days after entry of the judgment
or order appealed from.
....
(5) Motion for Extension of Time.
(A) The district court may extend the time to file
a notice of appeal if:
(i) a party so moves no later than 30 days after
the time prescribed by this Rule 4(a) expires;
and
(ii) regardless of whether its motion is filed
before or during the 30 days after the time
prescribed by this Rule 4(a) expires, that party
shows excusable neglect or good cause.
....
(C) No extension under this Rule 4(a)(5) may
exceed 30 days after the prescribed time or 14

App. 186
days after the date when the order granting the
motion is entered, whichever is later.
(6) Reopening the Time to File an Appeal. The
district court may reopen the time to file an
appeal for a period of 14 days after the date
when its order to reopen is entered, but only if
all the following conditions are satisfied:
(A) the court finds that the moving party did not
receive notice under Federal Rule of Civil
Procedure 77(d) of the entry of the judgment or
order sought to be appealed within 21 days after
entry;
(B) the motion is filed within 180 days after the
judgment or order is entered or within 14 days
after the moving party receives notice under
Federal Rule of Civil Procedure 77(d) of the
entry, whichever is earlier; and
(C) the court finds that no party would be
prejudiced.
Fed. R. App. P. 4(a)(1)(A), (5)(A), (C), (6)
3. Federal Rule of Appellate Procedure 26 provides,
in pertinent part:
(b) Extending Time. For good cause, the court
may extend the time prescribed by these rules or
by its order to perform any act, or may permit an
act to be done after that time expires. But the
court may not extend the time to file:

App. 187
(1) a notice of appeal (except as authorized in
Rule 4) or a petition for permission to appeal;
Fed. R. App. P. 26(b)(1)
4. Federal Rule of Civil Procedure 58 provides, m
pertinent part:
(c) Time of Entry. For purposes of these rules,
judgment is entered at the following times:
(1) if a separate document is not required, when
the judgment is entered in the civil docket under
Rule 79(a); or
(2) if a separate document is required, when the
judgment is entered in the civil docket under
Rule 79(a) and the earlier of these events occurs:
(A) it is set out in a separate document; or
(B) 150 days have run from the entry in the civil
docket.
Fed. R. Civ. P. 58(c)
5. Federal Rule of Civil Procedure 60 provides, in
pertinent part:
(b) Grounds for Relief from a Final Judgment,
Order, or Proceeding. On motion and just terms,
the court may relieve a party or its legal
representative from a final judgment, order, or
proceeding for the following reasons:
....

App. 188
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b)(5), (6)

